1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_________________
No. 17-11455
_________________
D.C. Docket No. 3:14-cr-00075-BJD-PDB-1
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
DAVID MING PON,
Defendant-Appellant.
_________________
Appeal from the United States District Court
for the Middle District of Florida
_________________
(June 29, 2020)
Before ED CARNES, MARTIN, and ROGERS,* Circuit
Judges.
ED CARNES, Circuit Judge: A jury found David
Pon guilty of twenty counts of health care fraud, in

Honorable John M. Rogers, United States Circuit
Judge for the Sixth Circuit, sitting by designation.
*

2a
violation of 18 U.S.C. § 1347, and the district court entered a judgment of conviction on the verdict. After
finding that Pon’s fraud scheme resulted in a loss of
nearly $7 million, the court sentenced him to 121
months in prison. He appeals his convictions and sentence.
A jury found David Pon guilty of twenty counts of
health care fraud, in violation of 18 U.S.C. § 1347, and
the district court entered a judgment of conviction on
the verdict. After finding that Pon’s fraud scheme resulted in a loss of nearly $7 million, the court sentenced him to 121 months in prison. He appeals his
convictions and sentence.
I. FACTS
Pon was an ophthalmologist.1 As a sole practitioner, he established his practice with a main office in
Leesburg, Florida, and a satellite office in Orlando.
Many of his patients were elderly. He diagnosed hundreds of them with, and lasered their eyes to purportedly treat, a debilitating and uncurable eye disease
known as wet age-related macular degeneration
(WMD).
Here is how his scheme worked. Pon would run diagnostic tests on a patient. After diagnosing the patient with WMD, he would move on to the “treatment”
phase, which involved lasering one or both of the patient’s eyes. Pon would laser his patients’ eyes with
the laser set on the lowest power setting and in

Pon was once a licensed doctor but we do not refer to
him as one because Florida’s Board of Medicine revoked his
license in August 2016 as a result of the jury’s guilty verdict.
1

3a
micropulse mode.2 He would then submit a claim to
Medicare for the diagnostic tests and the laser session.
As a result, he would receive from Medicare around
$1,200 total for each set of diagnostic tests and lasering.
Pon would bill his micropulse laser sessions under
Medicare code 67220, the code for “laser photocoagulation for [WMD], for a choroidal neovascular membrane,” or in other words, “burning an area of abnormal leaking blood vessels with a laser.” Laser photocoagulation is a treatment for WMD that creates a scar
in the eye by “cooking” shut the abnormal blood vessels
(feeder vessels) that are characteristic of WMD. But
the extremely low power settings that Pon set his laser
to before each session were not high enough to achieve
coagulation, so his purported treatments left no scars
and did not fit under code 67220. One expert testified
that Pon’s settings were “way too low” for coagulation
purposes, and that his method was tantamount to
“jump-start[ing] [a car] off a flashlight. It’s so little
energy.”
And Pon agreed. He described his purported treatment technique — which he referred to as “the micropulse laser technique for treatment of feeder vessels”—as treating WMD while leaving “no or minimal
The laser that Pon used has several different user-selectable modes of operation. When micropulse mode is selected, the laser is on for only a predetermined percentage
of the exposure time. For example, a 15 percent duty cycle
means that the laser is on for only 15 percent of the exposure time and is off for the remaining 85 percent of the exposure time. Pon would set his laser to micropulse mode
with a 15 percent duty cycle before lasering his patients’
eyes.
2

4a
scarring.” According to Pon, “the whole concept” behind his purported treatment was to use the laser to
heat up the WMD feeder vessels “without causing a
burn.” His intention was “to get the effect from the
laser without causing a burn, coagulation.” In fact, according to Pon, he would “virtually never get a scar or
a burn” if he did his “technique properly.” But Pon continued to bill Medicare for his laser “treatments” under
code 67220 for laser photocoagulation—or laser scarring.
And Pon became a top Medicare biller of WMD laser scarring treatment, billing Medicare for his micropulse laser (which is intended not to create a scar), under code 67220 for laser photocoagulation (which is intended to create a scar). The percentage of his patients
whom he diagnosed with WMD and billed Medicare
under code 67220 for laser photocoagulation treatment
substantially increased over the years. Around 2006,
drug injections had supplanted laser photocoagulation
as the typically favored WMD treatment method, so
other ophthalmologists’ laser treatments and billing
amounts for laser photocoagulation went down. Pon’s,
by contrast, went up dramatically.
Pon’s practice produced puzzlement and sowed suspicion. Other doctors who also treated Pon’s patients
were puzzled about his WMD diagnoses and laser
“treatments.” In the fall of 2008, for example, Virginiabased doctor Robert Vogel was treating his longtime
patient, D.M., and noticed that the 83-year-old had
several left-eye maladies, but not WMD. Because D.M.
would be in Florida for the winter months, Dr. Vogel
told him to check in with an eye doctor after he got
there. D.M. chose Pon, who diagnosed him with WMD
and micropulse lasered his eyes. When D.M. returned
to Virginia a few months later, Dr. Vogel was

5a
“shocked” when D.M. told him that Pon had lasered
both of his eyes. Dr. Vogel examined both eyes, did not
see WMD in either of them, and could not understand
why either one would have been lasered. Nor did Dr.
Vogel see a scar in either eye that would indicate Pon
had used a laser at settings that would have treated
WMD if D.M. had actually suffered from it. This “unusual” situation prompted Dr. Vogel to tell D.M. to
find a doctor other than Pon the next time he went to
Florida.
Other experts observed similar anomalies involving Pon’s practice and patients. Optometrist Sam Williams referred some of his own patients to Pon, who
diagnosed every one of them with WMD. Dr. Williams,
who has more than forty-five years of experience as an
optometrist, became concerned when some of those patients told him that Pon had lasered their eyes on multiple occasions. As a result, Dr. Williams sent them to
other ophthalmologists for second opinions about the
medical necessity of the suspicious laser treatments.
“[O]n every occasion” the ophthalmologists found that
there was no sign Pon had lasered those patients’ eyes
in a way that would actually treat WMD or that the
patients needed any laser treatment for any eye disease. Dr. Williams stopped referring his patients to
Pon.
Ophthalmologist and retinal specialist Elias
Mavrofrides discovered much the same thing. He examined at least thirty of Pon’s patients and determined that, although many reported having undergone repeated laser treatment by Pon for WMD, their
eyes showed no signs of the disease. Many of Pon’s
patients told Dr. Mavrofrides that they were not sure
why Pon was lasering their eyes, but “were told that
they would lose vision without treatment.” Dr.

6a
Mavrofrides thought that Pon’s reported use of lasers
on his patients “over and over and over [was] extremely atypical or unusual.” In 2008 an optometrist
referred to Dr. Mavrofrides a patient Pon had diagnosed with WMD and lasered eight months in a row.
After examining the patient, Dr. Mavrofrides wrote a
letter to the optometrist stating that he “honestly d[id]
not see any necessity for the [laser] treatments [the
patient] has had.”
Sometime before the fall of 2011 the government
discovered Pon’s scheme. It happened when Special
Agent Christian Jurs conducted a data analysis to determine whether any doctors were billing Medicare
under codes associated with what he was told were
outdated WMD treatment methods, including laser
photocoagulation.3 That analysis revealed that Pon
was a “significant outlier” with respect to the Medicare
claims he submitted under 67220, the billing code for
laser photocoagulation. In 2010, for example, Pon had
submitted claims under that code for approximately 93
percent of his Medicare patients, while his ophthalmologist peers had submitted claims under that code
for an average of only seven-hundredths of one percent
of their patients. That is a disparity of about 132-to-1.
The disparity prompted Agent Jurs to run Pon’s name
through a complaint database, which showed that an
unidentified person had lodged a complaint about

Special Agent Jurs is a Medicare fraud investigator
who became an agent with the United States Department
of Health and Human Services after having worked as a
naval intelligence officer and as an agent for the Naval
Criminal Investigative Service. He has worked with Medicare data on numerous occasions since he became a HHS
special agent nearly two decades ago.
3

7a
Pon’s WMD treatment. And that, in turn, prompted
him to interview approximately thirty doctors who had
seen patients whom Pon had diagnosed with WMD
and micropulse lasered. After Agent Jurs conducted
some of those interviews, the government obtained a
warrant to search Pon’s offices.
In September 2011 federal law enforcement officers
executed the search warrant and seized Pon’s patient
files along with thousands of photographs and videos
of his patients’ eyes. The next month the Centers for
Medicare and Medicaid Services sent Pon a letter notifying him that it had suspended his Medicare payments based on what it identified as “credible allegations of [health care] fraud.” The suspension letter
stated that between 2004 and 2011 Pon had submitted
Medicare claims under codes associated with laser
photocoagulation treatment and a type of WMD diagnostic test “that were disproportionate to claims submitted by other ophthalmologists for these codes,” and
“that many of [Pon’s] patients did not have the underlying medical conditions that would support the procedures represented by these codes.”
Sometime after Pon’s Medicare payments were suspended, Agent Jurs retained an expert, Dr. Thomas
Friberg, to review the photos and videos of the eyes of
about 500 patients whom Pon had diagnosed with
WMD. Dr. Friberg was asked to review whether Pon’s
patients did, in fact, have WMD. Dr. Friberg had obtained his medical degree from the University of Minnesota, completed an ophthalmology residency at
Stanford University Medical Center, and held fellowships at the Harvard Medical School and the Duke
University Eye Center. He is a professor of ophthalmology and a professor of bioengineering at the University of Pittsburgh, has authored or co-authored

8a
more than 175 articles in peer-reviewed publications,
and has, over the course of his four-decade career, received more than $7 million in grants to study age-related eye diseases, including WMD.
Dr. Friberg’s review of the more than 10,000 images of the eyes of patients whom Pon had diagnosed
with WMD and “treated” took him about a year to complete. He found what he saw “shocking.” He realized
that he “was looking at hundreds of images of patients
that had nothing wrong with their eye[s].” According
to Dr. Friberg, maybe “five to ten”—only one or two
percent—of the 500 patients whom Pon had diagnosed
with WMD actually had any form of macular degeneration. Dr. Friberg concluded that Pon had shown a
“reckless disregard for his patients.”
II. PROCEDURAL HISTORY
In April 2014 a federal grand jury returned a
twenty-count indictment against Pon. Each count
charged him with health care fraud, in violation of 18
U.S.C. § 1347.4 The indictment alleged that he committed health care fraud by falsely diagnosing eleven
of his patients with WMD and using those false diagnoses as a basis for submitting a total of twenty Medicare reimbursement claims (a different one described
in each count) for performing both additional WMD
Section 1347 makes it a crime to “‘knowingly and
willfully’ engage in a scheme (1) ‘to defraud any health
care benefit program’ or (2) to use false pretenses to
obtain money from ‘any health care benefit program,’
‘in connection with the delivery of or payment for
health care benefits, items, or services.’” United States
v. Bergman, 852 F.3d 1046, 1065 (11th Cir. 2017)
(quoting 18 U.S.C. § 1347).
4

9a
testing that he knew was medically unnecessary and
laser sessions that could not actually treat the disease
even if the patients had been suffering from it, which
they had not.5 Pon faced a statutory maximum of ten
years per count. 18 U.S.C. § 1347(a). He went to trial.
A. The Daubert Hearing
Before trial Pon notified the government that he intended to offer the expert testimony of Giorgio Dorin,
a former director of development at the company that
manufactured the laser Pon used. Dorin’s proposed
testimony boiled down to two main points. First, he
would testify about the general concepts of lasers and
their application to eye diseases. Second, he would testify about a “newer method” of treating WMD that Pon
said he had used on his patients: “subthreshold micropulse laser photostimulation.” Dorin would opine that
the newer method could be used to close feeder vessels
in a way that, unlike laser photocoagulation, would not
leave a scar. Dorin chose to use the term “photostimulation” because the term “photocoagulation” suggests
that the treatment necessarily produces a visible scar.
The object of Dorin’s testimony would be to show that
the low-power laser sessions Pon had subjected his patients to could actually treat WMD and could do so
without leaving a telltale scar.
The government moved to exclude Dorin’s proposed
testimony under Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579 (1993), after its medical and
laser experts advised it that “Dorin’s assertion
To protect their privacy, the indictment does not
refer to the patients by name, and we will follow that
lead by referring to them as the eleven patients, or individually as Patient One, Patient Two, and so on.
5

10a
regarding subthreshold micropulsed laser ‘photostimulation’ is not a medically accepted standard of care for
the treatment of [WMD].” The government stated in
its motion “that the term now used by the defense, laser ‘photostimulation[,]’ is apparently an attempt to
somehow legitimatize the fact that there is no scarification in the retinas of [Pon’s] victims.”
The district court held a three-day Daubert hearing. Dorin was the only witness for the defense. The
government put on two witnesses—Dr. Friberg and
David Buzawa, the co-founder of the company that
manufactured Pon’s laser. All three of the witnesses
testified about whether subthreshold micropulse laser
photostimulation (which left no scar) could treat
WMD.
At the hearing, Dorin testified that the use of subthreshold micropulse laser photostimulation to treat
WMD was “[t]heoretical[].” He conceded that he was
unaware of any journal article stating that it is possible to use subthreshold micropulse photostimulation
with Pon’s laser to treat WMD. But he talked about
previous research that he said at least supported the
idea. He described a study showing that subthreshold
micropulse laser treatment was effective for diabetic
macular edema, but that is a different medical condition than WMD. Defense counsel then asked Dorin
whether he could, as a result of that one study involving diabetic macular edema, infer that subthreshold
micropulse laser treatment was effective for WMD.
Dorin responded: “I don’t see why ... not, but we don’t
have so many paper[s] published yet. I have not seen
the clinical data.”
Dorin also discussed a paper he authored that a
peer-reviewed ophthalmology journal published in

11a
2004, when Dr. Friberg was the journal’s editor-inchief. In the paper Dorin stated that “laser pulses”
could treat WMD by closing feeder vessels and could
do so without causing “retinal burns.” Dorin’s paper
concluded, however, that “[i]t does take a ‘leap of faith’
to accept that a retina with serious disease can be
treated with ... sub-visible-threshold protocols and
without the use of additional pharmacological agents.”
At the Daubert hearing, the government called Dr.
Friberg. Dr. Friberg testified that Dorin’s proposed
theory about subthreshold micropulse laser photostimulation had not been tested and had “absolutely
not” gained general acceptance in the scientific community. He also testified that Dorin’s statement that
subthreshold micropulse laser photostimulation can
produce the same beneficial effect as laser photocoagulation was “crazy.” When asked whether there was
even one study showing that the type of laser Pon used
has closed a feeder vessel without leaving a scar while
in micropulse mode, Dr. Friberg responded: “No.” He
believed that there was “absolutely no acceptance in
the ophthalmological community for Dorin’s conjecture.”
The government’s other witness at the Daubert
hearing, David Buzawa, held nine patents related to
laser technology and had nearly forty years of experience with lasers. He was also the co-founder of the
company that manufactured Pon’s laser. Buzawa testified that the power settings that Pon said he set his
laser to before each laser session were “unusually low
for micropulse.” Buzawa also stated that he had
“never heard of or read a publication of successful
feeder vessel closure using micropulse [mode] at
[Pon’s] settings or any settings.” He concluded that
feeder vessel treatment always creates a visible scar,

12a
according to “every paper and presentation that [he
had] heard or read.”
At the end of the Daubert hearing, defense counsel
admitted that his proffered witness “Dorin [was] drawing conclusions that have not yet been scientifically
tested.” The district court ruled that Dorin could testify about the general concepts of lasers and their applications. But he could not offer his opinion that subthreshold micropulse laser photostimulation could
treat WMD by closing feeder vessels. The court found
that Dorin’s proposed opinion was “conjecture” and
ruled that it did not satisfy either Federal Rule of Evidence 702 or Daubert. Then came the jury trial.
B. The Trial
The jury trial began in September of 2015. The government presented nineteen witnesses and introduced
more than 700 exhibits during its seven-day case-inchief.
Dr. Friberg was one of the government’s first witnesses. He began with an overview of the science behind WMD and how it is diagnosed and treated. He
explained, for example, that laser photocoagulation,
which is billed under Medicare code 67220, is a WMD
treatment that can be used to “cook” feeder vessels. He
testified that laser photocoagulation did not “have
much uptake” in the medical community because the
laser leaves behind a scar that can itself impair vision.
Dr. Friberg also testified that he was “very certain”
that if a doctor uses “enough [laser] energy ... to cook
the feeder vessel, you’re going to leave a [scar].” And
he stated that he was “[a] hundred percent” certain
that Pon’s micropulse laser technique could not close a
feeder vessel.

13a
Dr. Friberg also explained the science behind drug
injections, another WMD treatment that was introduced after laser photocoagulation. He testified that
“there is no [WMD] treatment that we know of that is
better than these [drug injections].”
Dr. Friberg then described how Agent Jurs had retained him to review the photos and videos of the eyes
of the approximately 500 patients whom Pon had diagnosed with WMD and “treated” with his micropulse laser technique. Dr. Friberg described how his review of
those photos and videos revealed that the vast majority of those patients did not actually have WMD. For
that reason, what he saw in his review “got [him] kind
of mad.” According to Dr. Friberg, Pon was unnecessarily lasering the eyes of patients for a disease they
did not have.
Dr. Friberg discussed in front of the jury hundreds
of images of the eyes of the eleven patients identified
in the indictment—patients Pon had diagnosed with
WMD and for whom Pon had billed Medicare under
code 67220 for laser photocoagulation treatment for
that disease. Dr. Friberg testified that based on his
review of the images he did not see any indication that
any of those eleven patients had WMD or any evidence
of the scarring that necessarily results from laser photocoagulation treatment. See infra [at 36a–49a].
The government also presented the testimony of
other doctors who had personally examined the eleven
patients. With each of those doctors the government
went patient by patient, eliciting testimony about each
patient; the doctors explained to the jury the medical
records they had created to document their examinations of the patients. See id. None of those doctors
concluded that any of the eleven patients had WMD

14a
when Pon diagnosed them with it. Some of those patients did not even have dry age-related macular degeneration, which typically precedes WMD. And several doctors echoed Dr. Friberg’s conclusion; they testified that treating WMD by using laser photocoagulation always leaves a scar indicating the use of that
treatment method—a scar that the doctors testified
they did not see in the eyes of the eleven patients listed
in the indictment, even though Pon had billed Medicare under code 67220 for the laser photocoagulation
treatment of each patient.
One doctor read from a medical record of his own
examination of one of the eleven patients. Pon had
billed Medicare more than ten times under code 67220
for the laser photocoagulation of that patient. In his
own medical record, the doctor stated that both of the
patient’s retinas were “completely normal.” He testified that he had seen many of Pon’s patients for a second opinion, and all of them “had a history of multiple
[billed laser photocoagulation] procedures without any
visible indication for such procedures or any clinical
evidence that such procedures had been performed.”
The jury also heard from some of the eleven patients themselves. One of them testified that only after a second doctor confirmed that she did not actually
have WMD was she relieved of the shock and fear she
felt as a result of her diagnosis. Another testified that
Pon never gave her the option of drug injections instead of laser treatments, and she “felt terrible” after
another doctor told her that she did not have WMD.
Despite the fact that Pon had diagnosed both of those
patients with WMD years before the trial, and they
had never received any medically recognized treatment for it, each of them testified that they still had
the requisite vision to (and did) drive a car.

15a
After the government rested, Pon himself took the
stand. He testified that he ran so many diagnostic
tests (and billed Medicare for them) because he wanted
to be “as comfortable as possible not to miss a diagnosis.” He claimed that the reason the patients did not
have a scar in their eyes showing that they had undergone the laser photocoagulation treatment he had
billed Medicare for was his use of what he termed his
“miraculous treatment.” As had Dorin at the Daubert
hearing, Pon testified that his micropulse laser technique could not only treat WMD but could do so without leaving a telltale scar. His technique, Pon explained, was to set his laser to the lowest power settings before each session and then adjust those settings during the session “until [he] s[aw] the reaction
that [he] want[ed] to get.” He said that he had attended a presentation “in the early 2000s sometime”
that discussed this purported treatment, which he described as “the most fantastic news [he had] ever
heard,” and “a major breakthrough.” He did not, however, have any memory of when or where the presentation took place. None.
After hearing the presentation, Pon was “real enthusiastic” that he could use the technique described
“to help a lot more patients.” Pon said that he believed
the technology used to perform the technique described in the presentation was “the greatest thing
since sliced bread,” so he purchased the necessary
equipment. But he later testified that “it all happened
about the same time,” so he couldn’t “recall exactly”
whether he bought the new equipment before or after
the presentation he claimed had inspired him.
Pon said that once he had the equipment, he began
to practice the technique he had heard about in the
presentation. He first attempted the technique “on the

16a
patients that [we]re very advanced, so there’s really
not very much downside risk there.” Eventually he
“got the procedure to evolve” so that the risk was “almost zero.” He did not say whether he had billed Medicare under code 67220 for laser photocoagulation on
these early, experimental patients as he had billed
Medicare for laser photocoagulation on the patients
listed in the indictment.
Pon testified that an important part of his purported treatment was his ability to identify and diagnose WMD in its very early stages. He claimed that
by using the new technology he could “visualize, directly visualize, these blood vessels” that caused
WMD. But, even with the new technology, “finding the
feeder vessel ... is extremely difficult, even for someone” with a lot of experience diagnosing WMD. Pon
testified that learning how to accurately interpret the
diagnostic images and identify the feeder vessel locations “takes a lot of learning,” and “takes years, literally years, to learn how to do.”
Pon admitted he did not “know of anybody specifically” who used the same micropulse laser technique
to treat WMD. He said that one reason he might be
the only one doing so is that the technique has “a steep
learning curve.” But he was “too busy”—despite taking at least two months of vacation each year—and
didn’t “feel obligated” to publish anything describing
his technique or the treatment results he was achieving.
After Pon’s testimony, the defense called thirteen
of his patients and the spouse of one deceased patient.
Only one of those patients was among the eleven listed
in the twenty counts of the indictment. They generally
testified that they thought Pon was generous and

17a
trustworthy and that their vision had improved after
seeing him. They were not, of course, qualified to testify whether they had ever actually had WMD.
After the government presented some rebuttal testimony, Pon presented some surrebuttal testimony,
and the case eventually went to the jury, which found
him guilty on all twenty counts.
C. The Sentencing
At Pon’s sentence hearing, the district court rejected the probation office’s finding and the government’s argument that the amount of loss attributable
to Pon’s fraud scheme was more than $11 million. Instead, the court found that the loss amount was approximately $7 million, which resulted in an 18-level
enhancement to the base offense level. The court’s application of that and other enhancements yielded an
advisory guidelines range of 121 months to 151
months in prison. The court sentenced Pon to 121
months in prison on each count, to run concurrently.
III. THE CONVICTION ISSUES
Pon raises two contentions about his convictions,
neither of which questions the sufficiency of the evidence to convict him. First, he contends that under
Daubert and Federal Rule of Evidence 702, the district
court should have allowed his expert to testify about
the use of subthreshold micropulse photostimulation
as a treatment for WMD. Second, Pon contends that
the district court should not have allowed the government to present rebuttal evidence showing that he
billed Medicare for performing services on patient
J.L.’s blind left eye. In the alternative, he argues that
even if that rebuttal evidence was properly admitted,
the court should have allowed him to present all of his
surrebuttal evidence.

18a
A. The Daubert Issue
It is not easy to persuade a court of appeals to reverse a district court’s judgment on Daubert grounds.
United States v. Brown, 415 F.3d 1257, 1264 (11th Cir.
2005). Doing so is tough toil because the “theme that
shapes appellate review in this area is the limited nature” of that review. Id. We review evidentiary decisions under the abuse of discretion standard. Id. at
1264–65 (citing Gen. Elec. Co. v. Joiner, 522 U.S. 136,
141 (1997)). And under that standard district courts
have a “significant” range of choice, which is to say
that we defer to their evidentiary “decisions to a considerable extent.” Id. at 1265; accord McCorvey v. Baxter Healthcare Corp., 298 F.3d 1253, 1257 (11th Cir.
2002) (“[O]ur review of evidentiary rulings by trial
courts ... is very limited.”) (quotation marks omitted).
The deference we show trial courts on evidentiary
rulings is especially pronounced in the Daubert context, where the abuse of discretion standard places a
“heavy thumb”—“really a thumb and a finger or two”—
“on the district court’s side of the scale.” Brown, 415
F.3d at 1268. That’s done for a number of reasons.
The district court occupies the best position to rule on
Daubert issues given its familiarity “with the procedural and factual details” of the trial, which it presides
over and is immersed in. Id. at 1266. The rules that
control the admission of expert testimony “must be applied in case-specific evidentiary circumstances that
often defy generalization.” Id. And deference maintains the importance of the trial and discourages appeals of rulings about expert witness testimony. See
id. As a result, “the task of evaluating the reliability
of expert testimony is uniquely entrusted to the district court,” and we must grant “the district court considerable leeway in the execution of its duty.” Rink v.

19a
Cheminova, Inc., 400 F.3d 1286, 1291 (11th Cir. 2005)
(citations and quotation marks omitted). We do so
mindful, of course, that granting that leeway “is not
the same thing as abdicating appellate responsibility.”
Brown, 415 F.3d at 1266.
After holding a three-day Daubert hearing, the district court found that Dorin’s theory that subthreshold
micropulse photostimulation could treat WMD by closing feeder vessels was unreliable. As a result, it allowed Dorin to testify about only the general concepts
of lasers and their application to eye diseases. That
ruling was not an abuse of discretion.
Federal Rule of Evidence 702 “controls the admission of expert testimony.” United States v. Frazier, 387
F.3d 1244, 1259 (11th Cir. 2004) (en banc). Under that
rule expert witnesses may testify if, among other
things, their “testimony is the product of reliable principles and methods.” Fed. R. Evid. 702(c). Determining whether expert testimony is the product of “reliable principles and methods” is the province of the
Daubert test. See City of Tuscaloosa v. Harcros
Chems., Inc., 158 F.3d 548, 562 (11th Cir. 1998) (stating that courts must determine whether “the methodology by which the expert reaches his conclusions is
sufficiently reliable as determined by the sort of inquiry mandated in Daubert”).
Daubert instructs that a reliability determination
involves four main inquiries about the expert’s theory
or technique: “(1) whether it can be (and has been)
tested; (2) whether it has been subjected to peer review
and publication; (3) what its known or potential rate of
error is, and whether standards controlling its operation exist; and (4) whether it is generally accepted in

20a
the field.” Brown, 415 F.3d at 1267 (citing Daubert,
509 U.S. at 593–94).
In Joiner the Supreme Court added another inquiry to gauge reliability: whether there is “an analytical gap between the data and the opinion proffered.”
522 U.S. at 146; accord McDowell v. Brown, 392 F.3d
1283, 1300 (11th Cir. 2004) (“[A]n expert opinion is inadmissible when the only connection between the conclusion and the existing data is the expert’s own assertions ....”) (citing Joiner, 522 U.S. at 146). If the analytical distance between the data and the opinion proffered “is simply too great,” a court may conclude that
the opinion is unreliable. Joiner, 522 U.S. at 146.
Here, three of the four Daubert factors weigh
against the reliability of Dorin’s theory. First, Dorin
testified that although his theory could be tested, it
has not been. Dr. Friberg agreed. So did defense counsel, who conceded that “Dorin [was] drawing conclusions that have not yet been scientifically tested.” And
like Pon, Dorin acknowledged that he did not “know of
anybody doing it.” Second, Pon failed to provide evidence about the theory’s known or potential rate of error and whether any standards exist to control for error. Dorin himself acknowledged that he “ha[d] not
seen ... clinical data” about it. And third, the record
shows that Dorin’s theory is not generally accepted in
the ophthalmology field. Dr. Friberg testified that the
theory has “[a]bsolutely not” gained that acceptance.
Buzawa’s testimony that “[f]eeder vessel treatment
has always been superthreshold,” instead of subthreshold, according to “every paper and presentation
that [he had] heard or read” confirmed the point.
That leaves only one factor that weighs—ever so
slightly—in favor of reliability: Dorin’s peer-reviewed

21a
paper mentioning the theory. But just as “[p]ublication ... is not a sine qua non of admissibility,” Daubert,
509 U.S. at 593, publication alone is not enough to conclude that a district court abused its discretion in not
admitting expert testimony, see Allison v. McGhan
Med. Corp., 184 F.3d 1300, 1313 (11th Cir. 1999).
A further indication that Dorin’s theory was unreliable is the analytical gap between it and the research
that Dorin said supports it. See Joiner, 522 U.S. at
146. At the hearing, Dorin suggested that because a
study showed subthreshold micropulse laser treatment can treat diabetic macular edema, his theory
that it could treat WMD is sound. That is a “leap[ ]
from an accepted scientific premise to an unsupported
one.” Allison, 184 F.3d at 1314. Diabetic macular
edema is a different condition than WMD. Between
the premise that subthreshold micropulse laser treatment can treat the first condition and Dorin’s theory
that it can treat the second one, there is an analytical
gap.
Instead of properly bridging that gap, Dorin tried
to ipse dixit over it; but a bald assertion cannot carry
the Daubert burden. See Williams v. Mosaic Fertilizer,
LLC, 889 F.3d 1239, 1249 (11th Cir. 2018) (“[N]othing
in either Daubert or the Federal Rules of Evidence requires a district court to admit opinion evidence that
is connected to existing data only by the ipse dixit of
the expert.”) (quoting Joiner, 522 U.S. at 146). The
district court concluded that “there [was] simply too
great an analytical gap between the data and the opinion proffered.” Joiner, 522 U.S. at 146. That was not
an abuse of discretion but a proper exercise of the

22a
“considerable leeway” the court had. Kumho Tire Co.
v. Carmichael, 526 U.S. 137, 152 (1999).6
B. The Rebuttal Issue
Pon also contends that his convictions must be reversed because the district court erred in two of the
evidentiary rulings it made during his fourteen-day
trial: (1) allowing the government to present rebuttal
evidence showing that he billed Medicare for performing certain medical services on J.L., who was one of his
patients, and (2) partially limiting the scope of his surrebuttal evidence about J.L. We review both of those
evidentiary rulings only for an abuse of discretion. See
Frazier, 387 F.3d at 1270; United States v. Haimowitz,
706 F.2d 1549, 1560 (11th Cir. 1983). And an abuse of
discretion does “not warrant reversal where the resulting error was harmless.” United States v. Barton, 909
F.3d 1323, 1330 (11th Cir. 2018).
One of the fourteen defense witnesses (not counting
Pon) was J.L., who took the stand on the eleventh day
of the trial. Like some of Pon’s other patients who appeared as defense witnesses, J.L. testified about his
history as Pon’s patient and described him as generous
and trustworthy. He also told the jury that in 1994
both of his retinas had detached because of a complication from diabetes and Pon had performed surgery
that year on each eye—the left eye in July and the
Pon also argues that the district court violated his
Sixth Amendment right to put on a meaningful defense because it “mechanistically” applied the Daubert
factors. We disagree. The district court gave ample
reasons why three of those factors weighed against the
reliability of Dorin’s theory and outweighed the fourth
factor.
6

23a
right eye in August. Pon knew J.L. was unemployed
and uninsured at the time and performed the surgeries without any guarantee he would be paid. The 1994
surgery on J.L.’s right eye was successful, but the one
on his left eye was not; he lost all of his sight in it soon
after that surgery.
Defense counsel also put into evidence excerpts of
Pon’s treatment records for J.L. Those records included logs in which Pon documented procedures he
had performed on J.L.’s right eye between 2004 and
2015. They also indicated that Pon had diagnosed J.L.
with WMD in 2009 and had micropulse lasered J.L.’s
right eye several times. The excerpts from Pon’s records of treating J.L. did not list any tests or procedures
that Pon had performed on J.L.’s blind left eye.
During cross-examination, the prosecutor asked
J.L. when Pon had last performed any procedure on
his left eye, the one in which he had been completely
blind for more than twenty years. J.L. said it had
“been a couple years”; he said Pon did a “regular eye
check on it,” which involved an exam with “the eye
charts,” an “ultrasound,” and “pictures,” but that Pon
had done no “major procedures” on his left eye. The
prosecutor then asked J.L. whether Pon had ever done
“any kind of an injection” or any “dye tests” in J.L.’s
left eye. J.L. responded: “No. I’ve never had anything
done in my left eye.” On redirect, J.L. reiterated that
Pon had not done “any tests on [his] left eye,” including
fluorescein angiograms, but Pon had examined that
eye “a couple times” by looking at it “through a lens” to
see if he could improve the vision in it. J.L.’s firm testimony that Pon had never done any fluorescein angiograms on his left eye was significant because it contradicted the bills Pon submitted to Medicare on at
least a half dozen occasions—bills for performing

24a
fluorescein angiogram tests on J.L.’s totally blind left
eye. See infra [at 26a–29a].
In light of J.L.’s testimony and the medical records
Pon’s attorney had put into evidence, the government
sought to introduce through one of its agents rebuttal
evidence in the form of a spreadsheet and related testimony. Agent Jurs had created the spreadsheet after
J.L. testified by looking through Pon’s Medicare claims
history for billings related to J.L.’s left eye after 1994,
when he had lost all of his sight in it. The billing records for the decade between 1994 and 2004 were not
available,7 but the records from 2004 until the trial in
2015 were.
The spreadsheet showing the billings and Agent
Jurs’ testimony established that Pon had billed Medicare for performing services on J.L.’s left eye—in
which he had been blind since 1994—52 times between
2004 and 2015. Those 52 billings totaled approximately $19,500 and, aside from three billings for a
January 2009 surgery on the blind eye (which Pon
would later testify were merely the result of clerical
errors), all of the billings were for ophthalmic ultrasounds, fluorescein angiograms, and fundus photography, which are diagnostic tests.
Pon billed Medicare all of those times and for all of
that money claiming that he had done procedures on
J.L.’s blind left eye, including fluorescein angiograms,
Agent Jurs testified that he wasn’t certain why he
had not been able to access Pon’s Medicare billing records before 2004. He thought the most likely explanation was that the Medicare system did not give records
that “go back, you know, to when the earth cooled.
They usually go [back] a five- or ten-year time frame.”
7

25a
even though his own witness, J.L., testified that Pon
never performed a fluorescein angiogram or any test
involving the injection of dye on his left eye. All Pon
had ever done on that eye, J.L. insisted, was perform
a “regular eye check on it,” and examine it by looking
through a lens “a couple of times.” His testimony evidenced, at the very least, that Pon’s six billings for fluorescein angiograms, which involve the injection of
dye, on J.L.’s left eye were fraudulent.
Defense counsel moved to exclude the spreadsheet
and Agent Jurs’ testimony about it, arguing that the
evidence was not proper rebuttal. The district court
allowed the government to present the rebuttal evidence because the court recalled (incorrectly, it turned
out) that the defense, during J.L.’s testimony, had
been the first to bring up the fact that Pon had treated
J.L.’s blind left eye. Pon asserts that ruling was reversible error. It wasn’t.
Rule 611(a) vests district courts with authority to
“exercise reasonable control over the mode and order
of examining witnesses and presenting evidence.” Fed.
R. Evid. 611(a). District courts have “broad discretion” in exercising that authority and will not be reversed except for abuse of that discretion. United
States v. Hill, 643 F.3d 807, 845 (11th Cir. 2011); accord Haimowitz, 706 F.2d at 1560. Pon presented
J.L.’s testimony as an example of how he had treated
a patient out of the goodness of his heart and not for a
profit motive. In light of that, the district court did not
abuse its discretion in admitting billings Pon had generated for services he claimed to have rendered on that
patient’s blind eye.

26a
C. The Surrebuttal Issue
1. The Procedural Facts
Pon alternatively asked the district court, if it was
not going to keep out the government’s rebuttal evidence, to let Pon retake the stand and present as surrebuttal evidence his explanation for billing Medicare
for services on J.L.’s blind left eye. The court reserved
a ruling on that alternative request until after the government presented its rebuttal evidence.
After the government did so, Pon renewed his request to present surrebuttal testimony, arguing that
he had not had an “opportunity to respond” to the “impression” the government created that Pon improperly
conducted and billed for treatments on a blind eye.
The district court characterized the government’s rebuttal evidence as “very damning” and stated that it
had “this idea of fairness tug[ging]” at it, but its “inclination” was to deny the defense’s request that Pon be
allowed to testify again. The court also asked “the further question of whether, in deference to ... Dr. Pon’s
Sixth Amendment right ... he should be given an opportunity to offer an explanation” about the billed procedures for J.L.’s blind left eye. The court gave the attorneys the weekend to research the surrebuttal issue
and indicated it would do the same.
On Monday, the court heard argument from both
sides about whether it had erred by allowing the government’s rebuttal testimony and, if so, how any error
should be remedied. Neither side mentioned the Sixth
Amendment or any other constitutional right that Pon
might have to present surrebuttal testimony. Before
ruling, the court allowed Pon to proffer the testimony
he wished to present in response to the government’s
rebuttal evidence. He took the stand in a testimonial

27a
proffer, stating that he had performed services on
J.L.’s blind left eye to determine whether it had a problem that could lead to complications that might result
in a complete loss of vision in the right eye.
Pon testified that ophthalmic ultrasounds, which
made up 41 of the 52 billings in the spreadsheet, are
used to look for abnormalities in the eye. And in J.L.’s
case, “it’s very important to examine his left eye and
continue to examine his left eye” to make sure he was
not developing sympathetic ophthalmia—a condition
that can lead to blindness in both eyes. For that reason, Pon said that it was necessary to examine J.L.’s
left eye “periodically.” But Pon didn’t explain what
“periodically” meant, and he didn’t explain why he
needed to examine J.L.’s left eye as frequently as he
billed Medicare for doing. The records proved that Pon
sometimes billed Medicare for performing ophthalmic
ultrasounds on J.L.’s left eye multiple times in one
month and, on at least four occasions, twice on the
same day.
When asked about the six fluorescein angiograms
he had billed Medicare for conducting on J.L.’s blind
left eye, Pon said they are “a very useful test to help
diagnose sympathetic ophthalmia.” Of course, J.L.
himself had emphatically testified that Pon never performed a fluorescein angiogram on his left eye. Pon
didn’t offer any explanation for that contradiction.
Finally, Pon also proffered that the January 2009
surgery was done on J.L.’s right eye, not his left as Pon
had billed Medicare. He said that billing for surgery
on the left eye resulted from a “clerical error.”
After the proffer, defense counsel argued that it
would be “incorrect” and “misleading” to prevent Pon
from testifying about the clerical error in the billing of

28a
the January 2009 surgery. The district court agreed
and decided to let Pon testify that he billed for surgery
on the wrong eye as a result of a clerical error. The
court would not allow Pon to testify about any of the
numerous non-surgical services on the blind left eye
and why he claimed they were necessary.
After the jury returned, Pon took the stand and testified that the billing for surgery on J.L.’s left eye in
2009 was a clerical error, and that surgery actually
had been performed on J.L.’s right eye. On cross-examination, Pon admitted that those three 2009 clerical
errors about the surgical services were “just three entries out of two pages of entries,” and that the total
billing for those three entries was “less than $3,000.”
The two pages of entries showed that Pon had billed
$16,441 for the 49 non-surgical services on J.L.’s blind
left eye—billings that Pon never claimed were the result of clerical error.
During closing arguments to the jury, the government spent its time and aimed its arguments at the
evidence involving the fraudulent billings for treatments Pon claimed to have rendered to the eleven patients listed in the indictment—evidence it had presented through nineteen witnesses and nearly 760 exhibits over seven days of the fourteen-day trial. It
mentioned J.L. (who had testified for less than one
hour of the trial), but just barely. It described him only
as someone Pon had incorrectly diagnosed with WMD.
It said nothing at all about any services that Pon had
billed for J.L.’s blind left eye. Not one word.
Defense counsel, by contrast, discussed J.L. at
length in his closing argument. Referring to the surgery Pon had performed on J.L. in 1994, for which Pon
did not know if he would get paid, counsel asked the

29a
jury: “Is that, ladies and gentlemen, what a fraudster
would do?” And addressing the rebuttal evidence that
Pon billed for services on J.L.’s blind left eye, counsel
argued:
I submit to you that the diagnostic tests and examinations that Dr. Pon did, whether it’s on the
right eye, which still was viable, or the left eye,
which he was legally blind in, are still tests that
are appropriate for a doctor to do, and there’s
absolutely nothing wrong with doing those tests
and billing Medicare for it.
However, he did not offer the jury any explanation for
why J.L., the witness he called who would have been
the subject of those tests—including tests involving
dye injections—would testify under oath that at least
some of them had never been performed.
After closing arguments, the court instructed the
jury, among other things, that Pon was “on trial only
for the specific crimes charged in the indictment,” and
the jury’s task was to determine whether Pon was
“guilty or not guilty of those specific crimes.” The jury
found him guilty of all twenty counts of health care
fraud, none of which mentioned J.L.
We review rulings about whether to allow surrebuttal evidence only for an abuse of discretion. See Frazier, 387 F.3d at 1270; Haimowitz, 706 F.2d at 1560.
The district court’s ruling partially granted and partially denied Pon’s request to present surrebuttal evidence. The court granted his request to re-take the
stand and testify that the three billings for surgery on
J.L.’s left eye were clerical errors, and he had actually
performed the surgery on J.L.’s functioning right eye.
But the court denied Pon’s request to testify that the
reason he billed for so many diagnostic tests on J.L.’s

30a
blind left eye was to determine if there was a problem
with it that could lead to complications that might result in a loss of vision in the right eye.
2. The Preservation Issue
Pon contends the court’s refusal to let him testify to
that was both trial error and constitutional error. The
constitutional error he claims is a violation of his Sixth
Amendment right “to defend against the government’s
evidence” and denial of a fair opportunity to respond
to the government’s rebuttal testimony. Pon clearly
preserved the trial error issue in the district court, but
it is far from clear that he preserved the constitutional
issue.
“No procedural principle is more familiar ... than
that a constitutional right may be forfeited in criminal
as well as civil cases by the failure to make timely assertion of the right before a tribunal having jurisdiction to determine it.” Yakus v. United States, 321 U.S.
414, 444 (1944). To preserve an error in a criminal
trial, a party must “inform[ ] the court—when the
court ruling or order is made or sought—of the action
the party wishes the court to take, or the party’s objection to the court’s action and the grounds for that objection.” Fed. R. Crim. P. 51(b). Failing to contemporaneously object “ordinarily precludes the raising on
appeal of the unpreserved claim of trial error.” Puckett
v. United States, 556 U.S. 129, 135 (2009).
Although a contemporaneous objection preserves
an issue for appellate review, “not every objection is a
constitutional objection.” United States v. Candelario,
240 F.3d 1300, 1304 (11th Cir. 2001). We have held
over and over again that to preserve an issue, a litigant
must “first clearly present it to the district court, that
is, in such a way as to afford the district court an

31a
opportunity to recognize and rule on it.” See, e.g., Juris
v. Inamed Corp., 685 F.3d 1294, 1325 (11th Cir. 2012)
(quotation marks omitted).
While Pon did preserve through objection and argument the issue of whether the district court’s partial
limitation on his surrebuttal evidence violated the
rules governing the presentation of rebuttal and surrebuttal evidence, he never once mentioned the Sixth
Amendment or argued to the district court that the
limitation violated that or any other constitutional
provision. Our precedent indicates that an objection
on nonconstitutional grounds is not enough to preserve
a constitutional issue. For example, in United States
v. Chau, 426 F.3d 1318 (11th Cir. 2005), we held that
the defendant’s hearsay objection in the district court
did not preserve the Confrontation Clause issue he
pressed on appeal. Id. at 1321–22 (“[A] hearsay objection does not preserve the [Confrontation Clause] issue....”). In United States v. Hawkins, 934 F.3d 1251
(11th Cir. 2019), we concluded that the “tepid objections made by defense counsel” and the “rumblings of
concern about the phrasing of questions” did not preserve the argument the defendants made on appeal
that the trial court had admitted improper opinion testimony. Id. at 1264. And in United States v.
Elbeblawy, 899 F.3d 925 (11th Cir. 2018), we held that
a defendant had not preserved an argument when he
only “mentioned it, in passing, in a post-trial reply motion” because the “post-trial remark was neither
timely nor sufficiently developed” to preserve the issue. Id. at 938. Pon did not even mention in passing
to the district court the constitutional issue he wants
to pursue before us.
It is true that at one point the district court—not
Pon—stated: “[T]here’s the further question of

32a
whether, in deference to ... Dr. Pon’s Sixth Amendment
right ... he should be given an opportunity to offer an
explanation at that point.” That probably is not
enough to preserve the Sixth Amendment issue for appeal, even under the view of the treatise that the dissent relies on to reach the contrary conclusion. See
Dissent at [72a].
The relevant part of that treatise states:
[I]f the record reveals that the parties and the
court were aware of the claim or issue and litigated it, then whether or not it served as the
basis for determination the claim or issue was
raised and is reviewable on appeal. Moreover,
if the district court sua sponte raised an issue of
law and explicitly resolved the issue on the merits, that ruling is fully reviewable on appeal
even though no party raised it below.
19 James Wm. Moore et al., Moore’s Federal Practice
§ 205.05(1) (3d ed. 2019) (emphases added) (footnotes
omitted). Like our precedent, the treatise states that
the mere mention of an issue does not preserve it. Instead, the issue must have been “decide[d],” “litigated,”
and “explicitly resolved ... on the merits” to be preserved. Id.
As our discussion of the surrebuttal argument in
the district court has shown, the Sixth Amendment issue was not decided, litigated, or explicitly resolved on
the merits there. Defense counsel did not even mention it; the government did not mention it; and the district court mentioned it only in passing in a single sentence. Even after the district court referred to it, defense counsel did not argue that Pon had a Sixth
Amendment right to present surrebuttal evidence in
these circumstances. The failure to do so is all the

33a
more significant because counsel objected on Sixth
Amendment grounds to five other rulings against Pon
on evidentiary issues during the trial.8 But he did not
assert or even mention the Sixth Amendment in connection with the partial limitation on surrebuttal evidence. On this record, the author of the treatise might
well say that the Sixth Amendment issue does not
“fairly appear[ ] in the record as having been raised or
decided.” Moore’s § 205.05(1).
But we don’t have to decide if that Sixth Amendment issue was presented to the district court. We can
assume that it was. We can make that assumption because even if partially limiting Pon’s surrebuttal did

For example, in objecting to the district court’s
ruling that he could not admit exhibits during crossexamination, counsel argued that “the restriction impinge[d] Dr. Pon’s Sixth Amendment constitutional
right to cross-examination”; he moved for a mistrial after information came out about what a nontestifying
doctor said, invoking the Sixth Amendment and arguing that Pon was “deprived of [his] right to confrontation”; in offering an exhibit that the government
sought to have excluded, he argued that Pon’s “Sixth
Amendment constitutional right to present evidence”
entitled him to have the exhibit accepted; he sought
the court’s permission for Pon to confer with counsel
during breaks in his testimony, arguing that Pon was
entitled to do so because of “the right to counsel under
the Sixth Amendment”; and he again argued that one
of Pon’s exhibits should have been admitted because
the district court’s “exclusion of [the proffered exhibit
was] a denial of Dr. Pon’s Sixth Amendment right to
present evidence.”
8

34a
violate his Sixth Amendment rights, that error was
harmless beyond a reasonable doubt, which necessarily means that any nonconstitutional error from
that limitation was harmless as well.
3. The Harmless Error Standard
We review preserved assertions of error—both constitutional and nonconstitutional error—for harmlessness. See Fed. R. Crim. P. 52(a) (“Any error, defect,
irregularity, or variance that does not affect substantial rights must be disregarded.”); United States v.
Olano, 507 U.S. 725, 734 (1993) (“When the defendant
has made a timely objection to an error and Rule 52(a)
applies, a court of appeals normally engages in a specific analysis of the district court record—a so-called
‘harmless error’ inquiry—to determine whether the error was prejudicial.”).
As this Court sitting en banc has recognized, the
Supreme Court has repeatedly held that “the vast majority of constitutional errors that occur at a criminal
trial, including Sixth Amendment violations, should be
examined for prejudicial effect and those errors do not
require reversal if they are harmless.” United States v.
Roy, 855 F.3d 1133, 1167 (11th Cir. 2017) (en banc).
The harmless error doctrine is important because it
“promotes public respect for the criminal process by focusing on the underlying fairness of the trial.” Neder
v. United States, 527 U.S. 1, 18 (1999) (quotation
marks omitted). Review for harmlessness “is also essential to avoid a ‘sporting theory of justice’ and a regime of gotcha review.” Roy, 855 F.3d at 1142 (quoting
United States v. Agurs, 427 U.S. 97, 108 (1976)).
A constitutional error is harmless if the government proves “beyond a reasonable doubt that the error
complained of did not contribute to the verdict

35a
obtained.” Chapman v. California, 386 U.S. 18, 22
(1967). And “[t]o say that an error did not contribute
to the verdict is ... to find that error unimportant in
relation to everything else the jury considered on the
issue in question, as revealed in the record.” Yates v.
Evatt, 500 U.S. 391, 403 (1991); accord Cape v. Francis, 741 F.2d 1287, 1294–95 (11th Cir. 1984) (“If, upon
its reading of the trial record, the appellate court is
firmly convinced that the evidence of guilt was so overwhelming that the trier of fact would have reached the
same result without the tainted evidence, then there
is insufficient prejudice to mandate the invalidation of
the conviction.”).
A nonconstitutional error, on the other hand, is
harmless unless it “resulted ‘in actual prejudice because it had substantial and injurious effect or influence in determining the jury’s verdict.’ “ United States
v. Guzman, 167 F.3d 1350, 1353 (11th Cir. 1999) (quoting United States v. Lane, 474 U.S. 438, 449 (1986)). If
a reviewing court “can say with fair assurance ... that
the judgment was not substantially swayed by the
[nonconstitutional] error,” the court must affirm even
if the district court erred. United States v. Hornaday,
392 F.3d 1306, 1315–16 (11th Cir. 2004).
Under both harmless error standards, the reviewing court examines the trial record in its entirety to
make its prejudice determination. See Neder, 527 U.S.
at 19 (constitutional standard); United States v. Sweat,
555 F.3d 1364, 1367 (11th Cir. 2009) (nonconstitutional standard). The government bears the burden of
showing harmlessness in both situations when the issue was properly preserved by timely objection. See,
e.g., United States v. Vonn, 535 U.S. 55, 62 (2002) (noting that it is the government’s “burden of showing that
any error was harmless” under harmless-error

36a
review). As may be apparent, the constitutional harmless error hurdle is the higher of the two for the government to clear. See generally United States v.
Mathenia, 409 F.3d 1289, 1291 (11th Cir. 2005) (noting
“the less demanding [harmless error] test that is applicable to non-constitutional errors”); United States v.
Robles, 408 F.3d 1324, 1327 (11th Cir. 2005) (noting
that “[w]hen the error is of the constitutional variety,
a higher standard is applied” than when the error is
nonconstitutional). For that reason, a holding that a
constitutional error is harmless necessarily means
that it is also harmless if it happens to be nonconstitutional error.
4. The Harmlessness of the Assumed Error
We are persuaded that, even if the district court
erred in partially limiting Pon’s surrebuttal evidence,
and that error violated the Sixth Amendment, it was
harmless beyond a reasonable doubt. See United
States v. Willner, 795 F.3d 1297, 1322 (11th Cir. 2015)
(“One circumstance in which courts find constitutional
errors harmless beyond a reasonable doubt is when the
evidence of the defendant’s guilt is ‘so overwhelming.’
“) (quoting Harrington v. California, 395 U.S. 250, 254
(1969)). Here’s why.
a. The Eleven Patients Listed in the Indictment
First, the government presented a slew of compelling evidence that not a single patient out of the eleven
identified in the indictment had WMD, yet Pon had diagnosed every one of them with that degenerative eye
disease anyway. And those patients’ eyes showed no
signs at all of having undergone laser photocoagulation treatment for WMD, though Pon had billed Medicare under code 67220 for laser photocoagulation
treatment for each patient.
The government

37a
presented the testimony of not one, but a dozen doctors
about the patients listed in the indictment. Dr.
Friberg and eleven other doctors who had examined
the eleven patients identified in the indictment testified against Pon. All told, the twelve of them collectively had more than 330 years of experience.9 None
of those doctors could find any evidence that any of the
eleven patients identified in the indictment had WMD
when Pon diagnosed them with it, and they all concluded that the patients did not have the telltale scars
associated with the laser photocoagulation treatment
that Pon had billed Medicare for performing on each
patient. Because the overwhelming amount of the evidence is important, we recount in detail the doctors’
testimony about each of the eleven patients.
(1) Patient One
About Patient One, the jury heard testimony from
three ophthalmologists: Dr. Friberg and two others.
Dr. Friberg testified that before trial he reviewed images of both of Patient One’s eyes, each of which Pon
had diagnosed with WMD and for each of which he had
billed Medicare under code 67220 as though he had
performed laser photocoagulation treatment. The images of the patient’s left eye (the basis for Count One)
were taken both on and after the “treatment” date, and
the images of the patient’s right eye (the basis for
Count Two) were taken before, on, and after the
Dr. Friberg: 32 years; Dr. Williams: 45 years; Dr.
Berger: 31 years; Dr. Magruder: 26 years; Dr. Gills: 47
years; Dr. Pennachio: 30 years; Dr. Wehrly: 21 years;
Dr. Mavrofrides: 11 years; Dr. Schwenk: 31 years; Dr.
Beneke: 24 years; Dr. Vogel: 21 years; Dr. Kraut: 19
years.
9

38a
“treatment” date. Dr. Friberg told the jury about his
review of those images and explained that he did not
see any indication at all that the patient had WMD in
either of her eyes or a scar showing she had actually
received laser photocoagulation treatment in either
eye.
The second ophthalmologist testified about five examinations he had conducted on Patient One after
Pon’s diagnosis and purported treatment. He was
“confident that [the patient] was not” suffering from
WMD when he examined her, and he said she did not
have the disease when Pon billed Medicare for laser
photocoagulation treatment on her eyes.
Patient One went to the third testifying ophthalmologist to get a second opinion about whether she had
WMD. That ophthalmologist had examined Patient
One on three separate occasions after Pon’s diagnosis
and purported laser treatment of her eyes. He discussed with the jury the medical records of his examinations of Patient One. Based on those three examinations, he testified that she did not have WMD when
Pon billed Medicare for laser photocoagulation treatment of her eyes nor did she have a laser-related scar
in her eyes afterwards. None of Pon’s excluded surrebuttal evidence, which is the assumed error we are
talking about, had anything to do with Patient One.
(2) Patient Two
About Patient Two, the jury heard from Dr. Friberg
and two other ophthalmologists. Before trial, Dr.
Friberg reviewed images of this patient’s left eye,
which Pon had diagnosed with WMD and for which he
had billed Medicare under code 67220 as though he
had performed laser photocoagulation treatment on
two separate occasions. The images Dr. Friberg

39a
reviewed were taken before, on, and after the first
“treatment” date (the basis for Count Three), and before and on the second “treatment” date (the basis for
Count Four). Dr. Friberg testified that based on his
review there was “a high degree of medical certainty”
that the patient had not had WMD. He also testified
that he did not see any indication that the patient had
a scar in her eye showing she had actually undergone
laser photocoagulation treatment.
The second ophthalmologist testified about six examinations he had conducted on Patient Two’s eye after Pon’s diagnosis and supposed treatment. After reviewing for the jury the medical records of his examinations, he testified that this patient did not have
WMD when Pon billed Medicare for laser photocoagulation treatment of her eye.
The third ophthalmologist testified that he had examined Patient Two on two separate occasions just
months before Pon diagnosed her with WMD. He had
not seen any evidence that the patient had WMD, and
he testified that the chance of her developing the disease in the brief period between the time he examined
her and the time Pon billed Medicare for laser photocoagulation of her eye was “very unlikely.” None of
Pon’s excluded surrebuttal evidence, which is the assumed error we are talking about, had anything to do
with Patient Two.
(3) Patient Three
Patient Three was also the subject of testimony
from Dr. Friberg and two other ophthalmologists. Before trial, Dr. Friberg reviewed images of both of this
patient’s eyes, each of which Pon had diagnosed with
WMD and for each of which he had billed Medicare under code 67220 as though he had performed laser

40a
photocoagulation treatment. The images of the patient’s left eye (the basis for Count Five) were taken on
and after the “treatment” date, and the images of the
patient’s right eye (the basis for Count Six) were taken
before, on, and after that date. Dr. Friberg testified
that based on his review he did not see any indication
that on any of those dates the patient had WMD or a
scar indicating he had actually undergone laser photocoagulation treatment.
The second ophthalmologist explained to the jury
the medical records documenting some of Patient
Three’s visits with him. He testified to his “shock[ ]”
of learning that the patient had purportedly undergone laser photocoagulation treatment at Pon’s office
just months after he himself had concluded that the
patient did not have WMD. He also stated that he had
examined the patient after Pon did and had concluded
that the patient did not have WMD or any laser photocoagulation scars in his eyes.
The third ophthalmologist testified that he examined this patient on three separate occasions more
than four years after Pon’s diagnosis and purported
treatment and, on each occasion, he saw no indication
that the patient had WMD. He also testified that he
did not see any laser photocoagulation scars in the patient’s eyes. None of Pon’s excluded surrebuttal evidence, which is the assumed error we are talking
about, had anything to do with Patient Three.
(4) Patient Four
The jury heard from Dr. Friberg and another ophthalmologist about Patient Four. Before trial, Dr.
Friberg reviewed images of this patient’s right eye,
which Pon had diagnosed with WMD and for which he
had billed Medicare under code 67220 as though he

41a
had performed laser photocoagulation treatment on
two separate occasions. The images Dr. Friberg reviewed were taken before, on, and after the two “treatment” dates (the basis for Counts Seven and Eight).
Dr. Friberg testified that based on his review he did
not see any indication that the patient had WMD or a
scar in her eyes showing that she had actually received
laser photocoagulation treatment for that disease. Instead, the patient’s eye that Pon said suffered from
WMD “look[ed] pristine” and there was “[n]o medical
reason” to laser it.
The other ophthalmologist testified about his examination of Patient Four several years after Pon had
diagnosed her with WMD and supposedly treated her.
He stated that she did not have WMD when Pon diagnosed her with it and billed Medicare for laser photocoagulation of it, that he did not see any scarring in
her right eye that would indicate she had undergone
that treatment, and that she still did not have WMD
at the time he had examined her eyes. He added that
the patient’s eyesight was “[v]ery good” for her age.
None of Pon’s excluded surrebuttal evidence, which is
the assumed error we are talking about, had anything
to do with Patient Four.
(5) Patient Five
The jury heard from Dr. Friberg and another ophthalmologist about Patient Five. Before trial, Dr.
Friberg reviewed images of the patient’s right eye,
which Pon had diagnosed with WMD and for which he
had billed Medicare under code 67220 as though he
had performed laser photocoagulation treatment. The
images Dr. Friberg reviewed were taken on and after
the purported treatment date (the basis for Count
Nine). Dr. Friberg testified that he was “[v]ery

42a
certain” the patient did not have WMD. He added that
her blood vessels looked “[e]xcellent.” And although
Pon had billed Medicare for laser photocoagulation of
this patient’s right eye six times, Dr. Friberg saw no
scars indicating she had ever received any laser photocoagulation in that eye.
The second ophthalmologist testified about seven
examinations he conducted on Patient Five after her
optometrist referred her to him for a macular degeneration evaluation. All seven of the examinations were
after Pon had diagnosed Patient Five with WMD and
purportedly treated her. Based on his examinations,
this ophthalmologist testified that there was no way
that Patient Five had WMD when Pon diagnosed her
with the disease. And he testified that he saw no scarring in her right eye that would indicate she had received laser photocoagulation treatment for WMD.
None of Pon’s excluded surrebuttal evidence, which is
the assumed error we are talking about, had anything
to do with Patient Five.
(6) Patient Six
The jury heard about Patient Six from Dr. Friberg
and two other ophthalmologists. Before trial, Dr.
Friberg reviewed images of both of the patient’s eyes,
each of which Pon had diagnosed with WMD and for
which he had billed Medicare under code 67220 as
though he had performed laser photocoagulation treatment. The images Dr. Friberg reviewed were taken
before and after the “treatment” date for this patient’s
right eye (the basis for Count Ten) and before, on, and
after the “treatment” date for this patient’s left eye
(the basis for Count Eleven). Dr. Friberg testified that
based on his review the patient had not had WMD in
either eye. And he testified that the patient’s eyes had

43a
no scars indicating that she had ever received any laser photocoagulation treatment.
The second ophthalmologist testified about his
treatment of Patient Six over a nine-year period that
overlapped with the time Pon had treated her. This
ophthalmologist reviewed for the jury his medical records from twelve examinations of the patient and testified that she had never showed signs of WMD.
The third ophthalmologist testified about examinations he had conducted on Patient Six after Pon’s diagnosis and purported treatment. He stated that she did
not have WMD and did not have any scarring from laser photocoagulation treatments. None of Pon’s excluded surrebuttal evidence, which is the assumed error we are talking about, had anything to do with Patient Six.
(7) Patient Seven
The jury heard from Dr. Friberg and two other ophthalmologists about Patient Seven. Before trial, Dr.
Friberg reviewed images of both of the patient’s eyes,
each of which Pon had diagnosed with WMD and for
each of which he had billed Medicare under code 67220
as though he had performed laser photocoagulation
treatment. The images Dr. Friberg reviewed were
taken before, on, and after the “treatment” date for
this patient’s left eye (the basis for Count Twelve) and
on the “treatment” date for this patient’s right eye (the
basis for Count Thirteen). Dr. Friberg testified that
based on his review the patient never had WMD in either eye and did not have a laser scar indicating that
he ever received laser photocoagulation treatment in
either eye.
The second ophthalmologist examined Patient
Seven after Pon had billed Medicare numerous times

44a
for laser photocoagulation treatment of his right eye.
This ophthalmologist testified that he found “no evidence whatsoever of any previous laser treatment.” He
was “[a] hundred percent” certain that the patient did
not have WMD or any scars indicating laser treatment.
The third ophthalmologist examined Patient Seven
after the patient was referred to him for a cataract
evaluation. He went over for the jury the five examinations he had conducted on Patient Seven after Pon’s
diagnosis and purported treatment. None of the evaluations showed any sign of WMD. None of Pon’s excluded surrebuttal evidence, which is the assumed error we are talking about, had anything to do with Patient Seven.
(8) Patient Eight
The jury heard about Patient Eight from Dr.
Friberg, two other ophthalmologists, and an optometrist with 45 years of experience. Before trial, Dr.
Friberg reviewed images of both of the patient’s eyes,
each of which Pon had diagnosed with WMD and for
each of which he had billed Medicare under code 67220
as though he had performed laser photocoagulation
treatment. Those images were taken before, on, and
after the “treatment” date for this patient’s left eye
(the basis for Count Fourteen) and before and on the
“treatment” date for this patient’s right eye (the basis
for Count Fifteen). Dr. Friberg testified that based on
his review the patient did not have WMD in his left
eye and did not have a scar indicating he had ever received laser photocoagulation treatment in either eye.
Dr. Friberg also testified that there was no WMD in
the area of the patient’s right eye that Pon had marked

45a
for treatment. That area, Dr. Friberg added, was
“quite pristine.”
The second ophthalmologist testified about five examinations conducted on Patient Eight—one before
and four after Pon’s diagnosis and purported laser photocoagulation treatment of the patient’s eyes. He testified that none of the examinations showed any indication of WMD or scarring from laser photocoagulation
treatment.
The third ophthalmologist performed cataract surgery on Patient Eight after Pon had diagnosed the patient with WMD and billed Medicare for laser photocoagulation treatment of both eyes. This ophthalmologist discussed his pre-and post-operation examinations of the patient’s eyes and testified that he never
saw any evidence of WMD.
The optometrist was another witness who testified
about his examinations of Patient Eight’s eyes after
Pon had diagnosed them with WMD and purportedly
treated them. He testified that he saw no evidence of
the scarring that would accompany laser photocoagulation treatment, and no evidence of WMD in the patient’s eyes. And he explained that because the patient
did not have WMD when he examined him after Pon
had diagnosed and supposedly treated his eyes, there
was no way the patient had WMD when Pon diagnosed
him with it. None of Pon’s excluded surrebuttal evidence, which is the assumed error we are talking
about, had anything to do with Patient Eight.
(9) Patient Nine
The jury heard from Dr. Friberg and another ophthalmologist about Patient Nine. Before trial, Dr.
Friberg reviewed images of both of this patient’s eyes,
each of which Pon had diagnosed with WMD and for

46a
each of which he had billed Medicare under code 67220
as though he had performed laser photocoagulation
treatment. The images Dr. Friberg reviewed were
taken on and after the “treatment” date for this patient’s left eye (the basis for Count Sixteen) and before,
on, and after the “treatment” date for this patient’s
right eye (the basis for Count Seventeen). Dr. Friberg
testified that based on his review the patient did not
have WMD in either eye at the time Pon diagnosed her
with that disease, and she did not have scarring from
laser photocoagulation treatment in either eye.
The other ophthalmologist examined Patient Nine
after Pon had diagnosed her with WMD and purportedly treated her eyes. This ophthalmologist testified
that he was “[a] hundred percent” certain that she had
not had WMD or any scarring from laser photocoagulation treatment for that disease. None of Pon’s excluded surrebuttal evidence, which is the assumed error we are talking about, had anything to do with Patient Nine.
(10) Patient Ten
The jury heard about Patient Ten from Dr. Friberg,
from another ophthalmologist, and also from an optometrist with 45 years of experience. Before trial, Dr.
Friberg reviewed images of the patient’s left eye,
which Pon had diagnosed with WMD and for which he
had billed Medicare under code 67220 as though he
had performed laser photocoagulation treatment. The
images Dr. Friberg reviewed were taken on the “treatment” date for this patient’s left eye (the basis for
Count Eighteen). He testified that based on his review
the patient did not have WMD at the time Pon diagnosed her with that disease, nor did she have a scar

47a
indicating that she had ever received laser photocoagulation treatment for the disease.
The other ophthalmologist testified about his treatment of Patient Ten after Pon had diagnosed her with
WMD and purportedly treated her. Patient Ten had
come to him for a second opinion about whether she
had macular degeneration. He testified that he was
“[a] hundred percent certain” that she did not have
WMD or any scars from laser treatment for that disease.
The optometrist told the jury about four examinations he had conducted on Patient Ten after Pon’s diagnosis and purported laser treatment. He testified
that he never saw any indication that she had WMD
and he had never seen any scarring from laser photocoagulation treatment for that disease. None of Pon’s
excluded surrebuttal evidence, which is the assumed
error we are talking about, had anything to do with
Patient Ten.
(11) Patient Eleven
The jury heard about Patient Eleven from Dr.
Friberg, from another ophthalmologist, and from the
optometrist with 45 years of experience. Before trial,
Dr. Friberg reviewed images of this patient’s right eye
that Pon had diagnosed with WMD and for which he
had billed Medicare under code 67220 as though he
had performed laser photocoagulation treatment on
two separate occasions. The images he reviewed were
taken before, on, and after the first “treatment” date
(the basis for Count Nineteen) and on and after the
second “treatment” date (the basis for Count Twenty).
Dr. Friberg testified that based on his review, he was
“[c]ertain” that the patient did not have WMD when
Pon diagnosed her with that disease, and that she did

48a
not have a scar indicating she had received laser photocoagulation treatment for the disease.
The other ophthalmologist told the jury that Patient Eleven had been referred to him for a second
opinion about whether Pon’s frequent lasering of her
eye was necessary. He testified that he examined the
patient twice and both examinations showed no evidence of WMD and no scar indicating she had received
laser photocoagulation treatment for that disease.
The optometrist testified about his treatment of Patient Eleven over a period of six years, some of which
overlapped with Pon’s treatment of her. He testified
that none of his examinations revealed any sign of
WMD. None of Pon’s excluded surrebuttal evidence,
which is the assumed error we are talking about, had
anything to do with Patient Eleven.
(12) Summary
In regard to the eleven patients whose cases were
the basis for all of the counts in the indictment, the
jury heard from twelve different doctors, each of whom
testified that Pon had diagnosed patients with WMD
when those patients clearly had never had it. Those
doctors also testified that none of those patients had
the telltale scarring that necessarily results from the
laser photocoagulation treatment that Pon billed Medicare for performing on them. Other than himself, Pon
presented no ophthalmologist or optometrist to testify
that any one of the eleven patients actually had WMD
at the time he purportedly treated them for it or had
the scarring that would necessarily have resulted from
the laser photocoagulation treatment he billed Medicare for performing. Not only that, but Pon billed Medicare for laser photocoagulation treatment of the
eleven patients, which necessarily causes a scar, even

49a
though he himself conceded that his treatment did not
cause any scarring. And nobody (other than Pon) testified to support his claim that WMD could be lasertreated without scarring. None of Pon’s excluded surrebuttal evidence, which is the assumed error we are
talking about, had anything to do with any of the
eleven patients listed in the indictment or the bills he
submitted to Medicare for the laser photocoagulation
treatment that he never administered to those patients.
b. The Hundreds of Other Patients
The overwhelming proof of Pon’s guilt did not stop
there. There was also strong evidence—uninfluenced
and unaffected by the partial limitation on Pon’s surrebuttal evidence (the assumed error we are talking
about)—that Pon incorrectly diagnosed and improperly “treated” not just the eleven patients listed in the
indictment but also hundreds of other patients.
As discussed, Dr. Friberg testified that almost none
of the 500 patients whom Pon had diagnosed with
WMD actually had the disease. He recounted how,
during his close review of the files of approximately
500 of Pon’s patients, it was “rare” for him to see any
indication that any patient had any form of macular
degeneration—either dry or wet. Only a “very minimal minority”—one or two percent—of the 500 patients whose charts he reviewed had any sort of macular degeneration. Other eye doctors corroborated Dr.
Friberg’s diagnoses for dozens of Pon’s patients not
named in the indictment.
Only Pon testified that his WMD diagnoses were
correct, and that he believed the treatments he administered were helpful and medically necessary. But Pon
had strong motivation to say that—a substantial

50a
interest in the outcome of the trial. He acknowledged
that most of his patients were Medicare beneficiaries
and that the vast majority of the money he made was
from Medicare. If convicted, he would lose his medical
license and livelihood. And, of course, he faced a
prison sentence—ten years as it turned out.
The jury was entitled to take Pon’s interest into account in evaluating his testimony, as it undoubtedly
did. We have even held that because a jury is free to
infer from a testifying defendant’s demeanor that he is
not telling the truth, “a statement by a defendant, if
disbelieved by the jury, may be considered as substantive evidence of the defendant’s guilt” when combined
with other evidence. United States v. Brown, 53 F.3d
312, 314 (11th Cir. 1995); accord United States v.
McCarrick, 294 F.3d 1286, 1293 (11th Cir. 2002) (“In
Brown, we held that, in combination with other evidence, the jury’s disbelief of a defendant’s testimony
may be used to help establish his guilt.”); see also
United States v. Hough, 803 F.3d 1181, 1188 (11th Cir.
2015) (“Having seen and heard [the defendant’s] testimony, the jury was free to discredit her explanation, to
infer that the opposite of what she said was true, and
to consider that inference as substantive evidence of
her guilt.”). This is especially true in regard to “highly
subjective elements” such as “the defendant’s intent or
knowledge.” Brown, 53 F.3d at 315. The jury observed
Pon for more than three days on the witness stand and
had ample time to evaluate his demeanor and credibility. See United States v. Deverso, 518 F.3d 1250, 1258
(11th Cir. 2008) (“Given the opportunity to evaluate
[the defendant’s] demeanor and credibility, the jury
was entitled not only to disbelieve his testimony but,
in fact, to find that the opposite of his testimony was
true.”).

51a
The government also offered overwhelming evidence—again, completely separate from the assumed
error about limiting Pon’s surrebuttal evidence — that
Pon knew the patients he diagnosed with WMD did not
have that disease and knew that his micropulse laser
technique did not treat that disease. Almost every doctor who testified—even Pon himself—said that a person with untreated WMD would suffer a substantial
decline in the quality of his vision. And yet, the evidence at trial showed that Pon abruptly stopped all
WMD treatments on at least four patients he had diagnosed with WMD and on whom he had been using
his micropulse laser technique. But Pon continued to
treat these patients for other eye conditions, so he
would have known that the WMD he had diagnosed in
them did not progress even though they were not receiving any treatment for it, which had to mean there
was no WMD to begin with and Pon knew it.
c. Different Treatment for Patients Who Actually Had
WMD
The evidence also showed that Pon used very different WMD treatment methods for different patients.
Recall the testimony that at the time of Pon’s trial, injecting drugs directly into the eye had become the most
widely used, accepted treatment for WMD. See supra
[at 2a–6a, 10a–12a]. But evidence at trial showed that
Pon used those drug injections as a WMD treatment
for only some of the patients he diagnosed with WMD,
at least of those he called as witnesses at trial. Significantly, the evidence showed that he used drug injections to treat WMD largely, if not only, for those patients whose WMD diagnoses were corroborated by another doctor. In other words, he used drug treatments
for the rare patients of his who actually had WMD.
For other patients, ones for whom there was no

52a
evidence of WMD but he billed as if there were, Pon
didn’t use drug injections as a WMD treatment or he
used it only rarely.
For example, four of the thirteen patients who testified on Pon’s behalf had a WMD diagnosis that had
been confirmed by another doctor. Pon gave all four of
these patients drug injections. For two of these patients, Pon used the accepted drug injection treatment
as well as his micropulse laser “treatment,” all in the
same eye. For the other two of these four, he administered injections often and consistently, and he never
discontinued the injections for either of them. The
sum of it is that for the few patients whose WMD was
confirmed by other doctors, Pon treated with the accepted drug injections, as well as his micropulse laser
technique, and billed for both.
At least seven of the patients who testified on Pon’s
behalf had WMD diagnoses from Pon that Dr. Friberg
rejected. For these patients, Pon either did not use injections to treat what only he had diagnosed as WMD,
or he used injections only occasionally. And, as we discussed, for four of these patients, Pon stopped administering any WMD treatment—laser or injections—but
continued to treat them for other eye diseases. That,
of course, is evidence that Pon knew those patients did
not actually have WMD, but he nonetheless diagnosed
them with it and administered his micropulse laser
“treatment,” while billing Medicare under code 67220
for laser photocoagulation treatment.
d. The Ineffectiveness of Pon’s Micropulse Laser
“Treatment”
The government also offered testimony from other
doctors—uninfluenced by Pon’s excluded surrebuttal
evidence—that Pon’s micropulse laser technique could

53a
not treat WMD and could not coagulate a feeder vessel.
One ophthalmologist testified that he was “certain far
beyond a reasonable medical ... certainty” that Pon’s
micropulse laser technique would not close a feeder
vessel. Another testified that he was not aware of any
way that Pon’s micropulse laser technique could coagulate a feeder vessel, which was necessary to treat
WMD, and was what Pon billed Medicare for doing.
And yet another ophthalmologist testified that there
was no way to achieve “subthreshold coagulation” of a
feeder vessel, as Pon claimed, because those two
“terms are mutually exclusive.” And so it went.
Numerous doctors testified that WMD could not be
treated with a laser without leaving a scar. Dr.
Friberg was “very certain” that using a laser at a
power high enough to “cook the feeder vessel,” which
is how WMD is treated with a laser, would leave a
mark in the eye. He testified that even if the scars did
not show up in the eye immediately, “you could see
them down the road.” His certainty about this came
from his experience directing a clinical trial in which
the doctors “used very minimal laser” and thought
they “didn’t leave any marks.” But in “[a] month or
two,” the patients’ eyes showed signs of scarring.
Another ophthalmologist had participated in a clinical trial in which the doctors attempted to treat dry
macular degeneration—which usually precedes
WMD—using “very, very light laser treatment.” But
the trial was stopped early because the patients being
treated were developing WMD more quickly than their
counterparts who were receiving no treatment at all.
This ophthalmologist testified that laser photocoagulating leaking blood vessels, the treatment Pon was
billing Medicare for, would “by definition, pretty much
create a full-thickness burn” and leave a scar in the

54a
eye. He testified that laser treatment for WMD leaves
scars that don’t ever completely heal, “and that’s the
point actually,” because that is how WMD is treated
with a laser.
Other doctors agreed. Another ophthalmologist
testified that if a feeder vessel had been closed with a
laser, “you would see a scar.” And another testified
that laser treatment for WMD that has “any kind of
effect on the underlying blood vessels” would cause
“some kind of scar.” And another testified that “the
purpose of” laser treatment for WMD is to “cook[ ]” the
tissue in the eye, which stops the blood vessels from
leaking and necessarily results in a visible scar in the
eye. And another testified that laser treatment for
WMD results in “tiny focal laser scars” that are generally visible with a standard eye exam and that would
always show up on a fluorescein angiogram. And yet
another testified that “there’s no description of [its] being possible” to close a feeder vessel without scarring,
and “there’s a lot of theoretical and scientific reasons
why that would seem extremely unlikely to be possible.” Nonetheless, as we discussed, every single doctor
who examined the eyes of a patient listed in the indictment testified that the patient’s eyes showed no indication of the scarring that necessarily accompanies laser photocoagulation—the WMD treatment that Pon
billed Medicare for administering. See supra [at 36a–
49a].
e. Filling Out Charts in Advance
The record also shows that Pon filled out portions
of some patients’ charts with WMD diagnoses and
planned diagnostic tests before he had even seen the
patients. The government admitted patient notes for
three of Pon’s patients who had not shown up for a

55a
scheduled appointment. Even though Pon didn’t examine the patients on the date listed in their charts,
parts of their charts were filled out as though he had
seen them, including diagnoses and treatment plans.
For each of the three patients, the prefilled patient
notes diagnosed the patient with WMD and indicated
that fluorescein angiogram and ICG tests (the tests
Pon used in making his WMD diagnoses) would be performed in both of the patient’s eyes.
Pon testified that the patient notes were filled out
ahead of time likely because his technicians were “trying to save time.” He stated that “if anything needed
to be corrected” after he actually examined the patient,
he “would have crossed it off” to “make sure everything
was consistent with [his] examination.” And he identified seven patients whose prefilled notes he had modified to replace the diagnosis or treatment plan with
one he thought was more appropriate.
But the government had a response to that. Agent
Jurs testified about three patients whose prefilled
charts Pon had changed to indicate that fluorescein
angiogram and ICG tests would be done only on one
eye (instead of on both eyes, as the prefilled charts had
originally indicated). For each of those three patients,
the government introduced an exhibit listing the procedures that Pon had billed Medicare for. Those exhibits showed that Pon had billed Medicare for fluorescein angiograms and ICGs on both eyes for each of the
patients. In other words, although Pon had modified
the three patients’ prefilled charts to show that those
tests were done on only one eye, he still billed Medicare
as though he had done the tests on both eyes.

56a
f. The Sound of Silence
Finally, the record shows that Pon was professionally silent about his purported treatment.
He
acknowledged that he didn’t know of any other doctor
anywhere who used subthreshold micropulse laser to
treat WMD. Yet even though he claimed to have discovered a “miraculous treatment” for WMD, he did absolutely nothing to present, publish, or even talk with
other doctors about what he thought of as a cure for
the leading cause of irreversible blindness in older people. His silence spoke volumes.
g. Summary
All of this great volume of evidence we have just
recounted was presented before and was completely
unrelated to and uninfluenced by the exclusion of any
of Pon’s proposed surrebuttal evidence. And it was
that great volume of evidence that the government discussed in its closing, not anything about Pon billing
Medicare for testing he did on J.L.’s blind left eye. In
view of the totality of the evidence presented, what the
jury heard about billing for testing on J.L.’s left eye
was miniscule. J.L. as one of 34 witnesses who testified at trial, one of fifteen who testified for Pon. J.L.’s
testimony about the procedures done on his blind left
eye took up only fifteen pages of transcript. And Agent
Jurs’ rebuttal testimony concerning that subject,
which is what Pon wanted to present surrebuttal testimony about, took up only eleven pages. That’s eleven
out of more than 2,000 pages, or about one half of one
percent, of the testimony that was presented during
the trial.
And it bears repeating that J.L. was not one of the
patients listed in the crimes charged in the indictment.
As we noted, the district court instructed the jury that

57a
Pon was “on trial only for the specific crimes charged
in the indictment,” and that it had to determine
whether Pon was “guilty or not guilty of those specific
crimes.” “[T]he Supreme Court has repeatedly held
that we must presume that juries follow their instructions,” and this Court has “obediently followed” that
direction. Roy, 855 F.3d at 1186–87 (collecting cases).
Following that direction, we presume that the jury’s
guilty verdict was based on its determination that Pon
was guilty as charged of fraudulently billing Medicare
for laser photocoagulation for the eleven patients
listed in the indictment, not for fraudulently billing
Medicare for procedures on J.L.’s blind left eye.
For all these reasons, we have no doubt, much less
a reasonable doubt, that if the district court had not
partially limited Pon’s surrebuttal evidence about J.L.,
the jury would still have found Pon guilty as charged.
The ruling we are assuming was an error did not contribute to the jury’s guilty verdict. See Chapman, 386
U.S. at 22. Any error was harmless beyond a reasonable doubt.
5. Our Application of the Harmless Error Rule is
Faithful to Precedent
Our conclusion that the partial limitation on Pon’s
surrebuttal testimony was harmless beyond a reasonable doubt is in keeping with the Supreme Court’s understanding, expressed in Neder, that “[a] reviewing
court making th[e] harmless-error inquiry does not, as
Justice Traynor put it, become in effect a second jury
to determine whether the defendant is guilty.” 527
U.S. at 19 (quotation marks omitted). And it is consistent with the Court’s description of the harmlesserror determination as a task done in “typical appellate-court fashion.” Id. Of course harmless error

58a
inquiries are typical: “We are, after all, talking about
‘the harmless error rule,’ not ‘the harmless error exception.’ Because errorless trials are not expected,
much less required, harmless error analysis is the
rule, not the exception.” Roy, 855 F.3d at 1143.
And for good reason. “The harmless error rule
serves vital interests, chief of which is conserving
scarce judicial resources by avoiding pointless retrials.” Id. at 1142. And, as we have mentioned, the rule
“is also essential to avoid a ‘sporting theory of justice’
and a regime of gotcha review.” Id. (quoting Agurs,
427 U.S. at 108). The Supreme Court has recognized
and relied on these important considerations in holding—over and over again—that the harmless error
rule applies in a wide variety of circumstances. The
Court has explained that the harmless error rule “promotes public respect for the criminal process by focusing on the underlying fairness of the trial.” Neder, 527
U.S. at 18 (quotation marks omitted). It has directed
that when “the record developed at trial establishes
guilt beyond a reasonable doubt, the interest in fairness has been satisfied and the judgment should be affirmed.” Rose v. Clark, 478 U.S. 570, 579 (1986). And
it has noted that “[r]eversal for error, regardless of its
effect on the judgment, encourages litigants to abuse
the judicial process and bestirs the public to ridicule
it.” Delaware v. Van Arsdall, 475 U.S. 673, 681 (1986)
(quoting R. Traynor, The Riddle of Harmless Error 50
(1970)).
The Supreme Court has instructed us that “if the
defendant had counsel and was tried by an impartial
adjudicator, there is a strong presumption that any
other errors that may have occurred are subject to
harmless-error analysis.” Rose, 478 U.S. at 579 (emphasis added). The Court has “consistently made clear

59a
that it is the duty of a reviewing court to consider the
trial record as a whole and to ignore errors that are
harmless, including most constitutional violations.”10
United States v. Hasting, 461 U.S. 499, 509 (1983) (emphasis added); accord Neder, 527 U.S. at 8 (noting that
“most constitutional errors can be harmless” and only
“a very limited class of cases” evade harmless error review) (quotation marks omitted); Arizona v. Fulminante, 499 U.S. 279, 306 (1991) (noting that “the
Court has applied harmless-error analysis to a wide
range of errors and has recognized that most constitutional errors can be harmless”); Van Arsdall, 475 U.S.
at 681 (“[W]e have repeatedly reaffirmed the principle
that an otherwise valid conviction should not be set
aside if the reviewing court may confidently say, on the
whole record, that the [error was harmless].”). The
Fulminante decision is the paramount example of the
breadth of the harmless error rule because it held that
even where the error was the admission of an unconstitutionally coerced confession, courts must still assess the totality of the evidence and determine if it was

As the Court’s use of the word “duty” indicates, when
the Supreme Court applies harmless error analysis to a certain kind of error, it does not merely suggest that we do the
same—it dictates that we are bound to do so. See, e.g.,
Mathis v. United States, —– U.S. ——, 136 S. Ct. 2243, 2254
(2016) (“[A] good rule of thumb for reading [Supreme Court]
decisions is that what they say and what they mean are one
and the same ....”); United States v. Johnson, 921 F.3d 991,
1001 (11th Cir. 2019) (“[W]e must apply Supreme Court
precedent neither narrowly nor liberally—only faithfully.”);
Prison Legal News v. Sec’y, Fla. Dep’t of Corr., 890 F.3d
954, 966 (11th Cir. 2018) (“The only Court that can properly
cut back on Supreme Court decisions is the Supreme Court
itself.”).
10

60a
harmless beyond a reasonable doubt. See 499 U.S. at
310 (“When reviewing the erroneous admission of an
involuntary confession, the appellate court, as it does
with the admission of other forms of improperly admitted evidence, simply reviews the remainder of the evidence against the defendant to determine whether the
admission of the confession was harmless beyond a
reasonable doubt.”).
The Supreme Court has also strictly limited the
power of federal courts to circumvent a harmless-error
inquiry and has rebuked courts who shirk their harmless-error review duties. See, e.g., Bank of Nova Scotia
v. United States, 487 U.S. 250, 254 (1988) (“[A] federal
court may not invoke supervisory power to circumvent
the harmless-error inquiry prescribed by Federal Rule
of Criminal Procedure 52(a).”); Hasting, 461 U.S. at
507 (stating that the harmless-error doctrine “cannot
be so lightly and casually ignored in order to chastise
what the court view[s] as prosecutorial overreaching”).
We are not saying, of course, that courts shouldn’t
be careful with the harmless error rule. Courts should
be careful in the application of all rules. Carelessness
is not desirable in any field. But it is not careless to
rely on overwhelming evidence of guilt to find an error
harmless. The Supreme Court itself has done it. See,
e.g., Neder, 527 U.S. at 17 (“In this situation, where a
reviewing court concludes beyond a reasonable doubt
that the omitted element was uncontested and supported by overwhelming evidence, such that the jury
verdict would have been the same absent the error, the
erroneous instruction is properly found to be harmless.”) (emphasis added); cf. Yates, 500 U.S. at 405 (describing the Chapman harmless-error inquiry as requiring a court to “ask[ ] whether the force of the evidence presumably considered by the jury in accordance

61a
with the instructions is so overwhelming as to leave it
beyond a reasonable doubt that the verdict resting on
that evidence would have been the same”) (emphasis
added). And in doing so, the Supreme Court has found
errors harmless based on overwhelming evidence
without displaying special wariness.
Our own precedent is thick with decisions finding
errors, even serious errors, harmless, oftentimes because of overwhelming evidence of guilt. See United
States v. Esquenazi, 752 F.3d 912, 931 (11th Cir. 2014),
superseded by statute in non-relevant part, 18 U.S.C.
§§ 1956, 1957 (finding an error in the trial court’s jury
instructions harmless “[b]ecause overwhelming evidence support[ed] the jury’s finding” of guilt); United
States v. Jones, 601 F.3d 1247, 1264 (11th Cir. 2010)
(finding the constitutional error the district court allegedly committed harmless because even without the
error “the government’s case against [the defendant]
was strong”); United States v. Phaknikone, 605 F.3d
1099, 1109 (11th Cir. 2010) (affirming, in spite of an
error, the conviction “in the light of the overwhelming
evidence of [the defendant’s] guilt”).
We do that here.
IV. THE SENTENCE ISSUES
Pon challenges the procedural reasonableness of
his sentence, arguing that the district court improperly calculated his guidelines range by erroneously applying an 18-level enhancement to his base offense
level. The primary issue at sentencing was the
amount of loss that resulted from Pon’s health care
fraud scheme. The government said the loss amount
was $11.5 million, which would have resulted in a 20level enhancement. See U.S.S.G. § 2B1.1(b)(1)(K)
(Nov. 2010) (providing for a 20-level enhancement

62a
when the total loss amount is more than $7 million but
not more than $20 million). The district court, however, rejected the government’s number and instead
estimated the loss amount at $6.97 million, which resulted in an 18-level enhancement.
See id. §
2B1.1(b)(1)(J) (providing for an 18-level enhancement
when the total loss amount is more than $2.5 million
but not more than $7 million). The guidelines range
those calculations produced was 121 to 151 months.
Pon contends that the district court did not base the
loss amount on reliable and specific evidence. We review the district court’s loss determination only for
clear error. United States v. Cobb, 842 F.3d 1213, 1218
(11th Cir. 2016). For that determination to be clearly
erroneous, “we must have a definite and firm conviction that a mistake has been made.” United States v.
Ford, 784 F.3d 1386, 1396 (11th Cir. 2015).
Under the Guidelines, “loss is the greater of actual
loss or intended loss.” U.S.S.G. § 2B1.1, cmt. n.3(A).
Although the district court “may not speculate about
the existence of facts and must base its estimate on reliable and specific evidence, [it] is required only to
make a reasonable estimate of the loss.” Ford, 784
F.3d at 1396. That is “because often the amount of loss
caused by fraud is difficult to determine accurately.”
United States v. Medina, 485 F.3d 1291, 1304 (11th
Cir. 2007) (quotation marks omitted). And the district
court “is in a unique position to assess the evidence
and estimate the loss based upon that evidence,” so its
“loss determination is entitled to appropriate deference.” United States v. Campbell, 765 F.3d 1291, 1301
(11th Cir. 2014) (quoting U.S.S.G. § 2B1.1 cmt. n.3(C)).
Contrary to what Pon says, the district court did
base its loss estimate on reliable and specific evidence.

63a
It considered a spreadsheet that Agent Jurs prepared
for the sentence hearing, which shows the total
amount of money that Medicare paid Pon for the thousands of claims he billed on behalf of the patients Dr.
Friberg determined did not have WMD. The spreadsheet lists each patient’s name, the notes that Dr.
Friberg took when he reviewed the photos and videos
of the patient’s eyes, and the number of Medicare
claims that Pon had submitted for that patient.
The district court also heard extensive testimony
from Agent Jurs, who at the time had nearly seventeen
years of experience working with Medicare data. He
testified that the spreadsheet’s total loss amount was
accurate because it was calculated on a patient-by-patient basis. He also explained that for each of the patients Dr. Friberg determined did not have WMD, he
“went into the Medicare records, pulled the claims that
were specific to that [patient], went into the diagnosis
code section of the claims history, pulled the [WMD]
diagnosis code that [HHS] knew to be fraudulent and
incorrect, and then totaled up only those claims, the
numbers amount billed and the amount paid for only
those claims.” Agent Jurs also testified that the
amount billed, the amount paid, and the number of actual claims came directly from Medicare’s database.
That evidence is reliable and it is specific. And
based on it, the district court made a reasonable estimate of the loss. See Cobb, 842 F.3d at 1218–19. There
was no error in calculating the loss amount.11
Relying on out-of-circuit decisions, Pon also argues that due process required the district court to use
the beyond a reasonable doubt standard instead of the
preponderance of the evidence standard in
11

64a
There is one other sentence issue. Pon has not raised
it, but the government has. The district court imposed
concurrent 121-month terms of imprisonment on each
of Pon’s twenty counts of conviction. The government
concedes that this was error because the statutory
maximum penalty for each count is only 120 months.
See 18 U.S.C. § 1347(a). We agree, and we commend
the government for bringing the error to our attention.
Section 5G1.2(d) of the Guidelines provides that
where, as here, there are multiple counts of conviction,
[i]f the sentence imposed on the count carrying
the highest statutory maximum is less than the
total punishment, then the sentence imposed
on one or more of the other counts shall run consecutively, but only to the extent necessary to
produce a combined sentence equal to the total
punishment. In all other respects, sentences on
all counts shall run concurrently, except to the
extent otherwise required by law.
U.S.S.G. § 5G1.2(d). We have interpreted § 5G1.2(d)
to require “multiple sentences to be served consecutively if the sentence specified by the guidelines is
longer than the sentence authorized for any individual
count of conviction.” United States v. Pressley, 345 F.3d
1205, 1213 (11th Cir. 2003); accord United States v.
Sarras, 575 F.3d 1191, 1209 n.22 (11th Cir. 2009)
determining the loss amount. But “it is the settled law
of this circuit that at sentencing, a federal defendant’s
due process rights are ... satisfied by the preponderance of the evidence standard.” United States v. Patti,
337 F.3d 1317, 1323 n.9 (11th Cir. 2003) (quoting
United States v. Jackson, 57 F.3d 1012, 1019 (11th Cir.
1995)).

65a
(concluding that § 5G1.2(d) remains binding even “[
]though the guidelines are now advisory”). Those multiple sentences must, of course, run consecutively “to
the extent necessary to reach the defendant’s guidelines range.” United States v. Johnson, 451 F.3d 1239,
1243 (11th Cir. 2006).
The district court erred in imposing concurrent
121-month terms on each of Pon’s twenty counts.
While the Guidelines specify a sentence of 121 to 151
months in prison, the statutory maximum for the
count with the highest maximum (of any of the twenty
counts) is 120 months in prison. Because the statutory
maximum is one month less than the 121-month bottom of the guidelines range, § 5G1.2(d) called for at
least some of the sentences to run consecutively “to the
extent necessary to reach [Pon’s] guidelines range” of
121 to 151 months in prison. Id. The sentence structure must be modified to reach that range.
We vacate Pon’s sentences on each count and remand the case to the district court for the limited purpose of letting it modify Pon’s sentence structure to
bring it in line with § 5G1.2(d). We leave to the court’s
discretion how it will do so.12 Because we do not set
aside Pon’s “entire sentencing package” or the time he
will remain in prison, the modification does not require a resentencing hearing at which Pon must be
present. See United States v. Tamayo, 80 F.3d 1514,
1518, 1519 & n.7 (11th Cir. 1996).
The government has argued on appeal that one
of Pon’s twenty 120-month sentences should be made
to run consecutive to the other nineteen by one month.
Pon has not addressed that issue. But in any event it’s
an issue for the district court to decide.
12

66a
V. CONCLUSION
We AFFIRM Pon’s convictions but VACATE his
sentences on Counts One through Twenty and REMAND the case for resentencing.
MARTIN, Circuit Judge, concurring in part and dissenting in part:
Like the majority, I see no abuse of discretion in the
District Court’s exclusion of David Pon’s expert witness at trial. Nor do I see clear error in the District
Court’s loss amount calculation. I agree, too, that this
Court’s precedent forecloses Mr. Pon’s due process
challenge to the loss amount calculation. But I part
ways with the conclusion reached in the majority opinion that any error in denying Mr. Pon a surrebuttal
was harmless. I believe the denial of a surrebuttal violated Mr. Pon’s constitutional right to present a complete defense. And I do not believe this error was
harmless. Rather than affirm his conviction, I would
give Mr. Pon a new jury trial. I therefore dissent from
the majority opinion’s ruling on the harmlessness of
any surrebuttal error.
I.
“[T]he Constitution guarantees criminal defendants a meaningful opportunity to present a complete
defense.” Holmes v. South Carolina, 547 U.S. 319, 324
(2006) (quotation marks omitted). Whether this right
springs from the fundamentals of due process or from
the Sixth Amendment, see Crane v. Kentucky, 476 U.S.
683, 690 (1986), it encompasses “the right to present
the defendant’s version of the facts as well as the prosecution’s to the jury so it may decide where the truth
lies.” Washington v. Texas, 388 U.S. 14, 19 (1967).

67a
This right is not boundless. If it were, trials might be
never-ending. District courts wield broad discretion to
control the mode and order of presenting evidence,
both to preserve the trial’s truth-seeking function and
to avoid wasting time. See Fed. R. Evid. 611; United
States v. Jeri, 869 F.3d 1247, 1262 (11th Cir. 2017).
But this “discretion does not ... extend to the exclusion
of crucial relevant evidence necessary to establish a
valid defense.” United States v. Kelly, 888 F.2d 732,
743 (11th Cir. 1989) (quotation marks omitted).
When the government presents rebuttal evidence
in a criminal case, the right to present a defense sometimes requires district courts to allow criminal defendants a surrebuttal. See, e.g., United States v. Murray,
736 F.3d 652, 656–59 (2d Cir. 2013); United States v.
Barnette, 211 F.3d 803, 821–24 (4th Cir. 2000); United
States v. Moody, 903 F.2d 321, 330–31 (5th Cir. 1990).
“The purpose of rebuttal evidence is to explain, repel,
counteract, or disprove the evidence of the adverse
party.” United States v. Frazier, 387 F.3d 1244, 1269
(11th Cir. 2004) (en banc) (quotation marks and alteration omitted). The same is true of a surrebuttal, except that its function is to explain, repel, counteract,
or disprove evidence presented in a rebuttal. Though
narrower in scope than a defense to the government’s
case-in-chief, surrebuttal nonetheless serves an important purpose. It allows criminal defendants to present their version of any new issues that arise in the
course of the government’s rebuttal. Juries sometimes
cannot “decide where the truth lies” if they hear only
the government’s side of a rebuttal issue. Washington,
388 U.S. at 19.
I say Mr. Pon was entitled to a surrebuttal. The
rule in this Circuit, as in others, is that a “surrebuttal
is merited where (1) the government’s rebuttal

68a
testimony raises a new issue, which broadens the
scope of the government’s case, and (2) the defense’s
proffered surrebuttal testimony is not tangential, but
capable of discrediting the essence of the government’s
rebuttal testimony.” Moody, 903 F.2d at 331; see also
United States v. Durnin, 632 F.2d 1297, 1301 n.8 (5th
Cir. Unit A 1980).1 Under this standard, this Court’s
sister circuits have ruled that the Constitution requires a surrebuttal where the government’s rebuttal
raised new, uncharged allegations of fraud in a fraud
case, Moody, 903 F.2d at 330–31, advanced a new mental health diagnosis as evidence of future dangerousness to support a death sentence, Barnette, 211 F.3d at
821–24, and introduced new evidence placing a defendant more frequently in the vicinity of the crime,
Murray, 736 F.3d at 658–59. Rightly so. Without a
surrebuttal, the government could use rebuttal in
those cases both to meet the defense case and to make
a new, unchallenged case of, respectively, fraud, future
dangerousness, and frequent presence at the scene of
the crime. That result would eviscerate the right to
present a defense.
Both conditions for a surrebuttal were plainly met
here. The government’s rebuttal certainly introduced
a new issue about the treatment of J.L.’s left eye for
conditions wholly unrelated to wet macular degeneration.2 Mr. Pon’s proffered surrebuttal testimony about
In Bonner v. City of Prichard, 661 F.2d 1206 (11th
Cir. 1981) (en banc), this Court adopted as binding
precedent all decisions of the former Fifth Circuit
handed down before October 1, 1981. Id. at 1209.
1

Mr. Pon contends the District Court abused its
discretion in allowing a rebuttal. Not so. The District
2

69a
that treatment would have discredited the essence of
the government’s rebuttal case. Mr. Pon’s right to present his defense required the District Court to allow
him to testify to his reasons for treating J.L.’s left eye.
I discern no real dispute about whether the government’s rebuttal evidence introduced a new issue. The
rebuttal evidence concerned treatment of J.L., a patient who testified during the defense case. The substance of J.L.’s testimony was that Mr. Pon treated
J.L. for detached retinas even knowing J.L. did not
have insurance, that Pon restored vision in J.L.’s right
eye but not his left, and that Pon later diagnosed J.L.
with wet macular degeneration and treated him with
the laser method. On cross examination, the government asked J.L. whether Mr. Pon had performed any
tests on his left eye. J.L. said he had not. J.L. reiterated on redirect examination that Mr. Pon hadn’t
treated his left eye. After the defense rested, the District Court allowed the government to put on rebuttal,3
Court had discretion to allow the government to rebut
the impression J.L.’s testimony created of Mr. Pon’s altruism and to clarify J.L.’s treatment history.
The District Court’s decision to allow rebuttal
seemed to rest in part on the government telling the
District Court that it was Mr. Pon who first put the
matter in issue by asking about J.L.’s left eye on redirect. The District Court sided with the government,
believing the defense first asked about treatments on
J.L.’s left eye on redirect. The government’s representation and the District Court’s belief in this regard is
contradicted by the record. It was the government who
first introduced the issue of J.L.’s left eye by inquiring
about it on cross-examination.
3

70a
including a spreadsheet made by the government’s investigator showing Mr. Pon billed Medicare for treating J.L.’s left eye on more than fifty occasions between
2004 and 2015. All told, the services added up to
$19,350 worth of Medicare charges over eleven years.
Up to the point the government put the spreadsheet into evidence, nothing would have indicated to
Mr. Pon that he had to defend his reasons for treating
J.L.’s left eye. For that matter, he would have had no
reason to prove that those treatments even happened.
The government’s case-in-chief revolved around Mr.
Pon’s false diagnosis and treatment of wet macular degeneration, see Maj. Op. at [12a–17a], while the defense case depended on showing Mr. Pon lacked the
necessary intent to defraud Medicare. With the
spreadsheet, the government injected an entirely new,
unrelated, and uncharged fraud. The clear implication
of the rebuttal evidence was that Mr. Pon fraudulently
billed Medicare not only for diagnosing and treating
nonexistent wet macular degeneration, but for other
procedures as well. This broadened the scope of the
government’s case. See Moody, 903 F.2d at 331 (holding the government broadened its fraud case when it
brought up new, uncharged frauds in rebuttal).
Nor is there any real disputing that Mr. Pon’s proffered surrebuttal testimony would have gone right to
the heart of the government’s rebuttal. In his proffer,
he explained that he did in fact treat J.L.’s left eye and
that he had a medical reason for doing so—namely,
preventing blindness in J.L.’s right eye. This evidence,
if believed, would squarely rebut the government’s
contentions that Mr. Pon never treated J.L.’s left eye
but billed for it anyway. The limitation of surrebuttal
on this record violated Mr. Pon’s right to present a defense.

71a
The government stresses that the District Court
limited rather than outright denied Mr. Pon’s surrebuttal. And the District Court did allow Mr. Pon to
testify in surrebuttal that three of the more than fifty
entries were the result of a clerical error. However,
limiting Mr. Pon to this explanation may have exacerbated the problem. By allowing Mr. Pon to explain
only three of the over fifty treatments, the jury may
have been left with the impression that Pon had no explanations for the remaining treatments. Indeed, the
government’s cross-examination of Mr. Pon played up
the fact that Mr. Pon only had an explanation for “just
three entries out of two pages of entries.” I question
the propriety of this argument by the government
when it knew Mr. Pon had an explanation for the other
entries the court forbade him from testifying about.
Mr. Pon’s full explanation (treating the left eye helped
prevent issues in the right eye) would have rebutted a
key contention of the government’s rebuttal case. The
exclusion of this testimony violated the right to present a defense just as surely as a complete denial of
surrebuttal would have. The limited surrebuttal allowed the government to exploit the District Court’s
ruling, creating the impression that Mr. Pon had no
explanation at all for more than forty treatments. In
fact he did.
The short of it is that the District Court allowed the
government to inject a whole new allegation of fraud
into the trial, then hobbled Mr. Pon’s ability to respond
to it. Mr. Pon had no chance to defend himself against
allegations that he billed Medicare for treatment he
never provided on an eye that couldn’t see. Rather
than decline to decide the issue, see Maj. Op. at [33a–
34a], I would hold the District Court violated Mr. Pon’s
constitutional right to present a defense.

72a
II.
Not all errors require reversal. This one does.
Under the harmless error doctrine, this Court will
not reverse a district court’s constitutional trial error
if it is “clear beyond a reasonable doubt that a rational
jury would have found the defendant guilty” regardless of the error. Neder v. United States, 527 U.S. 1,
18 (1999); see Chapman v. California, 386 U.S. 18, 24
(1967).4 Following the Supreme Court’s lead, this
Court has identified cases in which “the evidence of the
defendant’s guilt is ‘so overwhelming’ “ as “[o]ne circumstance in which courts find constitutional errors
harmless beyond a reasonable doubt.” United States
v. Willner, 795 F.3d 1297, 1322 (11th Cir. 2015) (quoting Harrington v. California, 395 U.S. 250, 254
(1969)).
But the Supreme Court has equally cautioned us to
be careful with the harmless error doctrine. Take, for
example, Neder. It raised the question of whether the
harmless error doctrine applies in cases where a district court omits an element of the offense from the
As the majority recognizes, the parties dispute
which harmless error standard applies. See Maj. Op.
at [32a–34a]. The government says Mr. Pon did not
preserve his constitutional error because he did not object on constitutional grounds below. I think the issue
was sufficiently preserved. The District Court specifically raised Mr. Pon’s Sixth Amendment right to offer
an explanation when considering whether to grant a
surrebuttal. The issue seems to me to “fairly appear[
] in the record as having been raised or decided” and
thus is before the Court. 19 James Wm. Moore et al.,
Moore’s Federal Practice § 205.05(1) (3d ed. 2019).
4

73a
jury instructions. Neder, 527 U.S. at 8. The Court held
the error “is subject to harmless-error analysis.” Id.
at 15. But it warned that courts “should not find [an]
error harmless” where the defendant contested the
omitted element and “raised evidence sufficient to support a contrary finding.” Id. at 19. Those circumstances would, the Court said, preclude the reviewing
court from “conclud[ing] beyond a reasonable doubt
that the jury verdict would have been the same absent
the error.” Id.
It is important to remember that harmless error review is no substitute for a jury trial. The Sixth Amendment demands no less. U.S. Const. amend. VI (“In all
criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial
jury.”). A reviewing court treads on the right to a jury
trial when it uses harmless error review to “‘become in
effect a second jury to determine whether the defendant is guilty.’” Neder, 527 U.S. at 19 (quoting Roger J.
Traynor, The Riddle of Harmless Error 21 (Ohio State
Univ. Press 1970)). And there are practical consequences, too. Whenever we invoke harmless error,
“the deterrent force of a reversal remains unfelt by
those who caused the error.” Harry T. Edwards, To
Err Is Human, But Not Always Harmless: When
Should Legal Error Be Tolerated?, 70 N.Y.U. L. Rev.
1167, 1170 (1995).
We should be particularly wary of invoking “overwhelming evidence” to hold an error harmless. “[T]he
Constitution does not trust judges to make determinations of criminal guilt.” Neder, 527 U.S. at 32 (Scalia,
J., concurring in part and dissenting in part) (emphasis omitted). The right to a jury trial forbids us from
doing so. This is why a federal judge may direct a judgment of acquittal but never a judgment of guilt. See

74a
Rose v. Clark, 478 U.S. 570, 578 (1986); Fed. R. Crim.
P. 29. We owe it to defendants who come before us to
ask ourselves always whether a rational jury could acquit, and never whether we ourselves think the defendant guilty.
Taking up this task, I believe a rational jury might
have voted to acquit Dr. Pon. The majority opinion
concludes the government’s evidence against Mr. Pon
proved beyond a reasonable doubt that “Pon had diagnosed patients with [wet macular degeneration] when
those patients clearly had never had it” and that Pon
“billed Medicare for laser photocoagulation treatment
of the[se] ... patients.” Maj. Op. at [56a–57a]. But the
government had to prove more than misdiagnosis and
unnecessary treatment to win a conviction. To win, it
had to show Mr. Pon intended to defraud Medicare by
submitting claims he knew “were, in fact, false.”
United States v. Crabtree, 878 F.3d 1274, 1285 (11th
Cir. 2018) (quotation marks omitted); see also Pattern
Crim. Jury Instr. 11th Cir. O53 (2019). The focus on
whether there was any doubt that the patients named
in the indictment had wet macular degeneration or
needed laser treatment elides this point.
Of course, I do not contend the evidence the government presented about Mr. Pon’s diagnoses and treatments lacked probative value. The evidence of misdiagnosis and unnecessary treatment supplied circumstantial evidence of Mr. Pon’s intent, and enough of it
to support a conviction. See United States v. Clay, 832
F.3d 1259, 1309 (11th Cir. 2016); United States v.
Bradley, 644 F.3d 1213, 1239 (11th Cir. 2011). But Mr.
Pon also met the government’s case with enough evidence to support an acquittal, had the jury so decided.

75a
Mr. Pon spent more than three days on the stand.
At the outset, he testified he “absolutely [did] not” intend to defraud Medicare. He spent the next several
days explaining in granular detail how he diagnosed
and treated patients. He said he got the idea for his
diagnostic method from a talk given by Dr. Robert
Murphy, a leading ophthalmologist. Dr. Murphy proposed using an emerging technology to visualize “occult neovascularization”—essentially, new, difficultto-see blood vessels forming in the eye. Mr. Pon said
he thought the technique was “the greatest thing since
sliced bread, because this technology was going to allow direct visualization of those tiny, tiny little blood
vessels.” Mr. Pon said he believed based on Dr. Murphy’s presentation that he could detect wet macular
degeneration in its earliest stages using a cutting-edge
technique.
As for treatment, Mr. Pon said he got some ideas
about that from Dr. Murphy’s presentation, too. Dr.
Murphy reported using a laser to create a “thermal
gradient”—a heat differential—in the eye to close the
feeder vessels that caused wet macular degeneration.
This technique did not cause scarring, as do traditional
laser techniques for treating wet macular degeneration. Dr. Pon also thought this was “the greatest thing
since sliced bread.”
Mr. Pon bought the equipment he believed he
needed to put Dr. Murphy’s diagnostic and treatment
techniques into practice. He later upgraded the equipment with a purchase he explained he would not have
made if his intent had been to defraud. Mr. Pon began
treating patients with it and said he found lower power
settings provided better results than Dr. Murphy’s
thermal-gradient method.

76a
And the jury didn’t have to take Mr. Pon’s word for
it. Mr. Pon called twelve of his patients and the spouse
of another to testify that the lasers improved their (or
her spouse’s) vision. One witness, who has advanced
public health degrees and background as a nurse, testified she learned from Mr. Pon to identify feeder vessels on a diagnostic monitor during Pon’s treatment of
her husband, who Pon diagnosed with wet macular degeneration. Another, a laser nurse, likewise testified
she could see the problem areas Mr. Pon identified and
that her vision improved with laser treatments. The
government agreed some of these thirteen patients actually had wet macular degeneration. It disagreed as
to others. But for all the patients who testified for Mr.
Pon, their testimony was uniform that Mr. Pon’s laser
treatment helped.
With this evidence before it, a rational jury could
acquit Mr. Pon. This hypothetical acquitting jury
could do so without any belief that: (1) Mr. Pon indeed
diagnosed his patients with wet macular degeneration
no one else could see or (2) treated it using miraculous
new technologies in ways no other doctor could. Yet
these are the two issues the majority opinion focuses
on. To acquit, a jury would have to conclude only that
Mr. Pon believed in good faith he could do these things.
His own testimony and that of his patients, some of
whom even the government admits had wet macular
degeneration, would suffice for a rational jury to believe Mr. Pon acted in good faith. If a patient who
couldn’t read a menu before says he can after a doctor
gave him a laser treatment, reasonable people could
agree the doctor believed the treatment worked. I do
not dispute that reasonable jurors could also convict
Mr. Pon. But the government’s evidence of intent, as
distinct from the evidence that Mr. Pon misdiagnosed

77a
and unnecessarily treated his patients, is not so overwhelming that this Court should affirm the judgment
of guilt.
The case for acquittal would have been even
stronger if Mr. Pon had the chance to give his full surrebuttal. The government’s rebuttal evidence was
highly prejudicial, or “very damning,” as the District
Court saw it. In a case all about Mr. Pon’s intent, the
government’s rebuttal certainly created the impression that Mr. Pon either 1) billed Medicare for treatments he never provided, or 2) billed Medicare for dozens of useless treatments on a blind eye. And then the
government nailed Mr. Pon during his surrebuttal,
emphasizing how limited an explanation he gave, just
three entries, in the face of a spreadsheet showing
years of treatments. The government implied Mr. Pon
had nothing to say about the other entries, when of
course it knew he had an explanation. The jury may
well have taken this as essentially a confession to an
unrelated fraud. A “defendant’s own confession is
probably the most probative and damaging evidence
that can be admitted against him.” Arizona v. Fulminante, 499 U.S. 279, 296 (1991) (quotation marks
omitted).
Between the spreadsheet and the limited surrebuttal, so far as the jury knew Mr. Pon had no explanation
at all for treating a blind eye. And so far as we know,
the jury went back to their deliberations thinking Mr.
Pon was a crook because of it. A rational jury allowed
to hear the case with Mr. Pon’s explanation could render a different verdict than this one did. That being
the case, I must say this error was harmful. I believe
Mr. Pon should get a new trial.

78a
III.
I believe a second jury should have decided Mr.
Pon’s guilt or innocence. For this reason, I dissent
from the majority opinion’s holding that any error in
Mr. Pon’s case was harmless.

79a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_________________
No. 17-11455
_________________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
DAVID MING PON,
Defendant-Appellant.
_________________
Appeal from the United States District Court
for the Middle District of Florida
_________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: MARTIN, ED CARNES, and ROGERS,*
Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having requested that the Court be polled on rehearing en banc.
(FRAP 35) The Petition for Panel Rehearing is also denied. (FRAP 40)

Honorable John M. Rogers, United States Circuit
Judge for the Sixth Circuit, sitting by designation.
*

80a
APPENDIX C
EXCERPTS FROM THE TRIAL TRANSCRIPT
OF TESTIMONY FROM DEFENDANT’S FOURTEEN WITNESSES
(Dkts. 215, 231, 232, 233)
CURTIS VICTOR ARMSTRONG, DEFENDANT’S
WITNESS, SWORN DIRECT EXAMINATION
Q. All right. Would you describe to the ladies and
gentlemen of the jury the experience of going to Dr.
Pon’s office and how that went, if there’s such a thing
as a typical day?
A. I’ve been a lot, and there’s a pattern. I get there
fairly early in the morning. I try to get an appointment
at 9 o’clock, 10 o’clock.
They will log you in, and soon after that, they will
take you back and check your vision to see how well
you see, how the Es are on the—the letters and all on
the board. They will also check your pressure.
I have a family history of glaucoma, and so they
check your pressures to see how they are. And then
they put some drops in your eyes that basically dilate
your eyes. It opens up your eye so you can see in there.
And then I have to go back into the waiting room and
wait on all of that to take effect.
And then after that, there are two tests that are
conducted, I think, every time that look inside your
eyeball.
And one of them, I think you see the eyeball from
the front, and then there’s a way—and I’m not sure
how it does it—that it can see it from the side. And
one of those tests, they put a dye in so they can—so
that it shows up better.

81a
And then after that, there’s some time that you’ll
wait because usually there are a lot of people in that
waiting room. And I would say the average time that
I spend with Dr. Pon is four to five hours. If I get in
there at 9 o’clock in the morning, I’ll get out at, like,
3:00 in the afternoon.
Q. All right. Now, you mentioned—let me interrupt you. You mentioned these tests that Dr. Pon performed. This is with some equipment that he had
there in his office?
A. Yes.
Q. Now, did you—after these tests were run, did
you have occasion to sit down with Dr. Pon and look at
screenshots or pictures of what he had developed from
this testing?
A. Yes. Absolutely every time.
Q. Every time.
A. Absolutely every time.
Q. And he showed—at that point is when he told
you that he—that he believed that you had evidence of
wet macular degeneration.
A. Yes.
Q. All right. And he treated you with a laser on
January the 5th, 2009?
A. May I say something?
Q. Yeah.
A. I think he did it on both eyes. One eye didn’t
have it; one did.
Q. I was going to point that out. Looking at the
chart, apparently only the right eye—

82a
A. Yes.
Q.—had the problem and not the left eye.
A. Yes.
Q. And he never diagnosed anything wrong with
your left eye in the way of at least wet macular degeneration, did he?
A. Not macular degeneration.
Q. You had some other problems, but—
A. Yeah. But you have to know—I wanted him
looking in that left eye to see if that retina was going
to detach. I didn’t want to do chapter 2 of this.
Q. All right. And he continued to treat you on—
looks like May the 4th was the next time with the laser, but then there was an injection of Avastin.
A. Yes, sir.
Q. You remember that?
A. Yes, sir.
Q. And that was an injection in your eye.
A. I was scared about that. They used Avastin on
my wife to treat breast cancer, and it was like, “You’re
going to put some Avastin in me?”
And so we had to talk about that before we did that,
but it worked.
Q. But he gave you the option of what treatment
modality you wanted to employ, did he not?
A. Absolutely.
***
Q. All right. Well, the question is, you already kind
of jumped ahead and you’ve already told us that your

83a
vision right now—you don’t wear glasses of any kind,
do you?
A. That’s right.
Q. And that’s the first time in your life that’s ever
been true.
A. It’s the first time in my life, yes.
Q. All right. But can you relate—how can you tell
us that this was related to your wet macular degeneration? How can you tell that?
Did you see that yourself with evidence from these
screenshots from the testing?
A. Yes. We—there was a lot of talking that went
on with us reviewing the results of the tests. He has
an incredible amount of equipment.
And I’ve had people say, “Well, why don’t you go to
somebody in Athens?” There’s a guy that comes to Athens two hours on Thursday. He couldn’t haul the stuff
over there that Dr. Pon has to talk to me.
So I go down to Dr. Pon, and we—we go through
this every time. And there is a discussion of, I don’t
know, 15 or 20 minutes that we look at where we came
from, and he shows me the stages. So I feel like I’m up
to date all the time on this.
Q. So you were able to actually look at the screen
and see the progress that was being made? I mean,
could you see it yourself?
A. Yes.
Q. All right. And ultimately it related—it resulted
in where you are now, with seemingly perfect vision?
A. That’s right.

84a
Q. What’s the drive time between Athens, Georgia,
and Dr. Pon’s office?
A. Seven hours.
Q. And you have been a patient of Dr. Pon’s ever
since November the 28th of 2008?
A. You bet.
***
JACK CARTWRIGHT, DEFENDANT’S WITNESS,
SWORN DIRECT EXAMINATION
***
Q. And then with regard to when you’re going in
for treatment and we’re talking about whether we’re
going to treat the wet macular degeneration with the
laser or we’re going to treat it with an injection, how
was it decided, which one to use?
A. Well, quite honestly, we’d discuss it. Dr. Pon
and I would discuss it, and my answer was always, “I
trust you very much, Dr. Pon. You tell me which is
best for me at this time.”
Q. So is it a fair statement that sometimes he recommended the injection with the Avastin, and sometimes the recommendation was the laser?
A. Yes. That is very true.
Q. Okay. And let me ask you this question. Did it
help your eyesight?
A. Absolutely.
Q. I mean, can you give us any concrete examples
of how it helped your eyesight?
A. The laser?

85a
Q. The laser.
A. When I would go in to him, a good many times
my vision had gotten much worse, and after the laser
treatments, it improved considerably. The much
worse was that it looked like a cloud in front of my eyes
that was getting closer and closer to me when I went
in. Also, the distance I could see got less and less.
And after the laser treatments, the cloudy – the
cloud moved away—never totally went away but it
moved away—and my vision got longer in the ability
to see.
Q. And so just in fairness, you’re legally blind in
one of your eyes.
A. I am legally blind in one of my eyes, yes.
Q. Okay. Did the laser still help?
A. The laser still helped.
Q. When you would come in and treat with Dr. Pon,
would you tell him about how the laser affected your
eyesight?
A. Oh, yes. Absolutely. He always asked that
question, and we would discuss how it affected my eyesight. Sometimes it was better than other times, but
all times it was improvement.
* **
JEROME LEWIS, DEFENDANT’S WITNESS,
SWORN DIRECT EXAMINATION
* **
Q. Okay. When he did the laser, what impact did
that have on your vision?

86a
A. After the lasers were done, my vision usually
cleared up for—it would—it would last a couple days,
maybe a week or so, and steadily go back to what it
was before.
Q. According to these records, he did a laser surgery for macular degeneration for the first time on
July 10 of 2009, then he did another one November 13
of 2009.
A. Uh-huh.
Q. In 2009 were you living in Orlando or—
A. No.
Q.—West Palm Beach?
A. West Palm Beach.
Q. Okay. So if the laser only lasts for a very short
time, did you call Dr. Pon, or did you—had you already
made another appointment—
A. Yes.
Q.—to come back a few months later?
A. Another appointment was made, yeah, for follow-up.
Q. And you went back, then, in November and had
another laser treatment?
A. Uh-huh.
Q. And the same procedure in terms of how he diagnosed you looking at the screens and everything?
A. Everything.
Q. And then what impact, if any, did the—did that
laser treatment have on your vision?
A. The same improvements.

87a
Q. But they didn’t last long?
A. Yeah. They—I mean, it would—it would last
maybe a little bit longer, but, you know, it always
comes back to what it was before.
***
SHIRLEY RAMIREZ-ZAPATA, DEFENDANT’S
WITNESS, SWORNDIRECT EXAMINATION
***
Q. Ms. Ramirez, where do you live?
A. (In English:) San Francisco, California.
Q. I think that we understood. We’re on a roll here.
Ms. Ramirez, have you lived most of your life in San
Francisco?
A. Only ten years.
Q. Okay. Is that the last ten years?
A. Yes, sir.
Q. When you—was there a point in time when you
were diagnosed, in San Francisco, by a doctor with
macular degeneration?
A. Yes, sir.
Q. Did you receive treatment for macular degeneration from the doctor in San Francisco?
A. Yes, sir.
Q. What kind of treatment did you receive?
A. An injection, Avastin.
Q. Avastin?
A. Yes.
Q. Okay. Did the injections help you?

88a
A. An improvement that I could notice, no.
Q. Were you concerned about your vision?
A. Yes, sir.
Q. What were your concerns?
A. I had distortion. It’s a problem I have in my left
eye. I was unable to have a real vision with that eye.
Q. Were you told that your—you could lose your
vision or go blind with the macular degeneration?
A. Basically what they said, that there was no way
of healing and that probably I could lose a frame of vision with time.
Q. Did you and your husband do research and did
he do research on the Internet to try to find another
doctor to treat your eyes?
A. Yes. Both of us were worried because we noticed
that my quality of life was suffering a great change.
Q. Through that research did you learn of Dr. David Pon?
A. Yes. My husband was investigating and speaking also about this with many people. He found this
doctor.
Q. Did your husband call Dr. Pon and talk with
him about your problems with your eyes?
A. Yes, sir. They were in communication.
Q. And did Dr. Pon agree to review records if those
records would be sent to Dr. Pon?
A. Yes, sir. He requested them, and they were sent
to him.

89a
Q. After Dr. Pon reviewed the records, did he then
have another conversation by telephone with your husband?
A. Yes, of course he did.
Q. After that phone call, did you and your husband
arrange to come to Florida for Dr. Pon to examine you?
A. Yes, sir.
***
Q. What effect did the laser have on your vision in
your left eye?
A. It was incredible for me because I was able to
see my husband’s face again without any distortion.
Q. For how long had you not been able to see your
husband’s face without distortion?
A. Two or three years. It was long time for me.
* **
DENNIS THACKER, DEFENDANT’S WITNESS,
SWORN DIRECT EXAMINATION
***
Q. Mr. Thacker, after you were initially diagnosed
with dry macular degeneration in 2003, did there come
a time when you received the bad news that you, in
fact, had progressed to wet macular degeneration?
A. Yes, sir. It was in September of 2013.
Q. 2013?
A. Yes.
Q. And that was not—that diagnosis was not made
by Dr. Pon, was it?
A. No, it was not.

90a
Q. It was made by your doctor in Columbia, South
Carolina.
A. Yes, a retinal specialist in Columbia.
Q. All right. Had this been the same physician
that had been treating you since your original diagnosis of dry macular?
A. No. He was referred to me by the physician that
was monitoring me.
Q. Okay. And so did you—were you tested, as far
as you were concerned, thoroughly enough that you
could accept that diagnosis and knew that that’s exactly what you had?
A. Yes.
Q. And particularly so with your family history.
A. Yes.
Q. All right. As a result of that, did your physician
in Columbia undertake any kind of treatment regimen
with you to treat that wet macular degeneration?
A. Yes, he did. We went to an Avastin injection
monthly to five-week basis.
Q. I’m sorry. I didn’t hear that last part.
A. I had monthly injections—
Q. Of Avastin?
A.—between every four to five weeks.
Q. Of Avastin?
A. Of the Avastin.
Q. All right. And how long did you continue with
that treatment?
A. I went through that treatment for 16 months.

91a
Q. All right. I meant to ask you, how did you—
before the diagnosis was made in Columbia, did you
recognize that something was going not well with your
eye?
A. Yes, sir. I was watching a football game on television, and I noticed blurred vision in the right eye
and some color distortions when looking at the TV.
Q. All right. And this was all in the right eye?
A. Yes.
Q. And was that what prompted you to go to the
physician and in turn get the referral to the retinal
specialist?
A. Yes, it did.
Q. All right. And to get back to where we were,
apparently the physician that you saw there that made
that diagnosis started you on the standard of care, the
Avastin.
A. Yes, he did.
Q. Once a month or every five weeks or so.
A. Yes.
Q. And how long, again, did you continue with
that?
A. I had 16 treatments.
Q. And what was the result of those treatments?
A. At that point in time I had noticed a decrease in
my vision.
Q. I mean, something that you could recognize?
A. Yes.

92a
Q. I mean, you could tell that things weren’t going
well?
A. During the eye chart exam in his office, I could
tell it was changing.
Q. All right. And so what did you do at that point?
A. At that point I was—took early retirement and
made an appointment to come down and see Dr. Pon.
Q. All right. What kind of symptoms were you experiencing? Do you recall? Was it just generally bad
vision, or was it blurry, or what was it?
A. It’s blurry vision. There’s a slight loss of light
recognition between the right and left eye.
Q. All right. And you could tell a difference from
one eye to the other?
A. Yes, I can.
Q. All right. And you came down to see Dr. Pon, if
our record is accurate, on May the 21st, 2015. Does
that square with your memory?
A. Yes. That’s correct, sir.
Q. And at that time did Dr. Pon undertake and do
an examination of you that was something like your
physician in South Carolina?
A. Yes. He did a very thorough exam, which I actually felt was more in-depth than the physician had
given me in Columbia.
***
Q. All right. What treatment did Dr. Pon offer you
at that time, sir?

93a
A. We reviewed a couple different treatments, including—anything from laser to continuing the Avastin.
Q. What did you think about continuing the Avastin after 16 months?
A. It had helped in keeping it stable for most of
that 16 months. We discussed and decided to go with
a combination program.
Q. Combination of laser and Avastin.
A. Yes.
Q. And did you do the laser that very day, that very
day that you first went in on May the 21st?
A. I believe I did.
Q. Well, we’re looking at the record. The record
would seem to suggest that it was done on May the
21st, and then the Avastin was given the following
day—
A. Yes.
Q.—on May the 22nd.
A. Yes.
Q. Does that square with your memory?
A. That squares with my memory.
Q. All right. When you did that, when you—the
laser treatment that you described, could you—was
there sensation to that? In other words, were you
aware that it was going on when it was going on?
A. Other than the light and the pressure from the
optical devices he was using, I had no sensation of the
laser.

94a
Q. So there was no pain.
A. No.
Q. All right. And the—when you left that night
and when you woke up the next morning, did you feel
and—did you see any difference in your eyesight
within the next 24 hours or so?
A. Yes. I noticed a significant improvement in vision in the right eye.
Q. And was that with—after the Avastin or even
before the Avastin was—
A. Even before the Avastin.
Q. And did that—did that phenomenon, that effect,
did it increase even more with the Avastin, or was it
just the laser that seemed to do it?
A. It appeared more that the laser had the effect
on the eye.
Q. But to be clear, I mean, were you been able to
see things that you had not been able to see before, after the—
A. Yes, I was.
Q. And were you—I mean, specific things like road
signs and, you know, fine print and things of that sort?
A. I was able to read fine print and could actually
identify separate leaves on the trees and read road
signs at a further distance.
Q. And how long had it been since you’d had vision
of that quality?
A. It had been at least 18 months.
Q. I’m sorry?

95a
A. 18 months, before I started the treatments with
the other doctor.
***
Q. Did you get any additional help from this second
laser that you experienced on June the 26th?
A. Yes, I did. I feel it prolonged the effect that I
had from the first laser treatment.
Q. I don’t even know the answer to this. Have you
seen Dr. Pon since that time?
A. I’ve had a total of three treatments with Dr. Pon,
and I have not seen him since then.
Q. All right. And what has been the result of those
three treatments with Dr. Pon and the laser or laser
as accompanied by a shot of Avastin?
A. I showed signs of clearer vision, able to read documents and small print better.
***
ZILLIAH JANE GOULD, DEFENDANT’S WITNESS, SWORN DIRECT EXAMINATION
***
Q. Let me ask you more specifically, from August
of 2006 through the present, have you been a patient
of Dr. Pon’s and been treated for and diagnosed for wet
macular degeneration?
A. Yes, I have.
Q. And related to that diagnosis and treatment for
wet macular degeneration, have you gotten laser treatment for that?
A. Excuse me?

96a
Q. Related to the wet macular degeneration, have
you gotten laser treatment for that?
A. Oh, absolutely.
***
Q. Okay. Now, let me focus in first on the laser
treatment. When you received the laser treatment,
did it have any effect on your eyesight?
A. The laser treatments seemed to help my eyes
much better than the injections that I had with Avastin, and I’m sure that I told Mr. Pon or Dr. Pon that if
I had the choice, I would prefer the laser rather than
the injection.
Q. And why is that?
A. Because with the injection, I had a sort of a reaction. It took me several days to get over the—the
injection. Whereas, with the laser immediately I could
feel some improvement in my eyes.
Q. Can you give us any sort of concrete example as
far as how your eyesight improved with the laser?
A. Well, with the laser, watching television, my vision was clearer, and also with my reading, it was
clearer. It wasn’t as fuzzy.
Q. All right. And then I want to see—you’re still a
patient of Dr. Pon’s today. Is that right?
A. Yes, I am.
Q. And so you obviously received a large number of
laser treatments over the time since 2006?
A. Oh, absolutely.
Q. And also—
A. And—

97a
Q. I’m sorry. Go ahead.
A. Well, I said I firmly believe that Dr. Pon has
helped to keep my vision as good as it is, and I credit—
credit him with my vision.
I still work every day. I work with children every
day. I do clerical work, filing papers and grading papers and this, that, and the other. And I really attribute it to the special care that I’ve had with Dr. Pon.
CATHERINE BOXBERGER, DEFENDANT’S WITNESS, SWORN DIRECT EXAMINATION
***
Q. Now, Ms. Boxberger, Dr. Pon wasn’t the first
doctor to actually diagnose you with wet macular degeneration.
A. (Shakes head from side to side.)
Q. Tell us how you ended up going to see Dr. Pon.
A. Well, my first doctor told me I had macular a
long time ago, and when it got worse, he told me there’s
nothing he could do. So he sent me to an ophthalmologist, a Dr. Campbell, and when I went to see him, my
vision was 0/80, and he said nothing he could do.
But there was a new doctor in Orlando of his realm
and would I like to—if I wanted to go to see him, so I
said I did, and I went to see Dr. Pon.
And he worked and worked on my macular until I
had 20/20 vision again and was able to drive for—until
2009.
Q. Till 2009?
A. Uh-huh.

98a
Q. All right. Now, I asked you this before so you
said I could ask you this question. How old are you
today?
A. 94.
Q. And so you were able to drive, with Dr. Pon’s
help, until 2009?
A. Uh-huh, till I was almost 90, uh-huh.
Q. All right. So I know that you also, in addition
to being treated with the laser, that you also got injections of Avastin—
A. I did.
Q.—into your eye.
A. Uh-huh.
Q. And could you tell the difference as far as
whether it was the Avastin or the laser treatment that
helped you?
A. In its own way because it—it is like time release.
It doesn’t help you immediately, but it keeps you seeing longer.
Q. And what about with the laser?
A. The laser is immediate, and it helps a lot. And
he’s working on this eye and he’s got—I can see light
through it where it used to be black, and we’re still
working on this eye.
Hopefully I’ll be able to see something out of it
someday.
Q. Okay. Would you discuss with Dr. Pon whether
or not the laser was beneficial to your eyesight?
A. The laser?

99a
Q. Yeah.
A. Absolutely. That’s what saved my sight.
Q. And what would you tell him?
A. Uh-huh.
Q. What would you tell him about the laser treatment?
A. Well, I think it’s wonderful. It’s one of the best,
and it does help you heal. And it takes a long time to
take care of macular, but we’ve been working on it for
years and it’s working.
***
RUBY ANN BRITT, DEFENDANT’S WITNESS,
SWORN DIRECT EXAMINATION
***
Q. Now, Ms. Britt, did I understand that you—
that Dr. Pon would recommend that you would come
back periodically every few months?
A. If he treated my eye for whatever reason,
whether it was a retina detachment or blood behind
the eye or whatever, and he treated it, he would want
me to come back maybe for three months just to see
how I was doing.
Q. Right. Did you do that, or did you set your own
schedule?
A. No, I didn’t always do that. If I wasn’t having
problems with my eye, if my vision had not changed, I
usually wouldn’t go back for a year.
Q. With specific reference to this treatment of wet
macular degeneration that we’ve just described, did

100a
you kind of set your own pace of when you got a laser
treatment?
A. Well, I can’t really say that exactly.
Q. All right.
A. We kind of cooperated with each other.
Q. What—
A. You know, every time I went—I didn’t get the
laser every time I went.
Q. Right.
A. He treated my eyes for different things.
Q. Correct.
A. As a matter of fact, he did surgery on my right
eye.
Q. What was the surgery?
A. The surgery was to replace an intraocular lens
that had slipped off my eye.
Q. And was that successful?
A. Pardon?
Q. Was that successful?
A. Very successful.
Q. All right.
A. And he also treated my husband with surgery
because of the vitreous in his eyes. He literally restored his vision for him.
Q. Your husband referred to him—A. And after
that he called him his hero.
Q. His hero.

101a
A. Yes.
Q. That’s what he called him, wasn’t it?
A. Yes. Dr. Pon’s our hero, that’s for sure. He also
treated my sister.
Q. Did you—
A. She was having trouble in one of her eyes, and
he did surgery on her, and her surgery was very successful.
Q. With specific reference to the treatment with
this laser, this treatment of wet macular degeneration
by laser, did you notice any improvement in your vision?
A. Every time he did laser in my eye, my vision
improved.
Q. Without exception.
A. Without exception, right. Otherwise, I would
not have him laser it because we would agree on the
laser. You know, he’d say, “Are you sure this is going
to help you? Now, if it’s not going to help you, I don’t
want to do it. If it’s going to help you, I want to do it.”
I said, “I’m positive it helps me. Please, do it.”
Q. So you would—
A. Yes.
Q. You would—
A. Every time it would help me.
Q. He would ask you every time, “Are you sure that
this is helping you?”
A. Yes. He didn’t want to do it unless he was sure
it was helping me.

102a
Q. And you told him each and every time, “Yes, this
is helping.”
A. He never lasered my eye that it did not help improve my vision. This was the left eye most of the time.
***
MARION GRAY, DEFENDANT’S WITNESS,
SWORN DIRECT EXAMINATION
***
Q. Did he indicate that he thought that you needed
laser treatment for your vision?
A. He said he’d like to try it, and I agreed.
Q. Okay. And how did—
A. He wanted to see if it would improve, and it improved.
Q. Did it improve your vision?
A. Yes.
***
Q. Okay. And then that looks like the last time
that he did, back in January 6th of ‘11, the laser for
your macular degeneration.
Did your eyesight improve every time after you had
the laser treatments?
A. Yes.
Q. And can you give us an indication of how it improved? What changed in your vision?
A. I could read better. I could do my crossword
puzzles and be happy.
Q. Could you read them and do your crossword
puzzles—

103a
A. Yes.
Q.—before the laser? How about before the laser?
A. I had to wear magnifying glasses.
Q. Okay. Did you have to wear magnifying glasses
after the laser?
A. No.
***
SHARON KELLEY, DEFENDANT’S WITNESS,
SWORN DIRECT EXAMINATION
***
Q. Okay. So there are a lot of times over the years
that you
and your husband came down to see Dr. Pon, correct?
A. Correct.
Q. Where were you living at the time?
A. Springfield, Illinois.
Bud always—because I had been a nurse, he always asked me to go with him and be with him. And
whether it was his open-heart surgery in Indianapolis
or whatever, I was sort of the spokesman for him.
Q. I’m not very familiar with Springfield, Illinois,
but are there ophthalmologists in Springfield?
A. Yes.
Q. How far is Springfield from Chicago?
A. It’s about a three-and-a-half-hour drive.
Dr. Pon offered to refer us to a—early on when we
were seeing him to a doctor in Chicago, but my

104a
husband said that Dr. Pon saved his eyesight the first
time, and he would just as soon choose.
Now, we did see every one that was in Springfield,
and we saw one after he had his open-heart surgery
and his eye was bleeding in Indianapolis. And then St.
Louis Retinal Associates, and I can’t remember what
year that was.
But none of them at the time would have—well,
they would tell us there was nothing they could do.
Q. So why did you then make the decision—there
are obviously ophthalmologists and retina specialists
in Chicago.
Why did you and Bud, all these times, come down
to Florida to see Dr. Pon?
A. Because Bud kept getting better. He would be
able to see. Bud was still working, and he was a lobbyist for about 40 years in Illinois as well as congress.
And he had a lot of reading he had to do, and his
vision, when we started really getting lots of treatments, had decreased. He couldn’t see to read. He
couldn’t read menus.
He couldn’t read the newspaper. He couldn’t read
the bills that were sent to him from the legislature.
But we would get a treatment and—and the laser
treatment, within hours, Bud was—we’d go out that
evening and he’d read the menu.
I would bring him down. We drove a lot of the
times. Bud couldn’t read any of the signs. He couldn’t
even read the big interstate signs. And we brought another lady every time with us from Springfield as well,
and neither one of them could, and they both got the
same treatments.

105a
But we’d go out to dinner and they could read
menus after the laser treatment. Bud was reading the
newspaper, and in two or three days, we would head
home, and I’d be driving and they drove me nuts. They
were the worst backseat drivers you’ve ever seen telling me, “You’re at Colonial Drive. You’ve got to slow
down,” or, “You’re here,” or, “You’re there.” I mean,
Bud got better and—
Q. So Dr. Pon did, according to his treatment records, a treatment of your husband for diabetes, as well
as treatment for macular degeneration.
Let’s talk a little bit about just the macular degeneration treatment.
A. I understand.
Q. Were you always in the examining room and the
treatment room when Dr. Pon was examining or treating your husband, Bud?
A. From the minute they called Bud back, I probably drove his staff crazy because whether it was getting his—his pictures taken or just having his eyes
tested or dilated or whatever, I was with Bud.
And, yes, every time for the full time that Bud
would get treatments with Dr. Pon, I was in the room.
Q. And you were a nurse, registered nurse, for 18
years. You’ve indicated you worked in a lot of different
places. I assume you’ve seen a lot of different doctors
examine patients?
A. Yes, I have.
Q. How would you compare Dr. Pon’s examination
of your husband with his—with the examinations that
you’ve observed other physicians do?

106a
A. Dr. Pon took the time. He took whatever time
necessary.
When we would go to these other physicians or
these other retinal specialists, if they looked in Bud’s
eye, you know, five minutes, that’s pushing it.
They would examine the eye a very short period of
time. They would look at the records and whatever,
but we were in and out in 15 minutes at most—most
of these specialists’ offices.
With Dr. Pon, I could plan on spending two to three
hours there. At the time you had your—you took your
turn to get your pictures. When he would come and
examine the eye, he would go look at the pictures, and
he would let me go with him to look at those pictures.
He would make a determination on what treatment
he needed to do. The treatment itself took a long time.
The laser treatment took a long time.
Q. And were you present for those laser treatments?
A. Yes.
Q. Let’s—before we get to the treatment, let’s back
up a little bit for the diagnosis.
So when Dr. Pon did his diagnosis, were you present when Bud—well, was Bud injected with dye for
tests that the jury has heard about with fluorescein
angiography and indocyanine-green, or ICG?
A. ICGs. That’s what I—
Q. Are you familiar with those terms?
A. Yes.
Q. Are you familiar with those tests?

107a
A. Yes.
Q. And did your husband, Bud, receive those tests
in Dr. Pon’s office?
A. Always received them, it seemed like.
And sometimes Dr. Pon would send him back. If—
if the person taking the picture didn’t just capture it
as well, if they blinked or if it was blurred, he would
go back—you know, send him back to have pictures
taken again, and I was there with Bud, yes.
Q. Okay. And then did Dr. Pon discuss what he
saw in those images with you and Bud?
A. With me. Bud was there in the room, but I was
the one that would get up and go over to the computer
where he would have these displays of the pictures
from that day or—then he would show me pictures
from the months before or the treatment before. I was
the one that was really looking at them, yes.
Q. Okay. Are you familiar with the term feeder
vessel?
A. Yes.
Q. And what does that mean to you?
A. That’s where—you know, they find this bleeding
in the eye, and the source of that comes from the vessels. They—sometimes they talk about the vessels are
leaking or bleeding, but it’s like the source. If he could
find the feeder vessel, if he could identify it and treat
it, then you didn’t have that bleeding.
That’s not to say some others might not develop,
but it was the spot. And it was not easy to see. First,
when he would point them out, it took me a while to
learn. I would say, “Is that it?” or something, and it
would be some other artifact or something on the

108a
picture. But eventually, yeah, I—then I could see what
he was talking about and—
Q. Is that—
A.—it was the spot that he wanted to get to, that
he wanted to seal off.
Q. And is that pretty much true every time you
went in and there was a—either a fluorescein angiography or an ICG test done, that you—ICG test done,
that you would talk with Dr. Pon, with your husband
there, about what it was that Dr. Pon saw?
A. Yes.
Q. And—
A. And, you know, over the years, he had—he
didn’t have that machine at first that took some of
these pictures, and he kept saying, “If I can see it, I
can fix it.”
And we waited and kept going back until he got his
first machine, and that’s when I really started looking
at the pictures, because when we first started, he
didn’t have that type of equipment that I remember. I
refer to it, I think, for the ICGs and the Heidelberg
machine and things like that.
But he always explained to me the process of lasering because I was very concerned about scarring.
***
Q. The treatments that Dr. Pon did of Bud for wet
macular degeneration—
A. Yes, sir.
Q.—did Bud have improved vision every time?

109a
A. Every time. And it was—you know, I wondered
– I questioned Bud because he would have such poor
vision, and it would be within hours. He usually liked
to go back to the motel and lay down for a couple hours,
and—maybe three, and then we’d go out to dinner.
And by the time we’d got out to dinner, he was reading the menu, and I just couldn’t hardly believe that
his vision could improve that much. It was within
hours.
Q. Could he have read the menu before the laser
treatment?
A. No, sir. He could not read any menus.
And the problem was we didn’t always get here as
often as we would like, whether Bud was having another major health problem or his business or my business. So sometimes his—we didn’t get to stay on a protocol of so many weeks that we’d like to.
And his vision would be very poor, and he would
say to me, “We have just got to go. I can’t drive. I can’t
read. I can’t see.” You know, and we would come down
here and get a treatment, and he would be better in
hours.
Q. And how long would that—how long would that
improved vision normally last?
A. Normally his—for Bud, it would last 8 weeks to
12 weeks, and after 12 weeks, it would start—he would
start complaining.
Sometimes it would be a little before that he would
start complaining, but there were times—Bud had to
have a graft to his leg because of the diabetes. He
needed to have a vein transplant or an arterial

110a
transplant to get blood to his foot because he had a
sore, and we had to not come down for three or four
months.
And Bud could not function. He really couldn’t
function. I would have—he would hold onto my arm,
and I’d have to get him out of the doctor’s office or to
wherever we were going because of his decreased vision.
Q. On each of the occasions when you came back
down after the laser treatments, or even, I guess, on
those occasions when you went back the very next day
and Bud would get an Avastin injection, if that happened, would you or Bud tell Dr. Pon about the improved vision and what you’ve just told us?
A. Absolutely. And, you know, the thing was that
they would always do an eye test on Bud when he came
in, and—and not just the pictures but they’d have him
read, you know, the big old eye chart.
And they—Bud, whether they offered him an eye
chart afterwards, after laser treatment, or not, he was
always going—they had it hanging at the end of the
hall there in Leesburg. And he would always go and
see what he could read on the chart and which line he
could read on the chart. And every time his vision improved, every time.
But Dr. Pon also did testing, and he knew that
Bud’s vision had improved. Sometimes he would act a
little surprised in the beginning that it would happen
so quickly, Dr. Pon did.
He’d say, “Really? You can see that? You can do
that?” But eventually, I think he got tired of asking us
because we kept telling him, and, you know, he didn’t
seem quite so surprised after that.

111a
***
Q. Did you and Bud have occasion to recommend
Dr. Pon to other people?
A. People would call Bud. People who knew Bud,
some of his clients, some of, you know, our friends or
whatever, they knew that his eyes were getting better.
He could come to Florida and his eyes would get better.
We brought at least 10 to 12—we brought them
with us over those years, 10 to 12 people at the minimum to see Dr. Pon. And I know we referred two or
three others who traveled on their own down here to
see Dr. Pon.
And every one of them would call us and tell us that
Dr. Pon helped them, every one. We had a sign made
up and put on the side of our van because we were
hauling people to Dr. Pon’s office. Bud had it made up.
It was a magnetic sign that said “Dr. Pon’s Illinois
Patients,” and he made Dr. Pon come out and see the
van one time, and we took pictures because people
couldn’t get that help anywhere. They would be told,
“There’s nothing can be done.”
And I sat in that waiting room and I talked to people from all over this country. I talked to a lady from
South America. I talked to a lady from California, I
mean, up in Michigan and Wisconsin individuals.
Every one of them had the same story: “We went to our
doctor. We went to our retinal doctor, and they told us
nothing could be done.” And that’s why they would
travel there.
That’s why we traveled there.
Q. And did they all seem to get improvement from
Dr. Pon?

112a
A. Everybody got improvement, and that’s why
they kept coming back.
***
JAMES THOMPSON, DEFENDANT’S WITNESS,
SWORN DIRECT EXAMINATION
***
Q. Okay. With respect to the diagnosis of macular
degeneration and the other, how long after this surgery, approximately, do you recall that that diagnosis
was made? Do you have any feel for that interval at
all?
A. Within a year—
Q. Okay.
A.—the first one.
Q. All right. And did Dr. Pon, at the time that he
made those diagnoses, both of them, did he tell you
whether or not either of these diseases were truly curable?
A. Oh, he said neither one of them were curable,
but he felt that he could retard the progress or stop the
progress or slow it down a little bit. And what he said
to me was, “We’re going to shoot for a 50 percent improvement in your eye.” So I’m looking at probably
90/20 at the time. This is what my left eye was going
to be.
I’ll jump ahead of everything to my last visit a
month ago. The vision in my left eye to this day is 25
over 20. I can shut my good eye and see almost as well
as I can out of—with my bad eye, the left eye, as I can
with my right eye.

113a
Q. So, in other words, when you first started treating with Dr. Pon, your vision was somewhere, you say,
in the range of 20/90, and it currently is 20/25.
A. It was probably—it was—I was hoping it would
come to 90/20. Probably it was closer to 180. It was so
bad that I couldn’t—I had trouble reading the fourth
line from the bottom on the eye chart.
If you’ve all had eye examinations, you know that
there’s—I don’t know how many lines there are, but
the fourth line from the bottom, not really small. It’s
kind of easily readable. I had trouble with that.
And the last time I went, I read the bottom line
with the exception of maybe one.
***
Q. Did you—did you experience—when you started
with the laser treatment for your macular degeneration, did you recognize or experience any improvement
in your eyesight?
A. Virtually immediately.
Q. Virtually immediately?
A. Yeah.
Q. And that continued during the course of the
treatment with this focal—
A. As I said, my eye was almost unusable, and now
it’s 25/20, so yes.
Q. All right. Now, it looks like this chart—I mean,
there was an interruption because frankly the government came in and took the charts in—somewhere in
2011.
I want to flip back to what seems to be a continuation and partial overlap. That X is mine, by the way,

114a
beside 4/29/11 because I marked one that didn’t belong
in this list.
But, again, we’re seeing then—towards the bottom
we see a number of procedures involving laser. But
down here towards the bottom we see that—I think it’s
October the 18th, as I’m reading it, and this now is in
2013, that there were several times—more than several. There were five times there, extending into 2014,
when Dr. Pon administered Avastin.
Do you recall that?
A. Yes.
Q. And Avastin, we have learned, is administered
by a shot in the eye.
A. Yes.
Q. Tell us about that.
A. It’s unpleasant. I mean, I don’t know of anybody
that likes to get stuck in the eye. I personally don’t
react well to deadening agents. It started back when I
would go to the dentist. He would take four or five Novocain shots to dull the pain.
When I would have these shots in the eye, it took
drop after drop after drop to deaden it, and I could still
feel the pain. And, you know, the doc would say, “You
just feel the pressure.”
And I’d say, “No, I feel the pain.” I mean, I just—he
couldn’t deaden it.
I literally begged him and argued with him to give
me laser treatments after I found out what—that they
weren’t going to create—
Q. Did he—
A.—scar tissue.

115a
Q. Did he explain why he wanted to try this to you
– try this treatment, this alternative treatment, this
Avastin at that time?
A. Oh, he probably did. I mean, he explained everything he did whenever he did it. I don’t really remember. All I know is when he said—as soon as he
said shot, I started shaking. And I’m not trying to be
funny.
Q. That discussion with Dr. Pon continued for a
period of time, did it not—
A. Yeah—
Q.—until—
A.—all the time. Every time I would go and he
says, “We’re going to give you a shot,” I’m ready to go,
get up and leave, unless I see a bottle of bourbon or
something. Now that is trying to be funny, but—
Q. What about the effect of the Avastin? Can you
compare the effect of the Avastin on your eyesight with
the effect that you’ve experienced from the focal laser,
the laser that he has treated that same eye?
A. I personally think there was more success with
the laser. I mean, literally the day after I would get a
laser treatment, I actually saw better, and I cannot
honestly remember a time when it did not improve my
vision.
Q. And did that continue with—every time that
you had that laser throughout the entire—
A. Like I say, I don’t remember a time when it did
not improve it. So the answer would be yes, every time
I had a laser treatment, it improved my vision.
Q. Well, this thing shows—

116a
A. 25/20.
Q. I’m sorry. This chart, at least, seems to cut off
on June the 30th, 2015. Have there been shots—listen
to me, shots. Have there been other laser treatments
since June of ‘15, do you believe?
A. No. The last time I saw him, I tested the 25/20,
and he said, “You don’t need anything. You’re perfect.
You know, as near as you could get. Way better than
what we ever expected.”
And he would always compliment me on doing well,
and quite frankly, I didn’t do well at all. You know, he
did it, you know. And if—if you ever need an eye doctor, a man to work on your eyes, he’s your man.
***
GLORIA MOULTON, DEFENDANT’S WITNESS,
SWORN DIRECT EXAMINATION
***
Q. Okay. So let me ask you about the laser treatment itself. When you were treated—first of all, can
you differentiate—do you have in your mind the difference for when you were treated with the laser for wet
macular degeneration and when you were treated with
the laser for some other—whatever diagnosis you were
dealing with?
A. Right, yes. With the laser for the macular degeneration, I did feel this funny sensation up in my
nose area. And he said that’s common.
Made me feel very comfortable about having it
done. And I was not a bit concerned, only that I
wanted to see better and that was my whole objective.

117a
I have family. I want to see better. I don’t want to
go to blind. I have no intentions of going blind if I can
help it.
Q. Well, a good follow-up to that would be after you
had the laser for the wet macular degeneration, did it
help your eyesight?
A. Definitely. And it has helped me considerably.
Q. Can you give me, like, any examples as far as—
A. I’m not wearing my prescription glasses. I’m
reading with over-the-counter.
Q. That’s a good example.
A. Just the fine print gets to me. But other than
that, I can see pretty good. I can see way back there.
I can see off sides.
Q. With regard to the treatment that you received
for the laser—and I’m specifically talking about the
wet macular degeneration.
A. Okay.
Q. And you’ve already told us that it assisted you
or helped your eyesight. Did you discuss that with Dr.
Pon?
A. Considerably. We did talk about it, because I
was concerned about it. Like I said, my ex-husband
had it. I did not want to be in that—in that category
of never being treated. I wanted whatever treatment
that Dr. Pon felt that was good for me.
What he did with his other patients, that was between him and his other patients. But what he did
with me, we discussed, definitely.
Q. What did you tell him? What did you tell him as
far as whether it helped—

118a
A. He said that this laser treatment should help
my eyes. He was going to keep track of it. And each
time, I could see—as the months went by, I could see a
difference in my eyes.
Q. And you shared that with him?
A. Yes, I did. And I’ve even shared that it’s – at
nighttime, I don’t need my glasses either, so...
***
MAXINE BLAIS, DEFENDANT’S WITNESS,
SWORN DIRECT EXAMINATION
***
Q. All right. Now, before we get into other problems that you may have had that he treated, did you
have any kind of a reaction in your eyesight? Did you
have any improvement in your eyesight as a result of
these initial treatments with the laser?
A. Absolutely.
Q. I mean, was it something that you noticed that
you really and truly could tell?
A. Well, you know if you have a bleed in your eye
because you can’t see. It gets very blurry. And you
know something’s going on. So when he uses the laser
afterwards, that clears up.
Q. And it’s kind of, again, getting ahead of the
story, but has that been consistently true throughout
the time that you treated with Dr. Pon?
A. Absolutely.
Q. That every time he used the laser to treat wet
macular degeneration—
A. Every time he used it, it improved my vision.

119a
***
Q. Okay. Now, again, up until the time that you
had the retinal detachment in January 2010, and, in
fact, right before that, you had some other kind of
treatment January 29th where there may or may not
have been a different laser.
Were you continuing to experience improvement in
your vision as a result of these laser treatments that
Dr. Pon was performing?
A. Yes.
Q. And, Ms. Blais, again, I want to—was this just
kind of some subjective thing that you felt a little better or were you able to see things clearly that you
couldn’t see before?
A. Absolutely.
Q. I mean, like reading newspapers and—
A. It’s like going—one demonstration was this last
bleed that I had, I told him that when I looked at the—
it was in my right eye. When I looked at the TV screen,
I could see the left part of the TV screen was like there
was a curtain. I couldn’t hardly see it at all.
And then he corrected the bleed, and almost immediately when I went home, I could see the full screen
***
DORIS SHOWERS, DEFENDANT’S WITNESS,
SWORN DIRECT EXAMINATION
***
Q. And what was your husband’s name?
A. Harry C. Showers.

120a
Q. And do you know about when he began seeing
Dr. Pon?
A. I believe it was back in ‘08.
Q. Okay. And what was his eye condition at that
time?
A. He mad macular degeneration and very bad
glaucoma.
Q. Okay. Did he have other health problems going
on around that time, too?
A. Yes. He was very ill and in poor health.
Q. Okay. Did you go with him when he went to see
Dr. Pon? Or did he go by himself?
A. Oh, no, I—I would go with him. Sometimes he
would drive. Sometimes I would at that time.
Q. Do you know what kind of treatment that he
had from Dr. Pon?
A. He had laser treatment and also some kind of
drops they use for the glaucoma pressure.
Q. Before he went to see Dr. Pon, what kind of eyesight problems did he have?
A. Pretty much what you would just call failing
eyesight. And he was under heavy medication for the
glaucoma to try to keep the pressure down.
Q. Before he went to Dr. Pon, did he have magnifying glasses that he needed to use for reading at
home?
A. Oh, yes. Uh-huh (affirmative).
Q. Did you keep several of them around, or did he?
A. Yes.

121a
Q. And what did he need the magnifying glasses to
read?
A. To read the TV schedule or his sporting magazines that he liked to read.
Q. And after he had laser treatment for macular
degeneration by Dr. Pon, how did that affect—how did
the laser affect his eyesight? Could he see better, about
the same, or worse?
A. Gradually it—it improved, that—I would see
him pick up the magazine or the schedule and be able
to—to tell what program he wanted to watch.
Q. Without the magnifying glass?
A. Without—he had different strengths of them,
different sizes. And only he knew which one was the
better one.
Q. Okay. So did the laser seem to help his vision?
A. Yes, it did.
Q. And did he have several times that he went to
Dr. Pon for laser treatment?
A. Oh, yes.
Q. Did the laser seem to help every time that he
went?
A. Yes. Uh-huh (affirmative).
***
Q. Did he do laser treatments on both of your eyes?
A. Yes.
Q. And how did—how did they affect your vision?
Did they work?
A. Yes.

122a
Q. Can you give us an example of—of what kind of
a change there was after he did laser treatment on
you?
A. It was like looking at a—at a glass that—a
drinking glass that had film—a film on it from washing it in soap.
And after the treatments, it would—it was kind of
like the fog had disappeared off the glass and it was
like somebody had washed the windows when you
looked at something.
Everything was clearer.
Q. And was that true each of the times that he did
laser treatment on your eyes?
A. It was more of a—of a gradual improvement.
Maybe a little bit each month when you—
Q. Each time—it got better each time he did the
laser?
A. Yeah. Uh-huh (affirmative).
***
Q. Let me ask you about your experience generally
in going to see Dr. Pon. Approximately what time
would you normally arrive? And how long would you
be there?
A. I believe we would have got the 1 o’clock appointment.
Q. And then how long—how long would it be before
you would normally end and leave his office?
A. Oh, sometimes it would be 5:00, 5:30. He took
his time and explained everything as he went.
Q. Did you find him to be thorough?

123a
A. Oh, yes.
Q. And did he answer your questions along the
way, if you had questions?
A. Yes.
Q. Was his waiting room generally pretty full of
other patients?
A. Not what we would call overfull, but a group—I
mean, he did not load his office with patients.
Q. Okay. Were there patients from all over the—
the state or elsewhere?
A. Oh, yes. Uh-huh (affirmative). And someone
would say, I drove up from Key West, or, I drove up
from Marathon, or something like that. And then, I
drove down from Georgia, or someplace like that.
Q. Did most patients seem to have to wait quite a
while before they got in to see Dr. Pon?
A. Oh, yes. Uh-huh (affirmative). Uh-huh (affirmative).
Q. And you and your husband or other patients,
did some of them even take coolers?
A. Oh, yeah.
Q. And why did they take coolers?
A. Well, you were in there for quite some time. And
most of us were elderly. And you just needed some
snacks along the way.
Q. So how does that compare to other doctors
you’ve been to? Do you normally have to wait nearly as
long for other doctors?
A. No.

124a
Q. So why did you keep going to Dr. Pon, you and
your husband?
A. Because we knew he was helping us.
Q. Okay. So it was worth the wait?
A. Oh, absolutely.

125a
APPENDIX D
EXCERPTS FROM THE TRIAL TRANSCRIPT
CONCERNING THE GOVERNMENT’S
REBUTTAL TESTIMONY AND DEFENDANT’S
MOTION FOR SURREBUTTAL
(Dkt. 215)
MR. KIEFER: We want to make an oral motion in
limine with respect to part of what we understand the
government intends to offer in evidence in rebuttal.
Our understanding is that with respect to patient
Jerome Lewis, the government intends to introduce
evidence that Dr. Pon billed Medicare something on
the order of $28,000 for examination of Jerome Lewis’
left eye, which he was legally blind in.
I don’t know what that is in rebuttal to. There was
testimony from Jerome Lewis and Dr. Pon that Dr.
Pon did surgery on both eyes, that he was unable to
save his left eye, that it was legally blind.
I think Jerome Lewis testified that he was still
wanting Dr. Pon to examine his left eye because of—
there was a reference to stem cells, and he was hoping
that at some point Dr. Pon would be successful in being
able to find some way to give him some vision back in
his left eye.
The government cross-examined Dr. Pon about
each patient, including Jerome Lewis. And I don’t
know what the relevance would be—or not just relevance, but how it is rebuttal of any defense case-inchief evidence that Dr. Pon did periodic examinations
of Jerome Lewis’ left eye and billed Medicare for it.
My understanding is—I mean, there’s no evidence
that he treated the left eye or billed Medicare for

126a
treating the left eye. There’s no evidence that he did
fluorescein angiogram or ICG or OCT of the left eye.
My understanding is he did an ultrasound on the left
eye. And that would be appropriate.
If the government is permitted to introduce that evidence, we’re going to ask the court to allow us to put
Dr. Pon back on the stand to testify as to what procedures he did or what tests he did on Jerome Lewis’ eye
and why he did it.
The government could have asked those questions
on cross-examination of Dr. Pon and they did not do so.
And it would create, I think, an improper inference to
the jury if the government is permitted to introduce
that evidence on rebuttal without any opportunity for
Dr. Pon to explain why he did the tests that he did and
what the medical necessity was.
THE COURT: Mr. Devereaux?
MR. DEVEREAUX: If I could just have a moment,
Your Honor.
THE COURT: Certainly.
(Counsel confers with agent.)
MR. DEVEREAUX: Your Honor, it’s the government’s recollection, and from reviewing my notes that
I was taking when Mr. Lewis testified—and to orient
the court, the defense was asking specifically—it was
near the end of his testimony, so on the redirect by Mr.
Kiefer.
And it had to do with whether or not they ever took
photographs of his eye. And he said, Oh, no, because I
– I only put my eye up to the one, like, camera lens.

127a
And I specifically keyed on that. I never had a reason to know that to cross-examine Dr. Pon on that issue.
And so the defense has put Mr. Lewis on the stand
in connection—he was being treated, he did have wet
macular degeneration in one eye. The indictment ends
up talking about the fact that he’s billing for both eyes
on this.
And he had—Mr. Lewis, unfortunately, had been
blind since approximately 1994. It was April of ‘94
that he had unfortunately lost his eyesight in that eye.
And we ended up having the fact that there was
great testimony from Mr. Lewis. It was emotional testimony of a young man, and that they couldn’t save his
eye, that Dr. Pon had—on the left eye, surgery for ten
hours, and that he was semiconscious during the surgery, and he was trying to reattach the left eye retina
with stitches.
The surgery was not successful and he lost complete vision on the left eye in August of ‘94. And then
the—he talked about surgery on the right eye.
The government’s evidence is that since—from
2004 through 2015, Dr. Pon has continued to bill for
treatments on the blind eye, specifically the left eye, to
include fluorescein angiograms, fundus photography,
the pictures.
And these are the ones that would be specifically
contrary to that, that Mr. Allen had testified—and I’m
not saying—or Mr. Lewis. I apologize.
I’m not saying that Mr. Lewis testified falsely or
made any kind of false statement. The evidence that
we have is that Dr. Pon billed under the beneficiary
number for Mr. Jerome Lewis. And he ended up—for

128a
fluorescein angiograms, for cornea work, et cetera, two
pages of billings for that.
And we believe it is relevant based upon the fact
that this is the conduct that the defendant is on trial
for, and that is billing for services not rendered in connection with the patient that he is treating for wet
macular degeneration.
And the United States feels strongly—the defense
is the one that brought this out. It was extremely emotional testimony, both from—I think Mr. Lewis—and
then their last witness, the widow, when she testified
about her husband’s, you know, extreme difficulties,
we’ll have rebuttal on that as well.
But just on Mr. Lewis, the evidence that the government would be putting on is that he billed for an
eye that would never need any testing, because it was
basically, unfortunately, dead.
THE COURT: In rebuttal of what evidence offered
by the defense?
MR. DEVEREAUX: The defense offered the testimony of Mr. Lewis. And Mr. Lewis said they did not
take any – do anything to my left eye, and—to include
the pictures.
Because I remember specifically saying—I watched
him where he said he only put his eye up to the one.
THE COURT: No. I do recall that particular testimony as well.
MR. DEVEREAUX: Yes, sir. And that’s why the
government—we didn’t have that until yesterday.
And we worked on it last night. And I provided it—the
spreadsheet to Mr. Kiefer this morning before our
lunch hour.

129a
THE COURT: All right.
Devereaux.

Thank you, Mr.

I’m going to overrule the motion in limine and deny
the request for placing Dr. Pon back on the stand, in
connection with that particular issue.
MR. KIEFER: All right. Well, Judge, I guess my—
the issue I think we have is, the government could
have cross-examined Dr. Pon about Jerome Lewis. He
testified about Jerome Lewis. And they didn’t do so.
And I don’t think they are permitted to wait until
rebuttal, and then we don’t have an opportunity to put
Dr. Pon on the stand to explain why he did the tests
that they never asked him about on cross-examination. That puts us at a tremendous prejudice.
THE COURT: Well, based upon your decision to
ask Mr. Lewis questions that Dr. Pon had not been
asked about—I think you introduced the issue of his
treatment to his left eye. So I don’t know that you—it
is their rebuttal.
And there are rare occasions in which surrebuttal
is permitted. I’ll consider – I’ll consider it. But at this
juncture, my decision is to not permit—to not preclude
the testimony, certainly, and to preclude any surrebuttal, is basically what you’re asking for—
MR. KIEFER: Yes.
THE COURT:—from Dr. Pon.
(Counsel confer.)
MR. KIEFER: I understand, Your Honor.
THE COURT: All right. Thank you.
Mr. Devereaux, are you ready to proceed?
***

130a
SPECIAL AGENT CHRISTIAN TANNER JURS,
GOVERNMENT’S WITNESS,
SWORN DIRECT EXAMINATION
BY MR. DEVEREAUX:
Q. Agent Jurs, I’m going to place two documents in
front of you. The first is Government’s Exhibit No.
806. The next is 807. Directing your attention to both
of those exhibits, can you identify those exhibits?
A. Yes.
Q. First 806. Can you tell me what that is?
A. 806 is a Department of Labor certification that
was filled out related to Mr. Jerome Lewis and signed
by Dr. Pon on or about July 26th, 2007.
Q. And did you obtain this during the execution of
the federal search warrant on Dr. Pon’s offices 15 September 2011?
A. Yes.
Q. Directing your attention to Government’s Exhibit 807, did you create that document?
A. Yes. This is a spreadsheet of claims from – from
Medicare that were filed by Dr. Pon under—for Mr.
Jerome Lewis, related to services in his left eye—
Q. All right.
A.—spanning the time frame 2004 through 2015.
Q. Based on the fact that this time frame for the
government’s presentation is rebuttal, this is specifically in connection with the third patient called yesterday by the defense, Thursday morning—that would be
yesterday morning—a soft-spoken individual that is
living in West Palm Beach, a Mr. Jerome Lewis, that

131a
unfortunately had lost sight in his eye—one of his eyes
completely, and has wet macular degeneration as well.
Do you recall his testimony?
A. Yes.
Q. Do you recall what eye he lost his testimony –
his testimony, his—which eye he lost his sight in?
A. He lost his sight in his left eye as a result of an
operation that didn’t work in 1994, I believe.
Q. And at that—that operation, is that the one he
talked—talked about, said—took until about—it was a
total of a ten-hour surgery in that left eye, and unfortunately it was unsuccessful and he lost complete vision in that eye?
A. That’s correct.
Q. And, again, what year was that?
A. I believe it was 1994.
MR. DEVEREAUX: Okay. At this time, Your
Honor, the United States would offer what has been
identified by the witness as Government’s Exhibit No.
806.
MR. KIEFER: Just offering 806, we have no objection.
THE COURT: That will be marked and admitted.
(Government’s Exhibit No. 806 was received into
evidence.)
BY MR. DEVEREAUX: Q. Would it be fair to say
that Government’s 806 is a document that was submitted to the Department of Labor on behalf of Jerome
Lewis? And it does specifically mention the fact that
he was blind in his left eye, correct?

132a
A. Yes.
Q. And this was signed by Dr. Pon?
A. Yes.
Q. And submitted to the United States Department of Labor?
A. Apparently so.
***
Q. The document that is marked as Government’s
Exhibit No. 807, can you attest to the accuracy of the
information on that document?
A. Yes.
Q. How can you do that?
A. Because as—these are Medicare claims. They
came directly from—from Medicare, and appear—they
have all of the information that are consistent with the
claims for the same individual, on time frames before,
time frames after.
The diagnoses are consistent—and always—they
seem consistent with all the other claims that I obtained at the same time from the Medicare records.
Q. After Mr. Jerome Lewis testified yesterday—
or, in fact, during his testimony, were you able to access Medicare’s records?
A. I had—I was accessing a claims history from
Medicare that I had previously downloaded and had
on one of my computers.
Q. And last night, after the trial had ended for the
evening, did you, in fact, prepare a spreadsheet regarding certain billings by Dr. Pon regarding Mr. Jerome Lewis?

133a
A. Yes.
Q. And did you confine your search and what appears on Government’s Exhibit 807 to a specific parameter of information?
A. Yes. In every claim that’s filed with the Medicare system, there’s an opportunity for the provider to
put on modifiers. And the modifiers can be a wide variety of different things.
In ophthalmology, it’s very common to use modifiers for either—either LT or RT, so left or right, to give
specificity as to which eye the service is being rendered
onto.
In this case I only took services related to Mr.
Lewis for his—that were rendered to his left eye, the
blind eye.
Q. And would it be fair to say that—you indicated
that he testified that he was blind in his left eye since
‘94, 1994?
A. That’s correct.
Q. So would it be fair that you jumped to 2004 to
see if there were any bills submitted by Dr. Pon for
treating that blind eye?
A. That’s correct. I—or that that’s just when the
claim history had cut off. I don’t a hundred percent
know why I have only from 2004.
When you download spreadsheets from the Medicare system, or request spreadsheets, they don’t go
back, you know, to when the earth cooled. They usually go and get a five-or ten-year time frame.
MR. DEVEREAUX: At this time, Your Honor, the
United States would offer Government’s Exhibit No.

134a
807, claims being submitted by Dr. Pon, regarding
treatment to the left eye of Jerome Lewis.
***
Q. All right. Now, we have a number of—you don’t
say specifically what these are. But if we just go
here—so we know all of them are left, correct?
A. Yes, sir.
Q. And then we have the CPT code 76512. What
are those two?
A. That’s an ophthalmic ultrasound, also generally
referred to as a B-scan.
Q. All right. And then we have 92235?
A. That is a fluorescein angiogram.
Q. And that’s like the fluorescein angiograms we—
angiograms we’ve seen here?
A. Yes.
Q. How about 76512?
A. That’s also ophthalmic ultrasound.
Q. Jump down to 92—92250.
A. Fundus photography.
Q. That’s like what I’ve been calling the moon, the
big moon?
A. The big orange moon pictures that we’ve seen a
whole lot of.
Q. And we keep going down. We have the 76512?
A. Yes. The majority of the spreadsheet is made
up of 76512, sir.
Q. And those are the ultrasounds?

135a
A. Yes, sir.
Q. And then, again, above that, 92235, that’s the
fluorescein angiogram?
A. That’s right.
Q. So throughout these we end up having, like—
being billed on various days, between $351, the lowest
$140, then we have up to $1200. What’s the $1200
one?
A. Those three codes, the 65400, 65436, and 65450,
are related to some manner of surgery and cryotherapy—the cornea that was done on—apparently all on
July 14, 2009.
Q. And this continues on to the next page with similar codes, correct?
A. That’s correct.
Q. And you have some excision of the corneal lesion, correct?
A. Correct.
Q. Some removal of the corneal epithelium?
A. Correct.
Q. And others are destruction of—or lesion of cornea by cryotherapy?
A. Or photocoagulation or thermocoagulation, I believe it is.
Q. And if we go down to the bottom—if we were to
add all these up, approximately, what do we get?
A. Approximately 19-and-a-half thousand dollars.

136a
Q. And that was all billed by Dr. Pon between—not
2004—ten years after Mr. Lewis is unfortunately
blinded in his left eye?
A. That’s correct. And I reviewed Mr. Lewis’ file
as well. And under the left eye for—you know, over a
long period of time, it just usually either has a line
through it to delineate nothing or NLP, for no late perception.
So he was consistently, according to Dr. Pon’s own
records, completely blind in this eye during this entire
period.
Q. As recently as June 5th of this year?
A. Yes, sir.
Q. And we look down—it’s ‘04, ‘05, ‘06—the only
time—we’re missing ‘07s, correct?
A. That’s correct.
Q. Then we have ‘08, ‘09, ‘10, ‘11, ‘12, ‘13, 2014, and
2015. He billed numerous times, correct?
A. Yes.
***
MR. DEVEREAUX: Thank you very much. No further questions.
MR. KIEFER: May I have a few minutes, Judge?
THE COURT: Yes, sir.
(Counsel confers with defendant.)
MR. KIEFER: Judge, may we come to the bench?
THE COURT: You may.
(Sidebar conference.)

137a
MR. KIEFER: Judge, I would request a recess before cross for the purpose of looking at the billing records on Jerome Lewis that Agent Jurs said he had on
his computer for the right eye.
I would like to know whether or not on the same
dates that are covered on—whatever the government
exhibit is, that spreadsheet, if there were billings on
the—on the right eye, but on the left eye.
I think that’s relevant to my cross. And I—these
have not been produced before. I understand he just
did that. I’m not objecting to the lateness of it.
THE COURT: I understand.
MR. KIEFER: I don't think it—I don’t think it will
take but five or ten minutes, would be my guess. But
if I could have a brief recess for us to look at it, I’d appreciate it.
MR. DEVEREAUX: We can make it happen, sir.
THE COURT: Yeah. I’m just wondering where
we—where we're going after this. How long is your
cross?
MR. KIEFER: Oh, very brief.
THE COURT: Okay. It’s going to be brief?
MR. KIEFER: Yeah.
THE COURT: Do you have anything further?
MR. DEVEREAUX: No. I’m not going to—I don’t
think I’ll redirect.
THE COURT: I still have under advisement the
motion for surrebuttal. And is it—you’re objecting to
surrebuttal, Dr. Pon being given an opportunity to explain this?

138a
MR. DEVEREAUX: I am.
THE COURT: I’m thinking through the presentation of evidence. Dr. Pon testified first; is that right—
well, before—
MR. KIEFER: For the defense, yes.
THE COURT: And before Mr.—what’s his name?
MR. DEVEREAUX: Jerome Lewis, yes.
MR. KIEFER: Jerome Lewis.
THE COURT: So it was on your cross-examination,
was it not, that the issue of the left eye not being
treated came out?
MR. DEVEREAUX: No. It was—it had to do with—
it was the redirect by Mr. Kiefer. And that’s when—
well, that’s when he talked about looking at the eye—
that it was only his left eye. That’s when we got pinged
on that.
THE COURT: I remember him saying that he only
looked at his left eye. But my recollection was that it
was in response to a question that you put to him.
MR. DEVEREAUX: No, it wasn’t. Because I have
it written down. I can’t do it twice. I can’t be asking it
and taking notes.
MR. KIEFER: I know that I asked him on redirect,
but I would have only asked on redirect based on something that was asked on cross. I don’t remember right
now what it was.
MR. HEAVENER: Mr. Kiefer asked the question on
redirect whether they looked in both eyes. And Mr.
Lewis testified that they only put the camera on his—
I guess it was his right eye, the good eye. He was
very—

139a
THE COURT: Well, I guess the—the point I’m—the
issue that I’m struggling—this is the first time that I
think Dr. Pon has heard this testimony; would you
agree?
MR. DEVEREAUX: From Agent Jurs?
THE COURT: Correct.
MR. DEVEREAUX: Yes.
THE COURT: And you don't believe he should have
a right to address it—
MR. DEVEREAUX: No, sir. It’s rebuttal.
THE COURT: —because it’s rebuttal?
MR. DEVEREAUX: It’s rebuttal. But they decided
to put their case on—I have to say it’s—usually the defendant goes on last.
But they decided how they wanted to put their case
on. I had no idea—they gave us a list of 60 people they
were going to call, although some of them were—and
they did call Doris Showers. But they gave us 60 people. And it was even longer than the government's exhibit list.
THE COURT: Okay. I’m going to take a brief recess to allow you to look at the exhibit. And as soon as
you’re done, let us know.
***
MR. DEVEREAUX: Nothing further. The United
States rests its rebuttal case, sir.
MR. KIEFER: May we approach, Judge?
(Sidebar conference.)

140a
MR. KIEFER: We looked—we did determine that—
with two exceptions, there were billings for both eyes
for Jerome Lewis.
We’d request permission at this point, as we have
earlier, to present a very limited surrebuttal for the
purpose of calling Dr. Pon, to explain why, in his opinion—why he did the tests that he did on the left eye,
and why, even though he was—Jerome Lewis was
blind in the left eye, what—what his medical necessity
was, and justification for doing those tests. I think
that is a ten-minute, probably, surrebuttal.
But right now the government has created an impression that there was no medical necessity and improper to bill for it because he was blind. And Dr. Pon
disagrees with that. There’s been no opportunity for
him to respond to questions on that issue.
THE COURT: Mr. Devereaux?
MR. DEVEREAUX: The United States opposes any
kind of surrebuttal. The defense elected to put these
witnesses on in the fashion that they did.
It was the defense that elicited the specific testimony regarding the left eye, which caused me then to
look into that over the evening hours. And that should
not give the defense an opportunity to come up with
some rebuttal—surrebuttal opportunity.
MR. KIEFER: Judge, this issue of billing Medicare
for services performed on the left eye came up for the
first time in the government’s rebuttal. And we’ve had
no opportunity to respond to that.
MR. DEVEREAUX: The rebuttal was rebutting the
defense’s contention that was left with us—with the
jury that he only billed on the right eye, and—when,
in fact, he billed on the left eye.

141a
So it was the defense’s position, their testimony,
their witness that brought it up, not—not that they
first heard it from—from this rebuttal.
MR. KIEFER: Judge, I don’t believe we had any
testimony in our case about whether or not Dr. Pon
ever billed for the left eye.
THE COURT: Except to the extent that Mr.—
what’s his name again?
MR. DEVEREAUX: Lewis.
THE COURT:—Lewis was presented first in your
case.
MR. DEVEREAUX: And, also—
MR. KIEFER: He—he—yeah. Well, he—he—there
was nothing about the billing.
MR. DEVEREAUX: Well, no.
MR. KIEFER: There was—may I finish?
MR. DEVEREAUX: If I can interject, the defense—
the defense brought up—very, very passionately to try
to prove that the doctor is doing all this work for free,
and brought in the fact that he never billed for the services because Mr. Lewis was not in a position to do
that, and he didn’t bill him at all for it.
MR. KIEFER: That’s not—no. That was for the—
Judge, that was for the surgery that he performed in
1994. It had nothing to do with the time period covered by the government’s evidence, which is 2004
through, I think, ‘12.
THE COURT: Okay. I’m going to need to look at
the testimony. I can’t recall the exact chronology.
And, in fairness, I think I need to be certain about the
necessity of the rebuttal.

142a
And then there’s the further question of whether,
in deference to Mr.—or Dr. Pon’s Sixth Amendment
right—and this is—it’s very damning evidence—
whether or not it should be—at least from the court’s
perspective, he should be given an opportunity to offer
an explanation at that point.
I’m going to give you-all an opportunity to research
the question over the weekend. And I will make a decision and announce it on Monday morning as to
whether Dr. Pon will be permitted to testify at all.
My inclination is to deny the request, but I am still
tug—having this idea of fairness tug at me. And I just
need to make sure my decision comports with the law.
I’ll be looking for some argument on it—
MR. DEVEREAUX: Monday.
THE COURT:—on Monday morning, to start with
that. That may push our schedule back a little bit. But
I think it’s an important-enough issue we should do
that—
MR. KIEFER: Judge, if you—
THE COURT:—consider it.
MR. KIEFER: If you deny our request, we will request leave out of the presence of the jury to put Dr.
Pon on the witness stand—
THE COURT: For a proffer?
MR. KIEFER:—to make a proffer, because I can’t
possibly summarize it myself.
THE COURT: That’s understandable.

143a
APPENDIX E
EXCERPTS FROM THE TRIAL TRANSCRIPT
CONCERNING DISTRICT COURT’S RULING
ON DEFENDANT’S MOTION FOR SURREBUTTAL, DEFENDANT’S PROFFER, AND DEFENDANT’S LIMITED SURREBUTTAL TESTIMONY
(Dkt. 234)
THE COURT: All right. I’ll take a moment to look
at Pantone a little more closely. The fact that it involves a defendant’s testimony, I think, probably injects some additional considerations that are not before the Court.
And the pivotal issue, as I understand it, is whether
or not new evidence has been introduced by the—one
of the parties that, in fairness, should be permitted to
be addressed, essentially.
I am familiar with the Haimowitz case and had located it, along with the Sadler case, which raises the
other issue as to whether or not, by failing to object to
object to a cross-examination that touched on issues
outside of the direct, you’ve waived your right in that
regard.
But surprisingly to me, Mr. Willis, your comment
this morning that you had an opportunity to look at
the record and that you’d come to a conclusion about
the case, the conclusion being that there had not been
any evidence introduced by the defense, was surprising to me. I thought you were about to concede that
Exhibit 193 directly places into evidence the treatment
of Mr. Lewis.
And you all need to correct me about my recollection of the record if it’s wrong. In the government’s

144a
case in chief, Mr. Lewis was not a party named in the
indictment, was he?
MR. DEVEREAUX: No, sir.
THE COURT: I thought that was the case.
Nor was there any evidence offered by the government with respect to Mr. Lewis’s treatment.
MR. DEVEREAUX: No, sir.
THE COURT: So Mr. Lewis, as a witness and anything he had to say, was first introduced by the defense. His testimony regarding his treatment and a
record regarding his treatment of his left eye is first
introduced by the defense.
So I don’t agree with your characterization of the
record that somehow this issue of the treatment of his
left eye is the responsibility or should be attributable
to the government.
That being the case—and what further testimony
was elicited on cross-examination that went to the
treatment of his left eye was not objected to by the defense. So to the extent that you want to argue that the
government brought that issue into the case, despite
the fact that Mr. Lewis was first offered by the defense, his records of treatment were first offered by the
defense, I think, could fairly be found as a complaint
that has been waived.
And then on redirect of Mr. Lewis, Mr. Kiefer further explored the left eye issue, to the point that the
testimony that stood out most in my mind was Mr.
Lewis’s direct testimony with regard to how it was he
had concluded that only his right eye had been treated,
that he actually had to look through an instrument
that Dr. Pon had. That was brought out by Mr. Kiefer.

145a
So I don’t—I’m not prepared to accept your characterization of who’s first responsible for the introduction of evidence. I’m not prepared to find that it is a
new issue that now requires the production of surrebuttal evidence.
So your motion for a mistrial will be denied, and I
do believe that it’s proper for the record to be protected
for you to offer on proffer what Dr. Pon would have to
say in surrebuttal, so that will be permitted.
Are you ready to do that now?
***
DR. DAVID MING PON, DEFENDANT’S WITNESS,
SWORN PROFFER
BY MR. WILLIS:
Q. Dr. Pon, you’ve been present in the courtroom,
so of course you know we’re discussing the matter of
your treatment of Jerome Lewis, correct?
A. Yes.
Q. The government is—I’m not sure we made it
clear. I want to make clear. You first treated Mr. Jerome Lewis back in ‘94/’95 when you did surgery on
him. Is that correct?
A. Yes. To the best of my recollection, yes.
Q. And you did surgery on one eye and then came
back and did surgery on the other eye.
A. Correct.
Q. And did you get paid for doing that?
A. No.
Q. All right. Have you ever been paid for doing
that?

146a
A. No. As far as I can recollect, no.
Q. All right. Now, the government offered into evidence the other day Exhibit No. 807, which purports
to be a readout from the Medicare people.
COURTROOM DEPUTY: Press the green button.
BY MR. WILLIS:
Q. This is Government’s 807. Do you recall that
exhibit?
A. Yes.
Q. And that—if I recall correctly, I understood that
to be a printout of Jerome Lewis’s billing for anything
to do with his left eye.
Do you remember that?
A. Yes.
Q. And that column that we’re looking at, just for
openers, that billing amount that is there that I think
counsel totaled up to be 19-and-a-half million dollars MR. DEVEREAUX: No, thousand.
MR. KIEFER: Thousand.
MR. WILLIS: I’m sorry. What did I say, million?
MR. DEVEREAUX: Yeah.
MR. WILLIS: Yeah, it wasn’t quite that.
BY MR. WILLIS:
Q. It was 19-and-a-half thousand dollars. That
was the amount you billed. How much do you actually
get paid as opposed to how much you bill?
A. A small fraction of that, usually.

147a
Q. Okay. We don’t have a column for that anywhere, do we?
A. No. It’s usually a very small fraction of that,
maybe—
Q. And to look at the period of time that’s covered
by this, it starts April the 16th, 2004. Is that the first
time that you got any payment from—for billing to
Medicare?
A. I don’t know when—the first time I received
payment from Medicare.
Q. Okay. Do you do your own billing, Doctor, by
the way?
A. My office does. I don’t personally do it.
Q. You don’t do any of that, do you?
A. No.
Q. All right. If you can, the spreadsheet that’s proffered and that totals 19-and-a-half thousand dollars
billed, that began in April of 2004, continues down to
the bottom of the page to 2010 and carries over to the
following page of a date all the way into and including
June of 2015, right?
A. Yes.
Q. So that’s a span of somewhere—roughly speaking, somewhere around, what, 11 years that it covers?
A. Yes, approximately.
Q. Now, examining that document, 807, it would
appear that the majority of that—that billing, at least
by numbers, has to do with code 76512. Is that true?
A. Yes. I believe so. I can’t see it right here on the
screen.

148a
Q. All right. Let me move it over here so that—
A. Yes.
Q. Okay. And you see that over and over. That’s
every few months. Sometimes it varies. I think that’s
from April to August, and then from August of ‘04 to
February of ‘05. Not again until—I’m sorry.
From April to August and then from August to July
of the following year and then again in August of the
following year, 2005, but then not again till November
of 2005 and so on.
A. Yes.
Q. What is that billing code, sir?
A. That’s for what they call a B-scan ultrasound.
Q. An ultrasound?
A. Yes.
Q. Explain to us, if you would, what an ultrasound
is and why you would employ it in somebody like this
gentleman.
A. Ultrasound is a device to—using sound waves,
to determine—to look for different areas of—different
things that may be abnormal in the eye. And in his
particular case, it’s—it’s very useful in cases where
you cannot see very clearly the back of the eye.
So it could determine or it can help you identify areas of the retina that are—or of the sclera or the choroid that are abnormal.
Q. All right. And what would have prompted your
concern that you would examine both this eye and perhaps the right eye as well of this gentleman, starting
in 2004, using an ultrasound?

149a
A. Well, in his case it’s very important to examine
his left eye and continue to examine his left eye because there’s a condition called sympathetic ophthalmia which, if untreated, can lead to complete and total—it can relentlessly progress and lead to complete
and total blindness in both eyes.
And the inciting factor is thought to be the eye that
has been injured or damaged somehow, in some way.
And the theory or the thought is that—the current
thought is that the body creates some type of immunological or autoimmune reaction to the eye or the proteins or something in the eye, and it attacks both eyes.
And as a result you can go completely blind in both
eyes.
So in his particular case, it is—he’s a very complicated patient, and he only has one good seeing eye. So
the problem in his particular case is he has—he had
intermittent episodes of inflammation that we were—
that was coming up in his examination of his right eye
with what we call uveitis, which is an inflammation.
And then—that is a clue that that could be developing. So the only way to know for sure is to see if – I
mean, a B-scan is a way to know or at least a way to
find out more information about the other eye, to see if
something is going on there and causing the—which
may lead to sympathetic ophthalmia in the right eye.
You may remember a gentleman named Braille,
who invented Braille. Louis Braille, I believe, his
name was. He had injury to one eye when he was a
child, and then unfortunately he developed this condition called sympathetic ophthalmia, which we believe
it was sympathetic ophthalmia, and he went blind in
both eyes. The eye that wasn’t injured, he went

150a
completely blind, and then he went on to develop
Braille for blind people. So this—
Q. This left eye that we’re talking about, Dr. Pon,
his left eye, it’s been described by counsel as dead.
Was this eye dead?
A. No. This eye is never dead. It’s just like a—that
was never dead. It has a blood supply, and it’s a normal eye and it’s—a normal eye in that it receives a
blood supply and it’s still there. It hasn’t been removed.
So it could get infection. It could have hemorrhage.
It could get inflammation. There could be a corneal
perforation. There could be a number of different
things going on in this left eye.
So those things are things that could lead to problems in that eye itself, but more importantly is the concern that it would lead to problems in the right eye,
the remaining good right eye.
And he only had that one good remaining right eye,
so it’s really important to take every precaution to find
out—I mean, to discover, at the earliest possible opportunity, whether or not there is some inciting factor or
something going on in the left eye that may precipitate
the sympathetic ophthalmia and then lead to complete
loss of vision in both eyes. So the earlier you catch
that, the better.
So periodically you need to have examinations of
the left eye, diagnostic examinations of the left eye, to
make sure that’s not going to be the case.
Q. Okay. Now, Doctor, this sympathetic ophthalmia, does the idea that one eye can develop a condition
and then, in fact, attack the other eye, it would spread

151a
to the other eye or induce disease in the other eye, is
that oversimplification or is that a fair statement?
A. I guess that would be a fair statement. It’s a lay
way to say it, but it’s a fair statement.
Q. All right. Doctor, is that a recognized condition?
A. Yes.
MR. WILLIS: Your Honor, may I—
THE WITNESS: Absolutely.
MR. WILLIS: Your Honor, may I approach the witness?
THE COURT: You may.
BY MR. WILLIS:
Q. Dr. Pon, I’m putting before you the entire volume, whereas I have selected excerpts that we would
intend to offer in evidence.
There are two volumes that we have before you, one
of which is Exhibit 220 and the other of which, as I
recall, is Exhibit 221. And Exhibit 220, what is that,
sir?
A. I’m not sure which one you’re referring to.
Q. The full volume, the Wills Eye Manual.
A. Yes. The Wills Eye Manual, yes.
Q. Do you have that before you?
A. Yes.
Q. If you would, Doctor, turn in that manual—I
think you’ve got it marked—to page 392. Chapter 12,
392—
A. Okay.

152a
Q.—all right?
And explain to us, if you will—read that to us, that
first—the symptoms and the signs and so on, and then
explain what that’s telling us.
A. You want me to read the entire thing?
Q. Sure.
A. Okay. “Sympathetic ophthalmia.” This is page
192, Chapter 12: “Symptoms: bilateral eye pain, photophobia, decreased vision, near vision is often affected
before distance vision, red eye, a history of penetrating
trauma or intraocular surgery, most commonly vitreoretinal surgery.”
Q. Let me stop you there. Is that word which I’m
having trouble pronouncing, vitreoretinal surgery, is
that what you did on this man?
A. Yes. Specifically, I performed vitreoretinal surgery on his left eye.
Q. So that is, in fact, a risk factor for the development of this condition.
A. Yes. Apparently, it’s the most common surgery
that causes sympathetic ophthalmia.
Q. All right. Continue on.
A. So “ … most commonly vitreoretinal surgery to
one eye, usually four to eight weeks before but the
range is between”—I mean, I’m sorry, “the range is
from five days to 66 years, with 90 percent occurring
within one year may be elicited.”
Q. So in other words, this condition can develop as
long as—apparently has been demonstrated as long as
66 years after this vitreoretinal surgery.

153a
A. Yes. It’s—it can develop many, many years
later. And like in Louis Braille’s case, it had happened
several years, I believe, after he had his initial injury,
and unfortunately he went blind as a result of it.
So you need to be vigilant, always vigilant, in a patient with one eye who has had some type of an issue
in the other eye, that this could develop and cause
blindness in the one remaining good eye. I mean,
they’ll go completely blind if you do not catch this early
enough.
And then here—do you want me to go on with
signs?
Q. Go ahead.
A. Under “Signs: Critical: Suspect any inflammation in the uninvolved eye after unilateral ocular
trauma. Bilateral severe anterior chamber reaction
with large mutton-fat KP may be”—I’m sorry—“may
have asymmetric involvement, with typically more reaction in the sympathetic eye.
“Posterior segment findings include small deepening of nodules at the level of the retinal pigment epithelium (Dalen-Fuchs nodules) and thickening of the
uveal tract. Signs of injury or surgery in one eye are
usually present.”
Q. Doctor, let me stop you there.
Each of these eyes, each of these eyes, you had performed vitreoretinal surgery on, correct?
A. Correct.
Q. So you had to be concerned with each of these
eyes and something developing in each of these eyes
that would affect the other. Is that the idea?

154a
A. Yeah. Of course, you’ve got to be concerned that
either one of these eyes could demonstrate signs of
this, I mean, condition.
Q. Do you think that’s good medicine, to check that
periodically?
A. Of course. It’s—you have to check for it, especially in a case like him because you only have one remaining good eye. You need to be always vigilant.
It could occur 66 years later. It’s been documented
as long as 66 years later. So periodic checks of the left
eye are, I would say, considered mandatory if you’re
going to be watching carefully because he already has
had—he already has had signs of inflammation in the
other eye, in the good eye, in the good eye.
And like it says right here, “Suspect”—in the first
line—sentence it says, “Suspect any inflammation in
the uninvolved eye after unilateral ocular trauma.”
So you consider the left eye having a detachment
and all these other things, consider it—you consider
that as an inciting factor and, in particular, the vitreoretinal surgery.
Vitreoretinal surgery apparently is the most common cause or precipitating type of surgery for sympathetic ophthalmia.
Q. All right. Let’s move on to the second code that
we need to be concerned with, second and third really,
the 92235, which occurs much less frequently but does
occur. It looks like it was billed in November of 2005,
if I’m reading it correctly, for the first time, unless I’m
missing one—I’m sorry. Billed originally in February
of 2005 and then in November of 2005, and apparently
in concert with 92250, which is the fundus photography. Is that your understanding as well?

155a
A. Yeah, but the fundus photography is usually not
bilateral; it’s unilateral, so they usually don’t have a
left or right. It’s just one code for that, so it should not
actually have a left or right because it’s just—it’s the
same code for both.
Q. So you don’t—
A. So if you do one eye, it’s the same as both eyes
or whatever, so I don’t believe it has a left or right modifier for that one.
Q. All right. What about the—what about 92235,
the fluorescein angiogram?
A. Yeah. Well, that’s a very useful test to help diagnose sympathetic ophthalmia.
You see under
workup on page 393, of the Wills Eye Manual—
Q. Right.
A.—you see on the workup for sympathetic ophthalmia, item No. 5, it says IVFA, which stands for
intravenous fluorescein angiogram, or B-scan ultrasound, US—it says US but it means ultrasound—or
both to help confirm the diagnosis under the Wills Eye
Manual.
Q. So that is a—so the combination of those two is
something that is recommended by the Wills Eye Manual.
A. That is correct.
Q. Doctor, then we move—and, again, those show
up somewhat irregularly but two or three times at
least. But the biggest item, I suppose, on the page is
right in the middle, January the 14th, 2009. Do you
see that?
A. I’m sorry. It’s off the screen. I can’t see it.

156a
Q. Oh, can you—let me see if I can find it for you.
It’s January the 14th, 2009.
A. Yes, I see it.
Q. We’ve got code 65400, $919; 65436, $1200; and
65450, $790. Do you see that?
A. Yes.
Q. Again, that’s what you billed. That’s not what
you get paid, correct?
A. That’s correct.
Q. All right. Now, Doctor, what—those are surgical—those are surgical types of coding, are they not?
A. Yes.
Q. Doctor, are you trying to tell us that you found
some medical necessity to perform surgery on the left
eye of a blind man? Is that the idea?
A. No, sir. That’s absolutely incorrect.
Q. What is correct, Doctor?
A. This surgery was performed on the right eye, if
you’ll check the records. This was performed at the
hospital, and it was performed on the right eye.
MR. WILLIS: A moment, Your Honor?
Pardon me. You caught me unawares, but I wanted
to go farther on the proffer. And it’s right here, just
where it’s always been.
Your Honor, may I approach the witness?
THE COURT: You may.
BY MR. WILLIS:

157a
Q. Dr. Pon, I’m going to show you something that’s
been marked as Defendant’s Exhibit 219 and ask you
if you recognize that.
A. Yes.
Q. Tell the Court what that is, sir.
A. This appears to be a Bates-stamped operative
report from Florida Hospital, it looks like, on Jerome
Lewis.
Q. On Jerome Lewis.
And the date of that—that’s an operative report/procedure, and the date on that is January the
14th, 2009?
A. Yes. That is correct.
Q. And at the bottom of that page, Dr. Pon, does
that help us in understanding where we got this document?
A. Well, it has a Bates stamp on it. It says—
Q. From the government.
A. Box 104—
Q. From the government?
A. Yes. It apparently is from the government, yes.
Q. Dr. Pon, looking down that document under the
section on preoperative diagnosis, item 4, does that
read, “Corneal neovascularization inferiorly in the
right eye”?
A. Yes. That’s what it reads.
Q. And the postoperative diagnosis, item 4 is exactly the same.
A. Yes.

158a
Q. Second page, top of the one, two, three, fourth
paragraph when you’re describing what surgery was
performed, does that read, “The patient’s right eye was
then sterilely prepped and draped”?
A. That’s correct.
Q. Two pages over, the kind of a sheet of information on the patient himself and things of that sort,
but all the way down to the bottom, do we have your
somewhat unmistakable handwriting beside D/C?
What’s D/C mean? What’s that for?
A. I don’t see where that is.
Q. You don’t see it right in the left-hand column
right below the word “nonsmoker”?
A. Oh, that’s OD, right eye. Oculus dexter, right
eye. That’s the abbreviation for it.
Q. And the final document in this grouping, again,
two pages over, history at the top, physical exam at the
top, other information as you go down the page, and at
the bottom something that says impression in the
right margin?
A. Yes.
Q. Left margin, rather.
A. Yes.
Q. And finally and once again, does that say OD,
right eye?
A. It says OD and then it says right eye right after
that.
Q. All right. Once again, Doctor, did you do surgery on the left eye on Jerome Lewis on the date of
January the 14th, 2009?

159a
A. No, I did not.
Q. Did you do surgery on the right eye of Jerome
Lewis on that date?
A. Yes.
Q. And the documents which demonstrate that
conclusively we received from the government.
A. Yes.
MR. WILLIS: That’s all we have.
***
THE COURT: Very good. Any further argument?
MR. DEVEREAUX: The argument from the United
States, Your Honor, is the fluorescein angiograms—I
mean, this witness—no question, he’s saying he did
fluorescein angiograms on the person’s left eye when
the witness that was called, Mr. Lewis, said he specifically recalled no. And that was to Mr. Kiefer’s own
questions.
Mr. Kiefer asked him, “Are you sure there was no
treatment on your left eye?” and he said absolute—no
because he remembered and actually physically almost acted like he was sitting in the chair. I think the
Court recalled that as well, with his showing that he
only put his right eye up to the camera.
And so clearly this was fair rebuttal to that.
THE COURT: Mr. Willis?
MR. WILLIS: Please the Court, I would first want
to remind the Court that we’re dealing with events
that are—as we stand here today, are approximately
six years ago, and so I don’t know that Mr. Lewis’s
recollection of what was and was not done is particularly noteworthy.

160a
What I do think is noteworthy, however, is counsel
did not address this January 14th, 2009, which is the
largest expenditure of all, where it’s very clear, I think,
from the record that we introduced that Dr. Pon did
surgery on the right eye. It’s simply a clerical error,
whether it’s by CNS or whether it’s his office.
And the government had those records at the time
that they prepared, created, and entered this resume
of services to the left eye. And nonetheless, they put it
before the jury that he charged for surgery to the left
eye, and it’s the most expensive item on the page.
And clearly that’s—I think anybody can agree
that’s just incorrect. That’s misleading. But we have
an entitlement, we believe, to correct that misleading
impression.
THE COURT: All right.
MR. DEVEREAUX: But, Your Honor, the defense
had that record, had that information, and had, in fact,
the benefit of the defendant sitting right next to it.
And Mr. Kiefer specifically elected not to cross-examine Mr. Jurs on anything.
He merely made an oral stipulation that we had
agreed to and didn’t cross-examine him at all and
chose not to do that.
And so he could have cross-examined him on that
and he elected not to, and he already had those records
on – in his file. He had possession of those records.
THE COURT: Is that correct? You made reference
to the government having the evidence that established the clerical error. The question is whether or
not—for my purposes, whether or not the defense had
that record as well.

161a
MR. WILLIS: Did we have that together with literally hundreds of thousands of documents? Yes, we did.
We were handed that spreadsheet over the noon hour
right before the examination took place, and we were
granted about a five-minute recess to look at it.
I think it strains credulity for us to be expected to
find that, generate that record, and be in a position to
recognize the significance of it.
Dr. Pon, I don’t expect him to have a recollection
going back that far until he had time to consider it.
THE COURT: All right. Thank you, gentlemen.
I’m going to allow Dr. Pon to testify as to the clerical
error, which is evident in the entry on Government’s
807 that pertains to—what is the date, January—
MR. WILLIS: January 14th, 2009.
THE COURT:—14th, 2009. That will be the only
testimony he’ll be allowed to offer in rebuttal, surrebuttal.
***
DR. DAVID MING PON, DEFENDANT’S SURREBUTTAL WITNESS, SWORN
DIRECT EXAMINATION
BY MR. WILLIS:
Q. Dr. Pon, in accordance with the Court’s direction, I’m going to focus your attention very narrowly
on a portion of Government’s Exhibit 807 that was introduced at the tail end of Friday’s proceedings. Do
you recall that exhibit?
A. Yes.

162a
Q. And it was a printout, really a prepared sort of
resume of billings to Medicare by your office regarding
patient Jerome Lewis. Do you remember that?
A. Yes.
Q. Just as a preliminary matter, Dr. Pon, do you
do your own billing, or is that done by somebody on
your staff?
A. Somebody on my staff.
Q. Okay. What we’re going to focus specifically
on—rather than go through all of this, we are going to
focus right in the middle of that page, and we’ll see
several entries for the date of January the 14th, 2009.
Do you see that?
A. Yes.
Q. Right here where my pen is. Do you see that?
A. Yes.
Q. And so that’s code 65400, that’s code 65436, and
that’s 65450, correct?
A. Correct.
Q. And the import of that document and that listing was to show that you billed for services to the left
eye of Jerome Lewis that we’ve already discussed that
he’d been blind for quite some time, correct?
A. Correct.
MR. WILLIS: If I may approach the witness, Your
Honor?
THE COURT: You may.
BY MR. WILLIS:

163a
Q. Dr. Pon, before getting into that, as such, this
document that we do have up on the overhead right
now, this has a column that is entitled Billings.
Do you recall that, these various dollar figures beside it?
A. Yes.
Q. Is that the amount that your office—
MR. DEVEREAUX: Objection, Your Honor.
THE COURT: Sustained.
BY MR. WILLIS:
Q. All right. Confining myself to January the 14th,
2009, is that the amount that you billed Medicare in
connection with these three codes on January the 14th,
2009?
A. That is the amount that is billed.
Q. Is that in any way close to what you actually
receive?
MR. DEVEREAUX: Objection, Your Honor.
THE COURT: Overruled.
THE WITNESS: Normally we only receive a
small—a fraction of that.
BY MR. WILLIS:
Q. All right. All right. But, Dr. Pon, I’ve put in
front of you for your consideration a document in evidence as Defendant’s 219. And, again, reminding everyone that the date that we’re dealing with is limited
to January the 14th, 2009. And I have a copy of that
same document before me. Does that look like the
first—does that look like the first page of that severaldocument exhibit that we just put in front of you?

164a
A. Yes.
Q. All right. And that—at the top of that document
it says operative report/procedure, and over to the side,
patient: Jerome Lewis, correct?
A. Correct.
Q. And that document relates to an operation performed by you on January the 14th, 2009, on Jerome
Lewis.
A. Correct.
Q. Now, that document we received from the government in discovery, correct?
A. Correct.
Q. All right. And that document, does that reflect
– does that accurately reflect the surgery that you performed on Jerome Lewis on January the 14th, 2009?
A. Yes.
Q. All right. If we can look down the page—one
moment. Looking down the page under preoperative
diagnosis, do you see item No. 4?
A. Yes.
Q. And would you read that for the jury?
A. Corneal neovascularization inferiorly in the
right eye.
Q. And to be reminded again, the left eye was the
eye that was blind in Jerome Lewis, correct?
A. Yes.
Q. And a little further, the postoperative diagnosis,
in other words, the diagnosis that was formulated

165a
after the surgery was performed, item No. 4 again,
what was that?
A. Corneal neovascularization inferiorly in the
right eye.
Q. In the right eye. And down at the bottom under
the description, the partial description that appears
there under the section entitled Operation, that last
phrase, removal. Pick it up.
A. “Removal of feeding superficial corneal neovascularization, right eye.”
Q. All right. And at the bottom, of course, this is
the government’s Bates stamp, they call it, that keeps
track of their documents.
On the second page of that document, the second
paragraph up from the bottom, I’ve highlighted the
first sentence of that paragraph, and, again, does that
paragraph make reference to the patient’s right eye?
A. Yes.
Q. And what does it say?
A. “The patient’s right eye was then sterilely
prepped and draped.”
Q. And three pages over, we’ve got sort of a—I’m
not sure what you would call that but an information
page on this same patient, same date, January the
14th, 2009, and at the bottom there is a section where
you put your remarks on your diagnosis and treatment.
And what is that sign in the left-hand side under
the—I think it says nonsmoker, immediately beneath
that?

166a
A. That says OD, underlined, and it refers to right
eye. That’s the abbreviation we commonly use for
right eye.
Q. And a similar document later in the same package two pages over, where it’s called—at the top it’s got
history and physical exam of the same patient on the
same date.
And directing your attention to the bottom of that
page under the—beside the section entitled Impression, I’ve highlighted it. Can you see? It appears to say
OD, right eye.
Is that what it says?
A. Yes.
Q. So you did surgery on the right eye of this gentleman on January the 14th, 2009.
A. That is correct.
Q. You did not do surgery on the left eye of this
gentleman on January the 14th, 2009, did you?
A. That is correct. I did not do surgery on the left
eye—
Q. All right.
A.—on that date, yes.
MR. WILLIS: Your Honor, that’s all we have but
for the—I’m not sure if we need to readmit or admit
this before the jury, but we had admitted it previously,
and I wanted to make sure the record was complete.
THE COURT: For the record, you want to admit
which exhibit?
MR. WILLIS: 219.
THE COURT: It will be marked and admitted.

167a
(Defendant’s Exhibit 219 was received in evidence.)
MR. WILLIS: Thank you, sir. That’s all we have.
THE COURT: Cross-examination?
CROSS-EXAMINATION
BY MR. DEVEREAUX:
Q. Mr. Willis asked you questions regarding Defense Exhibit 219 saying this was a government report
or a government document and it was—here there was
a Bates stamp. He mentioned that.
Do you recall?
A. Yes.
Q. In fact, these are documents that were seized
from your office. I mean, these are actually your records, not the government’s records. The government
got these records after they searched your office, correct?
A. I don’t know when they got them, but they—
these are—apparently these are from the government,
how the defense team got it. That’s my understanding.
Q. But these records are records of your treatment
of your patient Mr. Lewis, correct?
A. Yes.
Q. Okay. And so these are not government records.
These were your records that the government took custody of, correct?
A. Yes.
Q. So you’ve had these records since they were
made somewhere around January 14th of ‘09, correct?
A. Yes, approximately then.

168a
Q. Now, on Government Exhibit No. 807, the listing, what we’re talking about here is just three entries
out of two pages of entries, correct?
A. Yes.
MR. WILLIS: Your Honor, we would object, and
we’d like a sidebar on that if we can.
THE COURT: All right. Let me see counsel at sidebar.
(At sidebar, out of the hearing of the jury:)
MR. WILLIS: Your Honor, counsel is exploiting the
Court’s ruling to our detriment.
THE COURT: Well, I don’t know because he hadn’t
asked the question yet, but in fairness, I do want Mr.
Devereaux to stay within the bounds of the direct examination, which did not include references to any
treatments or billings outside of the January date.
MR. DEVEREAUX: Yes, sir.
THE COURT: But I don’t know that he was doing
that.
MR. DEVEREAUX: I’m going to add up just those
three.
THE COURT: Okay. Very good. Thank you.
(End of discussion at sidebar.)
BY MR. DEVEREAUX:
Q. These three on January 14th of 2009, if we add
up 919, 1,200, and 790, we get approximately $2,909.
Would that be fair?
A. Yes.

169a
Q. So is it your contention that these three are billing errors, this less than $3,000?
A. Yes. It appears to be a clerical error.
Q. Okay.
MR. DEVEREAUX: Thank you.
THE COURT: Thank you, Dr. Pon. You may step
down, sir. Please watch your step.
Ladies and gentlemen, you have now heard all of
the evidence you are going to hear in connection with
this matter.

170a
APPENDIX F
TRIAL EXHIBIT 131
Transcription of Dr. Murphy’s presentation on
feeder vessel treatment (Jacksonville, FL – January
6th, 2001)
One of the more rewarding things for me in this
field is collaborating with a number of people and especially with industry. My relationship with IRIS goes
back many years. I was at Hopkins when Eduardo
came in with a box no larger than a shoebox and said
it was a laser. It turns out that that little box is used
a lot. We have a busy practice. I would say we do
about 99% of our laser procedures with that laser.
Things have come a long way.
The Macular Photocoagulation Study was a pretty
interesting study because the presumption was that
macular degeneration was pretty well defined. All you
had to do was cauterize it with a visible wavelength.
It was very interesting to me at the reading center.
The angiograms we saw at the reading center were
horrible with shades of gray and white. It was months
before we saw a well-defined vessel. What we saw was
a whole field of occult neovascularization. It was lucky
that the MPS had any results at all because the treatment only benefited the well-defined vessels. It was
years afterwards that we discovered what occult neovascularization was and the classification of occult neovascularization became available. It became perfectly obvious then that if you were going to treat macular degeneration you were going to have to treat fibrovascular proliferation or occult neovascularization.
This was not addressed in the MPS. Interestingly, this
is not addressed by the verteporfin study. The vast

171a
majority of the neovascularization in macular degeneration is fibrovascular proliferation.
When I was at Hopkins I worked many years with
Bob Flower, who attempted to image the choroidal circulation. If we could image the blood vessels of the
choroid we could learn about these diseases. After all,
CNV is fibrovascular tissue. Neovascularization is
just an ingrowth of blood vessels and scar tissue.
Nothing else. We don't know why it happens or how it
happens exactly but that is what it is.
The choroidal circulation is about fifty times what
you need for the metabolic functions of the retina. So
it is excessive circulation. The pigment epithelium
plays a key role in retinal function by supporting the
rods and cones. The rods and cones need a blood supply, which derives oxygen and nutrients from the choroid to the RPE to bath the retina. In macular degeneration something goes wrong with that process. It
probably has a lot to do with Bruch's membrane hardening and thickening. With localized thickening you
start to see the visible drusen. Then if things really go
badly for reasons we don't understand at all, blood vessels begin to grow in from the choroid into Bruch's.
Then they grow underneath the RPE, eventually
through the RPE, and then between the RPE and the
rods and cones. When the neovascularization is at the
level of Bruch's, which is the early and most common
form of CNV, it shows a fluorescein pattern of smudgy
poorly defined leaks. That is occult neovascularization. If the CNV gets through the RPE, it is referred
to as classic disease. The problem is that FA, as a
standard diagnostic tool one cannot image very well
underneath the RPE. So if the vessels grow through
the RPE and lie on top of the RPE then you can see the
vascular detail and the membrane very well. That is

172a
classic CNV. But in the early stages of macular degeneration it is occult to FA because the vessels are hidden
by the RPE. Occult neovascularization is a smudgy
appearance caused by leakage from the vessels that
have penetrated Bruch's membrane. So for occult
CNV, usually FA shows some subretinal fluid under
the retina. You do the FA and all you see is a smudgy
spot because the vessels are underneath the RPE and
cannot be visualized very well.
Well ICG angiography uses an infrared system that
makes the RPE partially transparent. With ICG you
can start to see details under the RPE very clearly.
Over ten years ago, Larry Yanuzzi showed the first
ICG angiogram. At least with static late frame study
images, usually 20 minutes after injection, just showing where the ICG dye had collected. He could show
what we call a plaque or a circular area of fluorescence.
This is probably a monolayer of bloodvessels with a
connective tissue that has grown into Bruch's membrane. Often this first stage of neovascular in-growth
may not even be leaking yet and shows up as a big fluorescence spot on the ICG. But still it was very helpful
because eventually there was histopathologic correlation showing indeed that it was the growing in from
blood vessels into Bruch's membrane. But it still did
not help us to treat that because most people with
plaque were not symptomatic. Even if we begin to
think that these vessels were going to go badly we
could not treat. Treating a big plaque right in the center of the macula with a 20/20 eye one could burn all
the rods and cones.
As we see this information develop we can see the
picture of neovascularization developing. But we still
could not image the individual choroidal vessels under
the RPE. The first breakthrough came about five

173a
years ago. Bob Flower was able to image in an animal
model, under perfect conditions, the small blood vessels of the choriocapillaris. The breakthrough came
with more sensitive digitized video cameras in the infrared range. With that breakthrough came our ability now to image the small blood vessels of the choriocapillaris. These are exactly the blood vessels that
are responsible for CNV. We worked with Bob Flower
and at the same time we discovered that the Heidelberg Company in Germany had a SLO (scanning laser
ophthalmoscope) system. This system was ideal for
imaging blood vessels. What you need to do the diagnosis of the vessels causing the neovascularization is
to have a high-resolution high speed imaging system.
The reason is you are looking at the filling of the individual choroidal vessels, which takes place in a fraction of a second. The studies that we use to diagnose
the vascular structure are about two or three seconds
long. We are capturing images mostly at 6 to 12
frames per second during the choroidal filling phase.
We expected to find these vessels in the choroid coming
right up into the CNV from below. The first thing we
discovered was that most of the neovascular membrane complex had developed a blood supply not at the
capillary level but deeper to the capillary level called
Sattler's layer of the choroid. This surprised us. Also,
the blood vessels supplying blood flow to the neovascularization were long tangential vessels that came into
the CNV from the edge of the complex (racket type).
Only a few were directly from below (umbrella type).
About the same time investigators from Italy
started to demonstrate the same results. Staurenghi
was the first to define FV as racket or umbrella types:
he called the feeder vessels coming in from the side a
racket pattern (a stem feeding the CNV from the edge

174a
of the complex). He also defined the umbrella pattern
when the stem was feeding the CNV complex directly
from below.
So now after twenty years of only having cautery to
treat neovascularization we have wonderful diagnostic
system that allows us to actually see the internal circulation of the neovascularization.
We can see
through the RPE. Vessels that were occult on FA now
have a very clear vascular pattern. This was a major
breakthrough.
Obviously we want to treat these vessels. Since
most of our experience was with the visible wavelength
at that time we started using visible wavelength lasers
to treat. The diagnostic part is a simple elegant procedure and is cost effective. Also, it doesn't take very
long. In the patient where we see a neovascularization
we take them to the Heidelberg camera. We immediately switch over to the FA. I like the Topcon unit that
has high resolution. Bert likes to use the Heidelberg
FA. We use a T system for injection so we do not have
to do multiple injections. Within ten minutes you have
two images: you have static FA, a standard sort of picture, but you also have a digitized video angiogram of
the capillary filling of the choriocapillaris. This is
what it looks like. This is a still frame from the movie
image but it shows very clearly the retinal vessels. It
is large enough to show the retinal vessels but it also
shows the normal choroidal filling. By studying that
little movie, the filling patterns of the neovascularization, we can identify the feeder vessels in over 90% of
the cases. It turns out that, for occult CNVM, the filling rate is typically a little bit slower (about 1.5 second
slower than the filling of normal choroidal vessels)
while the emptying rate is quicker than in surrounding normal vasculature.
This differential

175a
filling/emptying rate helps us in the identification of
the feeder vessels.
You are obviously going to want to treat these vessels. You have to figure out a way. I went back to our
experiences at the Wilmer Reading Center. We
started making little drawings off of the Heidelberg
unit because we would have the retinal vessels. We
would then draw them as the landmark, then draw in
the feeder vessel. You end up with a little map with
the normal retinal blood vessels along with the feeder
vessel. Then you can transpose that image to the black
and white digitized image of the fundus. I like to take
them with the Topcon camera. Then you draw in the
feeder vessel. These are very accurate and can be done
in about 20 seconds. If we have a good FA and the ICG
on the same unit we could do that electronically. Then
we could immediately treat the patients.
We began treating the patients with the laser we
had the most experience with: a visible green laser.
The green laser depends on the pigment of the eye to
change that laser energy into burns. If you are using
visible wavelength laser energy like green, the first
layer of pigment the laser finds is the pigment in the
RPE. You then start to generate a spherical thermal
burn base primarily on the absorption of the pigment
in the RPE. If you make a big enough burn you can
get that thermal energy deep enough to close the
feeder vessel. You end up with pretty big burns. But
because the feeder vessel is coming in from the edge of
the macula it did not really matter if you had a 500micron to 1-millimeter burn at the edge of the macula.
It was visually insignificant as long as you closed the
feeder vessel. The problem was we were getting a lot
of destruction treating too close to the center. With
this type of burn you were burning the rods and cones.

176a
The challenge was to get this laser energy past the pigment epithelium without having the pigment epithelium turn into a burn. We thought about pulsing the
laser. Micropulsing was inappropriate because the micropulsing put the energy preferentially at the level of
the RPE. What we came up with was taking the 810diode laser and pulse it. We pulsed the laser one tenth
of a second on and one tenth of a second off. This would
allow you to create a thermal gradient deep. However,
the 50% duty cycle allows the choriocapillaris, which
is right under the pigment epithelium, to cool the pigment epithelium preferentially while you maintain a
thermal gradient deeper. It turns out to be a very elegant way to generate a thermal differential deep. Certainly you are developing a thermal gradient at the
level of the RPE but you are well below coagulation
threshold. The bottom line is that it works. The idea
is to use the 810-diode laser in the pulse mode a tenth
on and a tenth off. Just by trial and error we discovered that by treating for about two minutes allows you
to close a vast majority of the visible feeder vessels.
The problem was still that you got this visible whitening before the treatment was quite as much as you
wanted. So then we decided to treat with a lower
power about 200 milliwatts. We put in 15 to 20 to 30
seconds in the lower power range then gradually increased the power. By starting low and gradually increasing the power you could get up to powers of 500,
700 or 800 milliwatts still incredibly without getting
any visible thermal effect. We typically use a 75, 125
or a 200- micron spot size. We start low about 200 to
250 milliwatts, a tenth on and a tenth off, gradually
increasing the power. We put in about 300 applications. Then you start to increase the power as high as
600, 700, and 800 milliwatts. Most of the time you will
not get a visible burn. If on the other hand you put in

177a
one spot at 600 or 700 milliwatts on untreated retina
you immediately get a blanch. These burns are not so
bad. First of all they are very tiny and are away from
the center. Certainly they are minimal burns. We
have never once gotten a choroidal rupture. This is
very safe. We weren't really so much concerned about
the burns whitening the retina. We were more concerned about not getting a visible burn so we could get
more energy deep as whitened retina blocks the laser.
This works so that now most of the time we just
work by the numbers. We don’t wait to get a visible
effect. We put into two to three minutes getting up the
power to 600 or 800 milliwatts. With this power level
you can be pretty sure the vessel is going to be closed.
So if I show you how we actually do it will be a little
clearer.
In macular degeneration the typical membrane we
see is mostly occult. There can be an epicenter of
plaque of neovascularization. Most of these are occult
membranes. This is the FA that shows the brighter
area of well-defined plaque neovascularization. You
end up with this big smudgy spot of hyperfluorescence
that tells you yes there is leakage but we already knew
there was leakage. So the FA really doesn't help you
very much. Visudyne is totally ineffective for this common variety of case because it only closes the classic
component. It is totally ineffective in closing the occult. A vast majority of cases have a significant
amount of occult neovascularization. By doing an infrared angiogram it is like turning back the curtain.
All of a sudden you can still see the retinal vessels very
clearly but now all of a sudden you see this choroidal
circulation in great detail. This case, which was primarily occult, was really not approachable by treating
with verteporfin. It was much too large for macular

178a
surgery or translocation and much too large for conventional ablative therapy. But when you do the ICG
angiogram you can see the internal vasculature. It
turns out that this lesion has one main feeder vessel
that provides circulation to the entire vascular complex. So it’s a no brainer to go 1500 to 1000 microns
away from the center of the fovea and with one tiny
spot 200 microns here, close the feeder vessel and
therefore close the whole thing. It is effective immediately. You can repeat the ICG angiogram and you can
see that the entire abnormal vasculature is completely
closed. You get a dark spot. The same sort of dark
spot on the FA that you would see with PDT. But you
have done it much more quickly. There are fewer personnel, lower cost, and an immediate result.
Let me show you exactly how we do it. This is the
image you actually see. It is a digitized infrared angiogram that allows us to see the entire filling process.
You end up with a two or three second video loop digitized image on your computer. You can play it in the
office over and over again. You can put it on automatic
play. It will show the filling of the normal choroid, the
retinal vessels, and you can see the feeder vessel I
showed you before. After a second or so we are already
in the venous phase. This is beyond the point of interest. So the angiogram is very fast. We are not talking
about a twenty or thirty minute angiogram. Then you
can play it manually, fast or slow. When you play it
manually you start to see the normal early filling of
the choroidal vessels. These vessels you are just starting to see now are on the arteriole filling side. A tenth
of a second further on you can see the normal choroidal
vessels. They go away from the macula and branch.
All these down here are normal choroidal vessels. At
the same time you see this more linear straight vessel

179a
that appears just after the normal choroidal vessels. It
is heading right for the CNV. In fact in this case it
branches and goes into the neovascularization itself.
As I said the neovascularization fills slightly more
slowly than the normal choroid. Now we are already
in the venous phase. We really haven’t got capillary
filling in the membrane. You can clearly see the pattern of neovascularization. Now we are in the venous
phase and within a half second the arteriole of the
feeder vessel of the neovascular complex is patent.
The dye has already gone through. Now we have filling of the vein that drains the neovascular complex.
So we have a way of separating the afferent from the
efferent circulation of the neovascular complex, the socalled arteriole side from the venous side.
You don’t want to treat the vein. You could close
the neovascularization but you would have a much
higher risk of hemorrhage by treating the vein that
drains the neovascularization without closing the input side. Not a very good strategy. Twenty-five years
ago a number of investigators were trying to use fluorescein angiography to define the feeder vessels. They
had some limited success but the problem was they
were getting static images of one or two per second.
They were not imaging the feeder vessel. They were
imaging primarily the veins. It was very dangerous to
do it that way.
It is very common in the body for the artery and the
veins to be close together. But it doesn’t matter to me.
This is a mile away. This one you could treat with a
100 micron spot size which is ten spot sizes away from
the vein. This is just a very elegant way to treat with
a very tiny spot in a very tiny area. Usually there is
not visible effect at all. All angiography depends on
contrast of the dye in the vessels with less dye

180a
elsewhere. Here the feeder vessel shows up in stark
relief because it fills with the ICG dye and the membrane it is going to fill hasn’t filled yet. It is a very nice
contrast. We were able to get these images in video
form on the computer right before the AAO last year.
We are not using static images; we are using dynamic
images, which makes things very clear very fast. The
time it takes now to analyze a single tape is less than
a minute. We know exactly what to look for now.
Where the vessels are likely to be, what they look like,
and when during the sequence they will show up. We
can separate the arteries from the veins. The normal
from the abnormal. Within a few seconds you either
have it or you don’t. You don’t spend hours analyzing
it.
The other nice thing is that the effect is immediate.
Remember we cannot see the feeder vessel but when
you get the angiograms it is either closed or it is not.
You either got it or you didn’t. This is unlike other
procedures like TTT where the patients continue to
improve after one or two months or more. I think that
is more reliable as I don’t trust the mapping. So here
is a post treatment angiogram. You have immediate
confirmation. If you did not close this vessel, if I was
a little off, I could take them right back to the laser
and treat them again. I close the vessels at least 50%
of the time but I don’t view it as a contest. I view it as
a process in which you are using a minimal amount of
thermal damage. If that works, great; if not ratchet it
up. It just takes a few more minutes.
We can close 55% within two weeks and another
25% after two weeks. The results when treating classic membranes are much better than PDT. This is a
case of a PED. The vision is 20/70. This is a typical
fluorescein pattern of the filling of this blister of fluid

181a
on the retina. Some of these PEDs, I don’t know how
many but it is less than half, have this giant ropy tortuous feeder vessel shunting the flow to the PED. It is
very dramatic to treat the big feeder vessels. We
rarely close the feeder vessels but significantly diminished flow. Post op FA shows complete flattening of
the PED. VA improved to 20/50. Our pilot study of
PEDs with 6 months follow-up decreased leakage in 6
of the 8.
Here is a series I am interested in. These cases are
disciform scars. End stage mac degen with
fibrotic scar. The group we tackled had subretinal
fluid with hemorrhage. Here is the FA, which gives
you some hint that it's got a nicely defined vascular
pattern. The late FA shows a whole lot of leakage from
that vascular lesion. But the ICG shows you the arteriole side of the neovascularization. Here is the feeder
vessel. We treated and closed it immediately. This eye
improved from 3/200 to 20/300 in two months. Clinically, you can see the blood is gone. The fluid is all
gone. You still have the fibrosis but you have stopped
the leakage. That allows visual recovery. Low vision
aids could now help this patient. Here is another preop showing diffuse leakage with fibrosis. Post-op
shows staining of the fibrous tissue but the leakage is
totally gone. In the pilot study we have achieved resolution of the SRF in 7/8 cases. We reduced leakage in
7/8 by treating one to three modulating vessels. It took
two to five treatments to close but these patients had
a mean visual improvement of almost four lines. Remember this is end-stage disease that is supposedly
not treatable. In the pilot study you get a range of VA
from most dramatically 20/400 to 20/80. Again, this is
with very little risk to the patient.

182a
In conclusion, our work is based on two breakthroughs: one is the improved imaging with high-resolution transit choroidal angiography using the SLO.
We have developed little mini-angiograms of choroidal
filling patterns of lots of different types of neovascularization. Classic, mixed classic, occult, PEDs, and even
fibrovascular scars by identifying the vascular pattern
of the lesion. We have developed a way using a high
repetition diode laser to effectively allow us to close
those vessels. When we close those vessels we stop the
circulation inside the lesion. Without the leakage the
eye will resorb the subretinal fluid that is there. Usually there is an associated visual improvement. The
classic cases, the vast majority of cases which were stabilized to prevent further visual loss unlike PDT. We
can also attack a much broader part of the macular degeneration spectrum. We can achieve a much better
visual improvement than we possibly could before.
In our clinic this is our first approach. We also do
TTT and we also do PDT. In the future we believe this
will be the first approach to identify the feeder vessels.
Then we incorporate PDT or TTT. In our practice only
about two or three percent of the eyes are eligible for
PDT. We use feeder vessel approach initially then use
the PDT. The same with TTT. If we get to the point
where we cannot see the feeder vessels anymore and
we can’t do any feeder vessel treatment we do TTT or
PDT. TTT changes the biology of the CNV enough to
stop the leakage totally or it allows us to treat the
feeder vessels. Right now this is a very exciting technique for us. It allows us to treat CNV in a way that
we could not do before by being able to image the vascular pattern and to control the vascular pattern.
Presently the best way to do that is by millipulsing the
810 diode laser. Very safe, very elegant, minimal to no

183a
retinal damage and visual results are quite impressive. The first problem is the learning curve. Then
there is the cost of the Heidelberg equipment. The
younger doctors are going to be more receptive to this
technique. They will be willing to put in the time and
effort.
There is a clinic outside of Paris. They were not
doing things as well as they could be doing. They
weren’t getting the best images with the Heidelberg
unit. They had problems with image output, enhancement, and how to transfer the images quickly and effectively. Two problems are identifying the feeder vessel and treating the right spot. We have tried everyway possible and pretty much have those problems resolved. If you are working with a crummy image or if
you don’t have a reliable way of mapping out the vessels you will not be successful. They were trying to
map out the vessels and trying to use the infrared picture. I could not begin to do it the way they were doing
it. But by using the black and white red free image
and mapping like I showed you we solved the problems
with mapping. It begins with localization. I showed
them very quickly, that by using their existing computer, they could get a much better result. By getting
simultaneous FA and ICGs you get a degraded ICG
image. It’s the subtle things that make all the difference.
One of the complaints that I hear from physicians
is the cost of the equipment. I think this is the greatest
thing since sliced bread. To be able to offer patients
something for their macular degeneration. We can
now treat it very elegantly and successfully. I thought
our biggest problem would have been the stampede of
retina specialists to our office. It did not happen. All
we got was a stone wall. However, now with long term

184a
follow up and being able to show these images we will
get more interest. They are much more powerful than
showing static images. And the other people who are
buying it are having a lot of success. The cost of the
equipment is covered by the reimbursement for the angiography. So in terms of the Heidelberg unit, the Heidelberg unit pays for itself. Because you get reimbursed for the FAs and the ICGs. We can do four or
six studies per hour. A single photographer can perform sixty-to-eighty images per day. We have turned
photography from a loss center to a profit center.
Three studies per day will pay for the lease on the Heidelberg unit. Cost is a non-issue.
We have no proprietary interest in Heidelberg. We
did work with them to improve the imaging.
Our approach is to dilate the patients, do the FA,
and then do the ICG. The FA tells you what kind it is:
whether it is classic or occult. It tells you how big and
where. If it is a subfoveal classic perfect for Verteporfin and the ICG shows a nice feeder vessel of
course you do the feeder vessel. There is much less
damage. Verteporfin, in my opinion, is not so great.
Even if we are 100% effective with our treatment there
is no ethical issue if you can close the feeder vessel
with one tiny little burn. If you don’t close it then you
can treat with PDT. The same reasoning applies with
occult lesions. As long as we can see the feeder vessels
then we treat them. If we can no longer find the feeder
vessels then we will use TTT. Also, with extra foveal
classic membranes we treat the feeder vessel. The
MPS treatment closes the membranes; but one must
remember recurrence is 50 to 80% and it is always on
the foveal side. I have no qualms at all using the
feeder vessel technique. The feeder vessels consist of
1 or 2 or 3 roots that make up the branch. The end of

185a
the tree here is the visible part of the neovascularization. MPS treatment uses ablative thermotherapy.
We have lots of histology showing a white-hot burn.
You get down a little below the RPE but not deep in
the choroid so you still leave the taproot. That is why
with MPS treatment the recurrence rate is at least
50%. Within a year to a year and a half the vessels recanalizes and you have more growth on the foveal side.
With PDT you close the capillaries. That is why you
get that dark picture on the FA the next day. However, you have left the entire vascular infrastructure
patent. That is why with PDT 90% open up again
within a short period of time. It is no surprise because
closure is at the capillary level. It is just opposite by
going to the taproot first. It is safe, it is controlled, and
there is virtually no damage to the retina. But this is
as close to minimal damage to the macula that you can
get with any treatment. Even with Verteporfin treatment those eyes after two or three treatments show a
lot of atrophy at the level of the RPE. There is plenty
of other evidence that Verteporfin treatment is not totally benign. You do get a damaging effect at the RPE.
There is no question about it. Some of the patients
look like they have had subfoveal laser because it is
just atrophic. Well you don't get that with feeder vessel treatment. Some of our scars are very hard to find.
Look at the options. You can cauterize it or you can
stop the leakage at the superficial level with PDT.
However, they recur and it is a great expense. Remember, with Verteporfin, 4% to 6% of the eyes develop a
severe visual loss. You never see a severe visual loss
with feeder vessel treatment.
Whatever we are doing is allowing the development
of a thermal gradient deep enough to close the feeder
vessel. This may not be at the thermal level. We don't

186a
know how it really works. It is pretty clear to me that
one of the components is tissue swelling. I think you
do have enough changes in the thermal gradient to
form a clot. But you also get some localized tissue
swelling that helps to squeeze the vessels closed. It is
presumably by cooling the choriocapillaris that prevents the RPE thermal gradient from reaching the
point of photocoagulation. Instead of with a blowtorch
you are gradually changing the thermal gradient of the
tissue. It is a much more controlled and precise technique. You can achieve what you want with a much
less adverse effect. We want to get a good two minutes
of thermal gradient deep to close the feeder vessel.
You don't want to whiten the RPE. By trial and error
we pulsed the laser. We started very low with a 200micron spot, two hundred milliwatts of power, and we
pulsed this for 20 or 30 seconds. Then we raise the
power to 250 or 300 milliwatts. Do this for another 20
or 30 seconds. Gradually raise the power and pretty
soon you reach 600, 700, 800 milliwatts with no visible
effects. But if the patient moves just a tiny bit and the
laser hits one spot of untreated retina you get an immediate blanch. Clearly there is some conditioning of
the retina to a thermal response. Dr. Mainster has
postulated there are heat shock proteins that protect
the tissue from thermal damage. This may happen by
coming in with gradual increases of thermal gradient.
This allows a biological effect to occur to help protect
the tissue from the thermal gradient. He also thinks
that this whitening we get may not be a true burn. It
may be some disruption of the neural retina rather
than a true burn of the RPE. In many patients the
next day that white spot will often subside. But even
if it were permanent it is so small and so far from the
center it is nothing compared to other modalities. Also
the more visible pigment they have, the more sensitive

187a
they are to any laser. With someone who is highly pigmented you ratchet the power way down. Say to 50
milliwatts. Same principle. You start with subthreshold and you gradually work up. You want to
have two minutes of sub-threshold energy to close. So
what I do now to increase the closure rate I will go up
to three minutes. If I get up to 700 or 800 milliwatts
at three minutes and there is no visible effect that's it.
If I get a gray blanching I will stop it there. In white
scar tissue we will start at 400 to 500 milliwatts and
sometimes will go the maximum power, 1400 milliwatts, before we see a graying effect. We seem to be
able to get through a lot of pigment with the 810 laser.
Something else is at play here. It may be the way we
are developing the clot and it may be the swelling of
the tissue to keep the vessel taponaded.

188a
APPENDIX G
Bibliography of recent medical literature
concerning the diagnosis and treatment of
macular degeneration
Bailey, S.T., et al., Detection of Non-exudative Choroidal Neovascularization and Progression to Exudative Choroidal Neovascularization Using Optical Coherence Tomography Angiography, 3(8) Ophthalmol.
Retina 629–636 (2019) (“Overall, 8 of the 10 eyes with
non-exudative CNV developed exudation with a mean
time of 8 months and a mean CNV area growth rate of
20%/month (exponential model, p=0.014). * * * Cox
proportional hazard analysis showed that having a
non-exudative CNV detected was associated with 18.1fold increase in the rate of subsequently developing exudation (P<0.0001). Conclusions: Non-exudative
CNVs are frequently detected by OCTA in the fellow
eyes of exudative CNV. These lesions carry a high risk
of developing exudation within the first year after detection and could benefit from close monitoring. The
high risk of progression may justify prophylactic treatment; further studies are needed.* * *However, given
the high rate of exudation in our series, early treatment may prevent vision loss associated with SRF,
IRF or hemorrhage.”)
Caballero, S, et al., Bone marrow–derived cell recruitment to the neurosensory retina and retinal pigment epithelial cell layer following subthreshold retinal phototherapy. 58 Invest. Ophthalmol. Vis. Sci.
5164–5176. 5164, 5171 (2017) (“SRPT induces monocyte recruitment to the RPE followed by hematopoietic
progenitor cell homing at 2 weeks. Recruitment occurs
in a duty cycle-dependent manner and potentially
could contribute to the therapeutic efficacy of SRPT

189a
* * * * Continuous wave (CW) thermal lasers have
long been important tools for the treatment of various
retinal disorders. Their therapeutic efficacy in the
treatment of diabetic macular edema (DME) is wellestablished but at the expense of potentially serious
side effects such as development of scotomata, subretinal scarring, and CNV, all resulting from thermalinduced damage to the outer retina, RPE, and Bruch’s
membrane. However, the precise mechanism of action
of CW laser has yet to be fully delineated. Recently
developed to minimize photothermal damage to the
retina and adjacent structures, micropulse laser induces photochemical injury. In this study, we investigated the migration and microglial nature of BM-derived cells present in the neurosensory retina (NSR)
and RPE-choroid at various time points after subthreshold retinal phototherapy (SRPT) using various
duty cycles (DCs) * * * * The salient finding of this
study is the demonstration, we believe for the first
time, that BM-derived cells can be locally recruited to
the retina, including the RPE layer, using SRPT”)
Chang, D.B., et al., Comparison of Subthreshold
577 and 810 nm Micropulse Laser Effects on HeatShock Protein Activation Kinetics: Implications for
Treatment Efficacy and Safety, 9(5) Transl. Vis. Sci.
Technol. 23 (April 2020) (“Defining photocoagulation,
and indeed any degree of LIRD, as complications rather than goals of treatment, modern retinal laser
therapy seeks to maximize both treatment safety and
efficacy and broaden treatment indications by precluding LIRD. The cornerstones of modern retinal laser
therapy were established and defined by low-intensity/high-density subthreshold diode (810 nm) micropulse laser (SDM). These include treatments (1) selective to the retinal pigment epithelium (RPE) and

190a
sparing the neurosensory retina; (2) reliably and predictably sublethal to the RPE; and (3) clinically optimized by preservation and normalization of RPE function at the cellular level, with amplification of the cellular response by en masse recruitment of large areas
of dysfunctional retina in confluent treatment to maximize therapeutic effects, reverse the disease process,
and thereby reduce the risks of visual loss.”) (citing
Dorin)
Chhablani, J., et al., Restorative retinal laser therapy: present state and future directions, 63(3) Survey
of Ophthalmol. 307–328. (2018) (“York and colleagues
used indocyanine green angiography guided micropulse laser to close choroidal feeder vessels in neovascular age-related macular degeneration (AMD).”)
Cohn, A.C., et al., Subthreshold Nano-Second Laser
Treatment and Age-Related Macular Degeneration,
10(3) J. Clin. Med. 484 (Jan. 2021) (“The evolution in
our understanding of AMD, through advances in multimodal imaging and functional testing, as well as ongoing investigation of key pathological mechanisms,
have all helped to set the scene for further well-conducted randomised trials to further explore potential
utility of the nanosecond and other subthreshold short
pulse lasers in AMD. * * * As discussed previously, lasers delivered at subthreshold levels have no visual
feedback at the time of application, which can make
the titration of laser power for adequate tissue effect
extremely difficult.) (citing Dorin)
Dorin, G., New Laser Technologies in Samples,
John R., Ahmed Iqbal Ike K. eds. Surgical Innovations
in Glaucoma (October 2014), Springer: New York, pp.
77–84 (“Treatment endpoint of all laser surgeries was
always a discernable photothermal, photoacoustic, or

191a
photomechanical tissue effect, such as stretching,
blanching, burning, bubbling, popping, perforating, or
cutting. Although destructive in nature, the iatrogenic
damage and collateral effects associated with these
endpoints have been universally accepted as necessary
for a useful treatment. Lately, almost by serendipity,
it has been found that some procedures result equally
effective and more beneficial when performed without
destructive endpoint, by eliciting similar mechanisms
of action with fewer or no collateral effects * * * * Effective subthreshold laser therapies, with less or no
iatrogenic damage, can be administered pro re nata
(PRN) and play an important complementary role with
emerging microinvasive glaucoma surgeries (MIGS) in
the long-term management of glaucoma.”)
Guymer, R.H., et al., Subthreshold Nanosecond Laser Intervention in Age-Related Macular Degeneration
The LEAD Randomized Controlled Clinical Trial. 126
Ophthalmol. 829–838 (2019). (“There is an urgent
need for a more effective intervention to slow or prevent progression of age-related macular degeneration
(AMD) from its early stages to vision-threatening late
complications. Subthreshold nanosecond laser (SNL)
treatment has shown promise in preclinical studies
and a pilot study in intermediate AMD (iAMD) as a
potential treatment. We aimed to evaluate the safety
of SNL treatment in iAMD and its efficacy for slowing
progression to late AMD * * * * In the last decade, advances in the treatment of the neovascular form of late
age-related macular degeneration (AMD) with intraocular injections of anti–vascular endothelial growth factor have reduced vision loss from this complication
dramatically. However, delivering this treatment has
imposed an enormous financial burden on health systems worldwide because of the need for ongoing

192a
repeated treatment at frequent intervals for an everincreasing number of patients. Furthermore, longterm visual benefits are not always maintained despite treatment, with vision loss continuing to occur
through atrophy or scar formation * * * * Currently, no
treatment exists for the other late AMD complication
of atrophy, where progressive degeneration and death
of the outer retinal cells–the photoreceptors and retinal pigment epithelium (RPE)–occurs. Apart from dietary supplements, such as the Age-Related Eye Disease Study formulations, for subsets of individuals
with AMD and general lifestyle modification, there is
no specific intervention that prevents or slows progression from earlier, asymptomatic stages of AMD to the
visually devastating complications of late AMD. As
such, there is an urgent need for an effective intervention to slow or prevent the progression of the disease
in its early stages * * * * The effect of a short-pulse,
nanosecond laser delivering a speckled-beam profile at
subthreshold energy levels has been investigated using the retinal rejuvenation therapy laser device 2RT
(Ellex Pty Ltd, Adelaide, Australia). In an in vitro
study, this laser induced RPE migration and an increase in matrix metalloproteinases (MMPs) involved
in ECM turnover. In an animal model with a thickened
BM (ApoE-null mouse), application of this laser treatment resulted in a significant reduction in BM thickness and upregulation of gene expression for a range
of genes involved in ECM turnover. In AMD patients,
a single application of nanosecond laser resulted in a
reduction in drusen load without any evidence of damage to overlying photoreceptors. These preliminary results warranted further investigation, and as such, a
randomized controlled clinical trial of subthreshold
nanosecond laser (SNL) in iAMD was undertaken to
determine if this novel intervention could reduce

193a
progression to late AMD * * * * If the beneficial effect
of the SNL treatment in eyes without RPD can be confirmed, it will have major implications for millions of
people worldwide with the earliest stages of AMD.”)
Gawęcki, M., Micropulse Laser Treatment of Retinal Diseases, 8(2) J. Clinical Medicine 242 (Feb. 2019)
(“For years, retinal laser treatment involved the destruction of the retinal tissue. * * * Therefore, there
has been a constant search for laser treatment of the
retina that would deliver the benefits, but not destroy
cells. Micropulse and nanopulse lasers give clinicians
the opportunity to treat retinal disorders without any
visible damage. * * * The idea of subthreshold laser
therapy is not to leave any marks on the retina, meaning spots that could be detected by any available diagnostic tools, such as biomicroscopy, fundus autofluorescence (FAF), fundus angiography, or optical coherence tomography. Numerous studies confirm the
safety of subthreshold micropulse laser treatment
(SMPLT) with no detectable damage to RPE or photoreceptors. Laser power is set at a low level, so that the
laser impact does not leave any traces on the retina. In
consequence, only a limited thermal impact is exerted
on the tissue, without any lethal effect.”).
Geneva II, Photo-biomodulation for the treatment
of retinal diseases: a review, 9(1) Int. J. Ophthalmol.
145–152 (2016) (“Photobiomodulation (PBM), also
known as low level laser therapy, [is] a promising new
approach to treat a variety of retinal conditions including age-related macular degeneration * * * * The literature supports the conclusion that the low -cost and
non - invasive nature of PBM, coupled with the first
promising clinical reports and the numerous preclinical-studies in animal models, make PBM well -poised
to become an important player in the treatment of a

194a
wide range of retinal disorders. * * * The results from
all the studies in animal models of AMD * * * demonstrate the potential of PBM for ameliorating and even
reversing retinal damage * * * a new US-based clinical
trial is currently recruiting participants in order to
study the potential benefit, tolerability, and safety of
FR/NIR light therapy in adults with wet AMD (‘Wet
AMD Near Infrared Treatment Trial administered by
the New York Eye and Ear Infirmary at Mount Sinai).’)”)
Heiferman, M.J., et al., Progression of subclinical
choroidal neovascularization in age-related macular
degeneration, 14(6) PLoS ONE e0217805 (2019) (“Agerelated macular degeneration (AMD) is a leading
cause of irreversible vision loss in developed countries.
Early and intermediate AMD are defined by the presence of drusen. Late AMD is defined by the presence of
choroidal neovascularization or geographic atrophy involving the center of the macula. While most patients
with AMD have early or intermediate AMD, severe vision loss is most often related to late AMD. Despite
this potential morbidity, the mechanism for progression to late AMD remains unknown. * * * * Histopathologic specimens of eyes with clinically diagnosed dry
AMD have shown newly-formed blood vessels [as
much as >50%] invading into the subretinal space.
These authors proposed the presence of subclinical
choroidal neovascularization in a subset of eyes with a
clinical diagnosis of dry AMD. Furthermore, they speculated that these new blood vessels are precursors of
late AMD. Studies using indocyanine-green angiography (ICG) further supported this hypothesis by
demonstrating the presence of focal hyperfluorescence
and plaques on ICG in fellow eyes of unilateral exudative AMD. These authors suggested that eyes with

195a
these ICG findings are at higher risk of developing late
AMD.”)
Ivandic, B.T., et al., Low-level Laser Therapy Improves Vision in Patients with Age-related Macular Degeneration, 26 Photomed. Laser Surg. 241–245 (2008)
(“LLLT given over 2 wk led to an improvement in visual acuity in most patients with AMD (90%). An increase of three to seven rows of optotypes was observed
in 52/182 (28.6%) of eyes with cataracts, and in 59/146
(40.4%) of eyes without cataracts. Unlike other therapeutic approaches, LLLT improved visual acuity in patients with AMD of every stage. The improvement in
visual function was maintained for up to 36 mo. The
results of this retrospective analysis of a case series
are encouraging, especially in light of the fact that if
untreated, AMD inevitably leads to irreversible loss of
vision. Thus LLLT may, when initiated during the
early stages of AMD, help prevent loss of vision. LLLT
may also be combined with other therapeutic approaches. Although not investigated in this study, it
is likely that synergistic effects may be seen (e.g., improved outcome or shorter treatment duration). In addition to the improvement in visual acuity, other positive effects of LLLT were noted. Eye examinations revealed that LLLT diminished pigment accumulations
and cystic drusen. Metamorphopsia, acquired impairments of color vision, and relative scotomas improved
as well. Moreover, in patients with wet AMD, edema
and bleeding were reduced. * * * In conclusion, this
study of a case series shows that LLLT may be a novel
therapeutic option for both early and advanced forms
of AMD. This simple and highly effective treatment
improves visual acuity and may help to prevent loss of
vision without adverse side effects.”)

196a
Kiire, C., et al., Subthreshold Micropulse Laser
Therapy For Retinal Disorders, Retina Today 67–70
(Jan./Feb. 2011) (“It has, however, been suggested that
full thickness retinal damage may not be needed to obtain beneficial effects from laser. The benefits might
be due to the up and down-regulation of angiogenic
growth factors (e.g., VEGF) mediated by the biological
reaction of RPE cells that have been only sublethally
injured. The RPE plays a significant role in repairing
the outer and inner blood-retinal barrier, regardless of
the type or location of the laser application. Photothermal elevation that does not produce visible intraretinal damage during or after laser treatment may be
termed subthreshold laser treatment. Emerging evidence suggests that subthreshold laser treatment may
be as effective as conventional laser treatment but
with less iatrogenic damage to the tissues surrounding
the area of the burn in the RPE.”).
Keunen J.E.E., et al., International Retinal Laser
Society Guidelines For Subthreshold Laser Treatment.
9(9) Transl. Vis. Sci. Technol. 15 (August 2020) (“The
recent advent of new laser approaches has revolutionized the laser treatment techniques for retinal diseases. In particular, the goal of modern subthreshold
laser (STL) treatment is now retinal preservation and
normalization, rather than destruction.”) (citing
Dorin)
Koev, K., et al., Five-year Follow-up of Low-level
Laser Therapy (LLLT) in patients with age-related
macular degeneration (AMD), 992 J. Phys.: Conf. Ser.
012061 (2018) (“There was a statistically significant
increase in the visual acuity (p<0.001, end of study
versus baseline) for AMD patients for the period of five
years after the treatment. The edema and hemorrhage
in the patients with progressive, exudative AMD

197a
significantly decreased. No side effects were observed
during the therapy. The prevalence of metamorphopsia, scotoma in AMD group was reduced. In conclusion, this study shows that LLLT may be a novel
long-lasting therapeutic option for both forms of AMD.
It is a highly-effective treatment that results in a longterm improvement of the visual acuity. * * * The results of this retrospective analysis of a case series are
encouraging, as they unambiguously demonstrated
the beneficial effect of the LLLT, namely, improvement in the visual acuity in most patients with AMD
(93,9%).”)
Luttrull, J.K., et al., Laser Resensitization of Medically Unresponsive Neovascular Age-Related Macular
Degeneration, 35(6) Retina 1184–1194 (June 2015)
(“Subthreshold diode micropulse laser treatment restored drug response in drug-tolerant eyes with neovascular age-related macular degeneration. Based on
these findings, a theory of subthreshold diode micropulse laser action is proposed, suggesting a wider role
for subthreshold diode micropulse laser as retinal reparative/protective therapy.”)
Luttrull, J.K., et al, Low incidence of choroidal neovascularization following subthreshold diode micropulse laser (SDM) in high-risk AMD, 13(8) PloS one
(2018) (“In a review of a large group of eyes with exceptionally high-risk AMD, SDM was followed by a
very low incidence of new CNV. If confirmed by further study, SDM would offer a new and highly effective
treatment to reduce the risk of vision loss from AMD.”)
Luttrull, J.K., et al., Slowed Progression of Age-Related Geographic Atrophy Following Subthreshold Laser, 14 Clinical Ophthalmol. 2983–2993 (Oct. 2020)
(“The only known effects of SDM, sublethal to the RPE,

198a
are therapeutic. There are no known adverse treatment effects associated with SDM clinically, in vitro or
in vivo. This is because therapeutic retinal laser effects arise from living cells affected, but not killed by
laser exposure; and adverse retinal laser effects arise
from LIRD, which is, at minimum, lethal to the RPE.
The effects of thermal laser effects sublethal to the
RPE are multivalent, catalytic, reparative, restorative
and functionally normalizing to the retina. * * * The
response to SDM represents a physiologic “reset” phenomenon.6–15,34–50 This is because the currency of
cellular dysfunction, induced by virtually any stressor,
including ageing and all chronic progressive retinopathies, is protein misfolding. Because HSP-mediated
correction of protein misfolding and consequent normalization of cell function is agnostic to the cause of
protein misfolding, SDM acts as a non-specific trigger
of disease-specific repair; much like the “reset” function common to electronic devices. * * * Appearing
highly effective and without adverse effects, SDM
might, if confirmed, contribute significantly to the reduction of visual loss and disability due to AMD.”)
Luttrull, J.K., et al., Prevention of neovascular
AMD: Real world efficacy of program of panmacular
laser for vision protection, preprint, available at
https://www.researchgate.net/publication/349952308
(“By study conclusion in September 30, 2020, SC+SDM
eyes averaged 9 letters better VA than SCA eyes. Confirmed by further study, SDM would set a new standard for prevention of visual loss from AMD with significant public health implications.”)
Markowitz, S.N., et al., A Double-Masked Randomized Sham-Controlled, Single-Center Study With Photobiomodulation For The Treatment of Dry Age-Related Macular Degeneration, 40(8) Retina 1471–1482

199a
(August 2020) (“Photobiomodulation treatment statistically improved clinical and anatomical outcomes
with more robust benefits observed in subjects with
earlier stages of dry age-related macular degeneration.”)
Merry, G.F., et al., Photobiomodulation Reduces
Drusen Volume And Improves Visual Acuity And Contrast Sensitivity In Dry Age-Related Macular Degeneration, 95(4) Acta. Opthalmol. e270–e277 (2017) (finding “improvements in functional and anatomical outcomes in dry AMD subjects with PBM therapy” by
“stimulat[ing] cellular processes that provide an approach to target the underlying degenerative pathology with disease‐modifying potential”).
Muste, J.C., et al., Photobiomodulation Therapy in
Age-Related Macular Degeneration, 32(3) Curr. Opin.
Ophthalmol. 225–232 (May 2021) (“PBT might be used
in treating nonexudative AMD. Limited evidence suggests that exudative AMD may also benefit from
PBT.”)
de Oliveira Dias, J.R., et al., Natural History of
Subclinical Neovascularization in Nonexudative AgeRelated Macular Degeneration Using Swept-Source
OCT Angiography, 125(2) Ophthalmol. 255–266 (2017)
(“After the detection of subclinical MNV, the risk of exudation was 15.2 times (95% confidence interval, 4.2–
55.4) greater compared with eyes without subclinical
MNV. Conclusions: By 12 months, the risk of exudation was greater for eyes with documented subclinical
MNV compared with eyes without detectable MNV.”)
Or, C., et al., Vascularized drusen: a cross-sectional
study, 5 Int. J. Retin. Vitr. 36 (2019) (“Early detection
of CNV and early management of exudative AMD have
been shown to be associated with better visual acuity

200a
outcomes in patients who convert to clinically significant exudative AMD. Indocyanine green angiography
(ICGA) is deemed the gold standard when assessing
for the presence of type 1 neovascularization, owing to
its improved penetration below the RPE. Studies using ICG videography on patients with non-exudative
AMD demonstrated that subclinical neovascularization could occur even in this cohort of patients * * *
However, it is still not clear at which point the MNVs
arise in the evolution of drusen and pigment epithelial
detachments. * * * Recent studies by Roisman et al.,
de Oliviera Dias et al., and Querques et al. have
demonstrated that phenotypic dry AMD consists of
two different OCT angiographic subtypes, a high-risk
type with non-exudative subclinical MNV and a truly
‘dry’ type with no MNV. However, it is not clear at
what stage the non-exudative MNV develops. This
study shows that neovascularization may be present
as early as in drusen. * * * The identification of neovascularization in drusenoid lesions presenting with
uniform sub-RPE hyperreflectivity suggests that OCT
alone is insufficient for its detection. Furthermore,
vascularized drusen could not be detected using FA
[fluorescein angiography] or CFP [color fundus photography]. Querques et al. suggested that these lesions
may be visible on ICG. It remains a limitation of our
study that ICGA results were not available to confirm
our findings. * * * In all instances, FA failed to identify
the presence of the neovascularization.”)
Querques, G., et al., Subthreshold laser treatment
for reticular pseudodrusen secondary to age-related
macular degeneration, 11(1) Scientific Reports 2193
(January 2021) (“Subthreshold laser is a safe and effective treatment used in the clinical practice in several retinal disor-ders. Although the exact mechanism

201a
of action of sub-threshold lasers is not completely understood, it has been suggested that it works by targeting, preserving, and “normalizing” the function of
the RPE23. Since the dysfunction of the RPE has been
suggested as the main driving factor in the pathogenesis of RPD, the subthreshold laser could play a crucial
role in the treatment of RPD. However, to date, no
prospective studies were designed in order to evaluate
the safety and efficacy of this treatment in patients affected by RPD. The aim of the current pilot clinical
trial is to evaluate the safety and short-term efficacy
of the sub-threshold laser treatment (SLT) in patients
affected by RPD secondary to dAMD. * * * “High-density/low-intensity” SLT was first reported in 2005 in
the treatment of diabetic macular edema (DME). Subthreshold laser does not cause retinal damage and has
no known adverse treatment effects. Indeed, it has
been demonstrated that both subthreshold infrared laser and subthreshold yellow laser do not cause clinically visible or invisible scars in the macula, and that
SLT can be used transfoveally in eyes with 20/20 visual acuity to reduce the risk of visual loss caused by
early fovea-involving DME. Our data have confirmed
that SLT is safe also in patients with high BCVA and
dAMD. * * * As subthreshold laser seems to play a role
in restoring the function of RPE in patients affected by
AMD and dysfunction of the RPE has been suggested
as the main driving factor in the pathogenesis of RPD,
SLT could play a crucial role in the regression of RPD.
Our pilot study showed interesting results in the anatomical outcomes of patients treated with subthreshold laser. * * * These results are of fundamental importance because a regression of the stages of RPD due
to SLT could reduce the risk of developing an advanced
form of AMD, both neovascular or atrophic.”)

202a
Roh, M., et al., Subthreshold Exudative Choroidal
Neovascularization Associated With Age-Related Macular Degeneration Identified by Optical Coherence Tomography Angiography, 4(5) J. Vitreoretinal Diseases
377–385 (2020) (“Fluorescein angiography (FA) has
long been the criterion standard for detecting and diagnosing new-onset CNV, with indocyanine green angiography (ICGA) being a useful adjunct for select
cases. The introduction of newer, less-invasive imaging modalities, such as optical coherence tomography
(OCT) and OCT angiography (OCTA), allows clinicians
to more frequently and accurately monitor progression
of disease and response to treatment and guide future
treatment decisions. Furthermore, multimodal imaging has prompted investigations into subclasses of
CNV in AMD, further stratifying exudative AMD patients to allow for personalized therapies and improved predictability of response to treatments.”)
Roisman, L., et al., Optical Coherence Tomography
Angiography of Asymptomatic Neovascularization in
Intermediate Age-Related Macular Degeneration,
123(6) Ophthalmology 1309–1317 (2016) (“After all,
early detection and treatment of pathological neovascularization is thought to be important in preserving
as much vision as possible in these patients who convert to late neovascular AMD * * * * [T]he detection of
subclinical MNV required the use of ICGA, which is an
invasive procedure associated with the rare but serious risk of an allergic or anaphylactic reaction. Moreover, ICGA is expensive, time consuming, resource intensive, and not routinely performed or reimbursed by
insurances when performed on patients with non-exudative AMD. Due to these limitations, angiographic
monitoring of eyes with intermediate AMD has never
become routine; however, this is about to change with

203a
the availability of OCT angiography. In the three
cases presented in this series, asymptomatic eyes with
intermediate AMD were imaged with ICGA because
the patient was being evaluated for active, symptomatic neovascularization in their fellow eye. When imaged with the ZEISS 1050nm SS-OCT prototype system and the output processed using the OMAG algorithm, type 1 neovascularization was identified and its
location corresponded to the central macular plaque
seen on ICGA imaging. In our patients, the presence
of MNV would have remained unnoticed if the FA and
ICGA had not been done and confirmed by OCT angiography.”)
Sanislo, S.R., Non-Damaging Photothermal Therapy of Non-exudative Age Related Macular Degeneration, Clinicaltrials.gov (last update March 18, 2020),
https://clinicaltrials.gov/ct2/show/NCT02569892
Scholz, P., et al., A Review of Subthreshold Micropulse Laser for Treatment of Macular Disorders, 34(7)
Adv Ther. 1528–1555 (July 2017) (“Traditional laser
photocoagulation has been used to treat different retinal diseases for many years. Here, the endpoint is a
visible whitening of the retina due to thermal damage
of the retinal pigment epithelium (RPE) and the inner
retina. However, apart from the favored therapeutic
effect, the treatment can lead to undesirable side effects like visual field defects, epiretinal fibrosis, and
choroidal neovascularization (CNV) in the area of the
laser scar. The mechanisms which are responsible for
the therapeutic effect are still poorly understood. Scarring seems not to be necessary to achieve a therapeutic
effect. * * * In subthreshold micropulse laser (SML),
diffusion of heat to surrounding tissues is minimized
and thereby scarring is prevented. The neural retina
can be spared by applying the minimum laser

204a
irradiance (watts per square meter) needed to raise
the temperature of the RPE, but without exceeding the
protein denaturation threshold. * * * The micropulse
operating mode and terminology were described by
Dorin.”) (citing Dorin)
Sivaprasad, S., et al., Micropulsed diode laser therapy: evolution and clinical applications 55(6) Surv
Ophthalmol 516–30, 516 (2010). (“The development of
the diode laser with micropulsed emission has allowed
subthreshold therapy without a visible burn endpoint.
This greatly reduces the risk of structural and functional retinal damage, while retaining the therapeutic
efficacy of conventional laser treatment. Studies using
subthreshold micropulse laser protocols have reported
successful outcomes * * *”)
Smith, R.T., Sub-threshold nanosecond laser (SNL)
treatment in intermediate AMD (IAMD), 4 Annals of
Eye Science 1, 4 (2019) (“Subthreshold treatment
herein reasonably explores the lower end of the doseresponse curve to seek safety while still maintaining a
therapeutic response. * * * A startlingly good outcome
has now been shown in one study for treatment with
sub-threshold nanosecond laser for the non-RPD/SDD
phenotype of iAMD, and is contrasted with an apparently poor outcome for the RPD/SDD phenotype.”)
Stuart, A., Clinical Update: OCT-A: A Path to Earlier Diagnosis of AMD, EyeNet (April 2018) (“[OCT-A]
has allowed retina specialists to identify a whole new
category of AMD—nonexudative neovascular AMD,
[Dr. Philip J. Rosenfeld] said.”).
Su, D., et al., A Review of Subthreshold Micropulse
Laser and Recent Advances in Retinal Laser Technology, 6(1) Ophthalmol. Ther. 1–6 (2017) (“The role of
retinal photocoagulation as a first line therapy for

205a
various retinal pathologies has decreased with the introduction of anti-vascular endothelial growth factor
therapy. However, retinal laser therapy remains an
important treatment modality, especially with the
emergence of micropulse subthreshold treatment and
the integration of newer technology such as augmented reality and semi-automated delivery. * * *
Furthermore, subthreshold laser therapy, a term used
to describe the deliverance of laser energy below the
threshold of causing permanent tissue destruction,
has been shown to alter the metabolic activity and
gene expression of the RPE, resulting in the release of
growth factors and cytokines that regulate angiogenesis and vascular leakage.”)

